<html>
<title> - HOW CAN TECHNOLOGIES HELP SECURE OUR BORDERS?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                          HOW CAN TECHNOLOGIES
                        HELP SECURE OUR BORDERS?

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 13, 2006

                               __________

                           Serial No. 109-60

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
28-628                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               SHEILA JACKSON LEE, Texas
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
J. RANDY FORBES, Virginia            BRIAN BAIRD, Washington
JO BONNER, Alabama                   JIM MATHESON, Utah
TOM FEENEY, Florida                  JIM COSTA, California
RANDY NEUGEBAUER, Texas              AL GREEN, Texas
BOB INGLIS, South Carolina           CHARLIE MELANCON, Louisiana
DAVE G. REICHERT, Washington         DENNIS MOORE, Kansas
MICHAEL E. SODREL, Indiana           DORIS MATSUI, California
JOHN J.H. ``JOE'' SCHWARZ, Michigan
MICHAEL T. MCCAUL, Texas
MARIO DIAZ-BALART, Florida


                            C O N T E N T S

                           September 13, 2006

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    15
    Written Statement............................................    15

Statement by Representative Bart Gordon, Minority Ranking Member, 
  Committee on Science, U.S. House of Representatives............    16
    Written Statement............................................    17

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    17

Prepared Statement by Representative Darlene Hooley, Member, 
  Committee on Science, U.S. House of Representatives............    18

Prepared Statement by Representative Lincoln Davis, Member, 
  Committee on Science, U.S. House of Representatives............    18

                               Witnesses:

Admiral Jay M. Cohen, Under Secretary for Science and Technology, 
  U.S. Department of Homeland Security; Accompanied by Mr. 
  Gregory L. Giddens, Director, Secure Border Initiative Program 
  Executive Office, U.S. Department of Homeland Security
    Oral Statement...............................................    19
    Written Statement............................................    22
    Biography (Admiral Jay M. Cohen).............................    26
    Biography (Gregory L. Giddens)...............................    27

Mr. Gordon Daniel Tyler, Jr., Johns Hopkins University, Applied 
  Physics Laboratory, National Security Technology Division
    Oral Statement...............................................    28
    Written Statement............................................    30
    Biography....................................................    45
    Financial Disclosure.........................................    48

Dr. Peter R. Worch, Independent Consultant, Member of the U.S. 
  Air Force Science Advisory Board
    Oral Statement...............................................    49
    Written Statement............................................    51
    Biography....................................................    60
    Financial Disclosure.........................................    63

Dr. Gervasio Prado, President, Sentech, Inc.
    Oral Statement...............................................    63
    Written Statement............................................    65
    Biography....................................................    66
    Financial Disclosure.........................................    67

Dr. Gregory J. Pottie, Associate Dean for Research and Physical 
  Resources, Henry Samueli School of Engineering and Applied 
  Science, University of California, Los Angeles
    Oral Statement...............................................    67
    Written Statement............................................    70
    Biography....................................................    80
    Financial Disclosure.........................................    81

Discussion.......................................................    82

              Appendix: Answers to Post-Hearing Questions

Admiral Jay M. Cohen, Under Secretary for Science and Technology, 
  U.S. Department of Homeland Security; Accompanied by Mr. 
  Gregory L. Giddens, Director, Secure Border Initiative Program 
  Executive Office, U.S. Department of Homeland Security.........   110

Dr. Peter R. Worch, Independent Consultant, Member of the U.S. 
  Air Force Science Advisory Board...............................   115


             HOW CAN TECHNOLOGIES HELP SECURE OUR BORDERS?

                              ----------                              


                     WEDNESDAY, SEPTEMBER 13, 2006

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 2:19 p.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                          How Can Technologies

                        Help Secure Our Borders?

                     wednesday, september 13, 2006
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On September 13, 2006, the House Science Committee will hold a 
hearing to examine how technology could be used to monitor the borders 
of the United States to deter illegal entry into the country and aid in 
apprehension of those crossing between legal points of entry.

2. Witnesses

Mr. Jay M. Cohen (RAdm., USN ret.) is the Under Secretary of Science 
and Technology at the U.S. Department of Homeland Security (DHS).

Mr. Gregory Giddens is the Director of the Secure Border Initiative 
Program Executive Office at DHS.

Dr. Gregory J. Pottie is the Associate Dean for Research and Physical 
Resources and a member of the Center for Embedded Network Sensors 
(funded in part by the National Science Foundation), Henry Samueli 
School of Engineering and Applied Science, UCLA.

Dr. Gervasio Prado is the President of Sentech, Inc. He is an expert in 
seismic and acoustic ground sensors.

Mr. G. Daniel Tyler heads the National Security Technology Division at 
the Johns Hopkins University Applied Physics Laboratory.

Dr. Peter R. Worch is an independent consultant, member of Air Force 
Science Advisory Board, and former Vice Commander of the Air Force's 
Rome Air Development Center (now Rome Laboratory).

3. Overarching Questions

        <bullet>  What technologies are currently being used at the 
        borders? What are the strengths and weaknesses of these 
        technologies? What technologies are currently available or in 
        development that could improve security at the borders?

        <bullet>  How should the effectiveness of technologies be 
        evaluated? How can the proper balance between deployment of 
        technology and deployment of personnel be determined?

        <bullet>  What research is or should be underway to develop the 
        next generation of border security technologies? How is DHS 
        determining specific technology requirements, and how are these 
        communicated to researchers and technology manufacturers?

4. Brief Overview

        <bullet>  The United States shares a border with Mexico that is 
        over 2,000 miles long, and a border with Canada that is over 
        5,200 miles long. Both borders include remote stretches of land 
        where unauthorized aliens can and do enter the United States.

        <bullet>  An array of technologies that are either currently 
        available commercially, adaptable from military applications, 
        or in development, could be deployed along the borders to 
        enhance surveillance of human or vehicular traffic. Some 
        experts suggest that an integrated system of advanced 
        surveillance technologies, deployed along the borders with the 
        necessary communications and information technology 
        infrastructure, could provide more effective security in remote 
        areas than would be provided by physical barriers.

        <bullet>  Impediments to deployment of border surveillance 
        technologies include the cost of the technologies and their 
        operation; the sensitivity of high-tech surveillance equipment 
        to extreme temperatures and harsh environments; and the need to 
        efficiently monitor, analyze, and respond to the potentially 
        vast quantities of information generated by such equipment.

        <bullet>  On November 2, 2005, DHS announced the Secure Border 
        Initiative (SBI), a multi-year plan to secure the Nation's 
        borders through improvements in technology and increases in 
        personnel. The fiscal year 2007 (FY07) budget request for SBI 
        is $639 million. Questions remain about how DHS will manage the 
        technology selection and deployment process, as well as whether 
        the DHS Science and Technology (S&T) Directorate is carrying 
        out the appropriate programs to support the SBI and develop the 
        next generation of border security technologies.

        <bullet>  Congress has become increasingly concerned that the 
        S&T Directorate is not providing adequately technical support 
        to the operational units of DHS or effectively engaging the 
        scientific community and private sector in targeted research 
        and development programs. As a result, both the House and 
        Senate appropriators have proposed significant reductions in 
        the S&T Directorate's funding for FY07.

5. Background

    Most traffic across the borders of the United States occurs at 
formal, monitored points of entry. Between the official entry points, 
however, there are vast stretches of undeveloped and unpopulated land 
where drug trafficking occurs and unauthorized aliens can and do enter 
the United States; these remote stretches of land along the borders 
also provide an opportunity for terrorists to enter the country 
undetected. Advanced sensing and information technology can assist in 
improving border surveillance and may constitute an effective 
alternative or supplement to physical barriers.
    On November 2, 2005, DHS announced the Secure Border Initiative 
(SBI), a multi-year plan to secure the Nation's borders and reduce 
illegal immigration by installing state-of-the-art surveillance 
technologies along the border as well as by increasing the personnel 
dedicated to border security and alien detention and processing. A 
component of this plan is SBInet, a system to integrate the relevant 
technologies and personnel at the border. DHS plans to award a single 
large contract for this technology integration project by September 30, 
2006. The FY07 budget request for SBInet was $100 million, and current 
estimates suggest that the SBInet program will eventually cost 
approximately $2.5 billion over five years. While the House and Senate 
FY07 appropriations bills allot DHS $115 and $132 million, 
respectively, to start on the SBInet, both bills require DHS to provide 
a strategic plan to Congress before most of the funding may be spent. 
Recent articles in The Washington Post and The New York Times describe 
concerns about whether the department is prepared to adequately manage 
the SBInet development and acquisition process and to effectively 
deploy and use the resulting technologies (see Appendices A and B).
Technologies for Border Security
    The two main classes of surveillance technologies are ground 
sensors and aerial vehicles. Ground sensors are devices that can detect 
movement or traffic in areas near or at the borders. These may be 
buried underground or elevated on fixed poles. Examples of such sensors 
include magnetic sensors (which detect passing metal objects), seismic 
sensors (which detect land movement resulting from the passage of 
groups of people or vehicles), infrared sensors (which detect changes 
in heat patterns), and visual sensors (i.e., regular or night vision 
cameras). Radar systems mounted on towers may also be utilized to 
detect movement. The strengths of these sensors is that their ranges 
vary from tens of yards to upwards of several miles, they are ``always 
on'' without getting tired or hungry, and by designing their deployment 
strategically, the different types of data they supply can be 
integrated to provide information on the path or behavior of whatever 
traffic has been observed and reduce the likelihood of false alarms. 
Their potential weaknesses relate to the cost of the sensors and their 
operation, and the difficulty of operating technologies in remote 
terrain, such as the need to develop long-lasting power sources to 
support sensors and communication systems, and electronic hardware that 
does not break down in extreme heat or cold. Acquisition costs for 
ground sensors are thousands of dollars per sensor, and installing 
ground-based radar systems can cost hundreds of thousands of dollars.
    Aerial vehicles equipped with a variety of sensors can be used to 
provide broad area surveillance over hundreds of miles. Examples 
include manned or unmanned aircraft and lighter than air platforms, 
including aerostats (which are tethered blimps) or airships (which 
hover at high altitudes). All of these platforms can carry sensor 
systems including visual cameras, radar systems, and electro-optical 
and infrared devices that use physical characteristics such as heat and 
movement to detect objects hidden from or too distant for visual 
inspection. The attraction of these aerial vehicles is that they can 
detect moving objects on the ground as well as capture images of 
recently traveled paths and thus can facilitate tracking suspicious 
motion in remote regions until Border Patrol agents can arrive to 
investigate. In addition, unmanned aerial vehicles can spend a 
significantly longer period of time in the air than manned aircraft 
since they are independent of an on-board human operator. However, 
there are limitations to the use of unmanned aerial vehicles in 
civilian airspace, and it is likely to be at least three to eight years 
before the Federal Aviation Administration approves of the use of 
unmanned aerial vehicles in commercial airspace. For the FAA to approve 
the use of unmanned aerial vehicles in commercial airspace, the 
unmanned vehicles will have to demonstrate the same capability as a 
human pilot to detect and avoid other aircraft. Unmanned aerial 
vehicles cost millions of dollars. For example, the replacement cost of 
the Customs and Border Protection Predator B unmanned aerial vehicle 
that crashed in April 2006 is $6.8 million.
    A variety of ground sensors and aerial vehicles are available today 
from commercial sources and are in use at the borders and by the 
military. These systems can be used to start the SBInet program, but 
improved technologies and new technologies are likely to be needed for 
a fully effective system. Relevant research and development is ongoing 
at academic centers, military laboratories, and the private sector, and 
these programs should lead to technologies with more accurate 
detection, improved resolution, and reduced procurement and maintenance 
costs. One question is how DHS S&T can best support, guide and 
accelerate such research and development work.
Past Use of Technologies for Border Security
    The security of the U.S. border is the responsibility of Customs 
and Border Protection, a unit of DHS that includes the Border Patrol 
and an air patrol unit. For many years, various forms of technology 
have been used at the border to support Border Patrol activities. For 
example, the Border Patrol has, since the early 1970s, placed sensors 
in remote areas to detect traffic by using ground sensors that detect 
movement and heat as well as video cameras and night vision cameras for 
surveillance. However, the DHS Office of the Inspector General (OIG) 
conducted a review\1\ of remote surveillance technology acquisition 
programs managed by the Border Patrol, evaluating primarily the 
Integrated Surveillance Intelligence System established in 1998, and 
determined that the technology acquired could not be credited for 
increases in apprehensions, and it consumed significant staff time to 
monitor videos and investigate sensor alarms. The report, published in 
December 2005, also concluded:
---------------------------------------------------------------------------
    \1\ Report OIG-0615, ``A Review of Remote Surveillance Technology 
Along the U.S. Land Borders,'' Department of Homeland Security, Office 
of the Inspector General, December 2005.

        <bullet>  There was no integration of the technology components 
        (i.e., if a camera was installed in the vicinity of a sensor, 
        it had to be manually redirected so that a visual check could 
---------------------------------------------------------------------------
        be done when motion was detected);

        <bullet>  The sensor systems were unable to differentiate false 
        alarms due to weather changes or animal movement from incidents 
        worth investigating;

        <bullet>  Efficient management of alarms and information was 
        lacking (i.e., messages containing no information beyond that 
        an alarm was triggered were sent to a remote office requiring 
        agents to be dispatched to investigate the area); and

        <bullet>  Many sensors were not designed to withstand the 
        stresses of the variations in terrain and weather conditions 
        along the borders.

    In February, 2006, DHS testified before Congress on the agency's 
response to the OIG report.\2\ DHS agreed with the concerns outlined in 
the report and noted that the Integrated Surveillance Intelligence 
System program had already been terminated (in 2004). DHS faulted the 
former Immigration and Naturalization Service and the General Services 
Administration for the poor management and oversight, lack of 
acquisition planning, and inadequate vendor competition noted by the 
OIG and stated that Customs and Border Protection had already taken 
steps to create a program management office with expertise in systems 
acquisition, contract management and oversight, and engineering to 
ensure that the administration of the SBI program would make more 
appropriate and effective decisions about technology acquisition, 
deployment, and use.
---------------------------------------------------------------------------
    \2\ Testimony of Greg Giddens, Director, Secure Border Initiative 
Program Executive Office, DHS before the House Committee on Homeland 
Security, Subcommittee on Management, Integration, and Oversight, 
February 16, 2006.
---------------------------------------------------------------------------
    In addition to the Border Patrol's use of sensors on the ground, 
the air unit of Customs and Border Protection also conducts 
surveillance and interdiction of illegal activity using helicopters and 
small planes. These activities were supplemented by surveillance by 
unmanned aircraft with the assistance of the Department of Defense from 
June 2004 through January 2005. DHS then acquired a Predator B unmanned 
aircraft and deployed it along the southern border in September 2005. 
This aircraft crashed in April 2006, and the preliminary National 
Transportation Safety Board review implicates a procedural error made 
by the land-based pilot. DHS had already contracted to purchase a 
second Predator B prior to the crash of the first one and both the 
House and Senate Appropriations bills for FY07 include funding for 
acquisition of unmanned aerial vehicles.
    In addition to ground sensors and aerial surveillance, the Border 
Patrol has also used fencing in certain locations as part of border 
traffic control efforts. In 1993, the Border Patrol completed a 14-mile 
fence along the San Diego sector border, and a more robust secondary 
fence replacement has been built along nine of the 14 miles since then. 
The effectiveness of the San Diego sector fence has been debated; 
proponents cite the drastic reduction in apprehensions in the years 
following its construction as evidence of its success, while opponents 
attribute the reduction to growth in Border Patrol personnel and 
increased local deployment of ground sensors. Outside factors such as 
economics and the job market may have also played a role. In addition, 
counting the number of apprehensions locally does not provide 
information about the displacement of illegal traffic to areas without 
a fence.\3\ Proponents continue to advocate for the construction of 
physical barriers. In the current Congress, the House and Senate 
immigration bills\4\ both authorize the Secretary of Homeland Security 
to build a fence over hundreds of miles along the southwest border. An 
amendment to fund the construction of 370 miles of fencing along the 
southern border at a cost of $1.8 billion originally proposed to the 
Senate's FY07 Department of Homeland Security appropriations bill was 
defeated, however it was later adopted in the Senate FY07 Department of 
Defense appropriations bill.
---------------------------------------------------------------------------
    \3\ Blas Nunez-Neto and Stephen Vina, ``Border Security: Fences 
Along the U.S. International Border,'' CRS Report RS22026, January 11, 
2006.
    \4\ The immigration bills are H.R. 4437, The Border Protection, 
Anti-terrorism, and Illegal Immigration Control Act of 2005, which 
passed the House on December 16, 2005, and S. 2611, The Comprehensive 
Immigration Reform Act of 2006, which passed the Senate on May 25, 
2006.

Future Use of Technologies for Border Security
    In determining what sensors to use, one critical issue is the 
capability of the sensors to function with minimal interruption in a 
variation of environments, including desert, forests, mountains, and 
waterways, with significant temperature and weather fluctuations. In 
remote areas, providing power to support both the sensors and the 
communications systems that transmit the sensor data is also a 
technical challenge.
    A second critical issue is that the installation of large numbers 
of sensors, cameras, and other surveillance systems in the ground, on 
elevated platforms and on aerial vehicles will generate tremendous 
amounts of data. Computer systems can be used to manage the data, but 
it will be important to figure out where to deploy the sensors and how 
to link them together into a network so that information from different 
sensors can be compiled to provide a more complete picture of 
activities along the border. For example, installing infrared cameras 
and motion sensors in related positions can help Border Patrol 
distinguish between false alarms (say a passing coyote) and events 
worthy of further investigation and significantly reduce the dependence 
on personnel to look into alarms triggered by each sensor separately. 
Networked systems of sensors may also be used to collect data over a 
period of time and distance to allow agents or even computers to track 
a series of movements observed through several sensors being activated 
along the path of a group of people or a vehicle. Such data would 
assist in predicting where a Border Patrol agent could intercept the 
group most effectively. More advanced computer systems and networks 
could even take all of the information from the sensors and combine it 
with information about personnel and other infrastructure assets to 
provide a broad picture of activity along the border, which can be seen 
both by agents on patrol and central offices as needed in order to 
effectively manage responses and adjust agent deployments.
    A third critical issue is how border security personnel will be 
deployed to make effective use of the sensor technologies and how to 
ensure that sensor information is displayed in a clear and usable 
fashion.
    Computer models of the border security system developed with the 
support of DHS can help officials make decisions about what sensors to 
purchase and how to arrange them. Modeling is a mechanism to test 
system design to predict the effectiveness of different configurations 
of technology, forecast the personnel necessary to respond to 
incidents, and better understand the trade-offs between various 
options.
    Research and development at universities, federal laboratories, and 
in the private sector is underway to produce the next generation of 
sensors and computer software that will improve sensor data analysis 
and interpretation. Nanotechnology is increasingly facilitating the 
miniaturization of sensors, allowing the creation of devices that can 
perform multiple sensor functions (i.e., combining movement and light 
detection). Sensors may be designed that can detect mobile 
communication devices such as radios and cell phones which are likely 
to be carried by smugglers. New computer analysis software programs are 
creating ``smart'' systems, such as sensors that can make adjustments 
based on data from nearby sensors, altering their sensitivity or 
orientation to focus on local activity and assist with differentiating 
background noise from real events, or computer programs that can 
``learn'' from past experiences to properly predict which activities 
require investigation by personnel. One of the great challenges is 
development of ``automated scene understanding'' programs, computer 
systems that can automatically analyze images and recognize certain 
types of activities, such as characteristic physical behavior of 
migrants crossing through remote areas. Such automated interpretation 
of the feeds from cameras could greatly reduce the time spent by people 
interpreting images and deciding if they merit investigation.

The Role of the DHS Science and Technology Directorate
    The DHS Science and Technology Directorate (S&T) conducts research, 
development, testing, and evaluation of technologies to support the 
components of DHS, such as Customs and Border Protection. The funding 
levels within DHS S&T for border security activities are provided in 
Table 1.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    DHS S&T has supported DHS border security operations beginning in 
FY04, when it participated in the analysis and selection of an unmanned 
aerial vehicle for acquisition by the Border Patrol. In FY05, S&T 
evaluated various commercially available sensors to determine how well 
they could distinguish between animal and human traffic and how well 
their power sources worked. S&T also supported the development of 
BorderNet, a pilot program to provide Border Patrol agents with mobile 
computers to compare names and fingerprints of apprehended individuals 
with a database while still in the field and to allow them to 
communicate with other agents and potential backup teams.
    Currently, DHS S&T is contributing to the DHS-wide Secure Border 
Initiative by developing software that simulates the relationships and 
interdependencies among all personnel and assets at the border as well 
as immigration and customs enforcement infrastructure. This software is 
designed to allow the people making decisions about procurement and 
deployment of technologies to understand the trade-offs and possible 
unintended consequences of various changes in the broader border and 
immigration system, such as increased apprehensions requiring more 
detainment facilities and leading to backlogs in immigration court 
proceedings. In addition, DHS S&T is developing software that provides 
situational awareness to assist Border Patrol supervisors in tracking 
the location of agents and sensor activity on computer generated map 
displays to allow for efficient coordination of all possible resources 
in response to incidents or alarms.
    Since DHS was created in 2003, the S&T Directorate has struggled 
with issues related to program execution, the setting of priorities, 
and the building of relationships with the potential users of 
technologies within DHS. Congress and outside observers have expressed 
concerns that the S&T Directorate does not provide sufficient help in 
evaluating technologies for DHS acquisition programs, is not moving 
quickly enough to assess and adopt potential new technologies proposed 
by the private sector, and does not have a clear way to determine 
priorities for long-term research investments.
    Congressional concerns about ill-defined priorities, poor financial 
management systems, and staff turnover have affected DHS S&T's 
appropriations. In FY07, the House and Senate-passed appropriations 
levels are $956 million and $818 million, respectively; each is 
significantly below the request level ($1,002 million) and the FY06 
appropriated funding for the current S&T programs ($1,153 million). Jay 
M. Cohen was sworn in as Under Secretary for Science and Technology on 
August 10, 2007. He filled a position which had been vacant since March 
2006.

6. Questions for the Witnesses

    Mr. Cohen and Mr. Giddens were asked to address the following 
questions in their testimony:

        <bullet>  What technologies are currently being used at the 
        borders? What are the strengths and weaknesses of these 
        technologies? What technologies are currently available or in 
        development that could improve security at the borders?

        <bullet>  How is DHS making decisions about technology 
        acquisition? How does DHS evaluate the effectiveness of 
        technologies? How is the proper balance between deployment of 
        technology and deployment of personnel determined?

        <bullet>  What research is underway to develop the next 
        generation of border security technologies? How is DHS 
        determining specific technology requirements and how are these 
        communicated to researchers and technology manufacturers?

    Dr. Pottie, Dr. Prado, Mr. Tyler, and Dr. Worch were asked to 
address the following questions in their testimony:

        <bullet>  What technologies are currently being used at the 
        borders? What are the strengths and weaknesses of these 
        technologies? What technologies are currently available or in 
        development that could improve security at the borders?

        <bullet>  How should the effectiveness of technologies be 
        evaluated? How can the proper balance between deployment of 
        technology and deployment of personnel be determined?

        <bullet>  What research is or should be underway to develop the 
        next generation of border security technologies? How is DHS 
        communicating specific technology requirements to researchers 
        and technology manufacturers?

Appendix A:

            Technology Has Uneven Record on Securing Border

                Washington Post, May 21, 2006, Page A01
                  By Spencer S. Hsu and John Pomfret,
                     Washington Post Staff Writers
    Applying lessons the U.S. military has learned in Afghanistan and 
Iraq, the Bush administration is embarking on a multi-billion-dollar 
bid to help secure the U.S.-Mexican border with surveillance 
technology--a strategy that veterans of conflicts abroad say will be 
more difficult than it appears.
    One component of the Strategic Border Initiative provides the 
technological underpinning for the bold prediction by Homeland Security 
Secretary Michael Chertoff that the United States will gain control of 
the Mexican border and the Canadian border in as little as three years.
    The plan envisions satellites, manned and unmanned aircraft, ground 
sensors and cameras tied to a computerized dispatch system that would 
alert Border Patrol units. ``We are launching the most technologically 
advanced border security initiative in American history,'' President 
Bush said in his address to the Nation Monday.
    Skeptics contend that the Department of Homeland Security's record 
of applying technology is abysmal. Industry analysts say that an 
initial $2 billion private-sector estimate is low. And by allowing the 
winning bidder to determine the technology and personnel needed to 
detect, catch, process and remove illegal immigrants, experts say, the 
plan ensures a big payday for contractors, whatever the outcome.
    ``If the military could seal a 6,000-mile border for $2 billion, 
Iraq's borders would have been sealed two years ago,'' said Andrew F. 
Krepinevich Jr., Executive Director of the Center for Strategic and 
Budgetary Assessments, a defense think tank.
    SBInet, part of the border initiative, will dictate the 
government's long-term presence. Bush's push for a guest-worker program 
is grounded in the premise that conventional ``enforcement alone will 
not do the job.''
    By reducing demand for immigrant labor, beefing up the Border 
Patrol and deploying next-generation technology to catch illegal border 
crossers, the administration plan ``assumes operational control within. 
. .three to five years,'' Chertoff told Congress last month.
    To supporters such as Sen. Judd Gregg (R-N.H.), Chairman of the 
Senate subcommittee that funds homeland security, the Pentagon already 
possesses the necessary technology.
    ``It's complex, but it doesn't have to be invented. It hardly even 
has to be modified,'' Gregg said. ``It's really just a question of 
will--and dollars.''
    On the ground, early results of the government's multi-billion-
dollar wager to plug the porous border already are on display.
    In far southwestern Arizona, U.S. Customs agents, the Border Patrol 
and the National Guard patrol 120 miles of forbidding desert from a 
communications room filled with computer workstations and lined with 25 
flat-screen televisions on the wall.
    The Border Patrol installed 25 fixed cameras over favored smuggling 
routes in the sector in recent years. More than 100 sensors lie buried 
in the ground. Seismic sensors alert at the movement of large numbers 
of people. Infrared sensors pick up heat signatures of people and 
objects, and magnetic sensors detect vehicles.
    Agents also point to what they call the ``skybox''--a 25-square-
foot room 30 feet above the border on a hydraulic jack, with top-of-
the-line night-vision equipment. Agents say it's claustrophobic but has 
one redeeming virtue--air conditioning.
    Overhead, the border agencies use blimps, unmanned aircraft, Black 
Hawk and Chinook helicopters and fixed-wing aircraft.
    ``We are starting to see substantial improvements,'' said Chris Van 
Wagenen, a senior patrol agent assigned to Yuma, Ariz. ``Now we've got 
sensors, cameras. We've doubled our manpower in a year, but we still 
need more.''
    Bush has budgeted $100 million this year for SBInet. But Chertoff's 
department declined to estimate how much the three-to-six-year contract 
ultimately will cost. Industry analysts expect at least $2 billion in 
spending--and possibly much more over a longer period, based on the 
history of overruns in major Homeland Security technology programs.
    By turning to contractors such as Boeing, Ericsson, Lockheed 
Martin, Northrop Grumman and Raytheon to design the workings of the 
system, SBInet also marks a government reliance on private-sector 
partners to carry out missions without a clear idea of what the network 
will look like, according to experts and immigration officials.
    ``SBInet represents a potential bonanza'' for tens if not hundreds 
of companies, said John Slye, senior analyst of federal opportunities 
for Input, a Reston-based federal contracting consulting firm. The 
project is the most anticipated single civilian information technology 
contract since the Sept. 11, 2001, terrorist attacks, he said.
    Skeptics in Congress cite a decade of frustration at the border.
    Because of poor management, two failed border technology programs 
have cost taxpayers $429 million since 1998, the Homeland Security 
inspector general reported in December. Nearly half of 489 remote video 
surveillance sites planned for the border in the past eight years were 
never installed. Sixty percent of sensor alerts are never investigated, 
90 percent of the rest are false alarms and only one percent overall 
result in arrests.
    A 10-year, $10 billion system to automate border entry and exit 
data, US-VISIT, has yet to test security and privacy controls in its 
seventh year, congressional auditors reported.
    Sen. Joseph I. Lieberman (Conn.), top Democrat on the homeland 
security committee, called the plan to solicit bids by May 30, pick a 
single winner and start to deploy by September ``unrealistic'' and 
filled with ``too many questions.''
    ``How is `SBI' not just another three-letter acronym for failure?'' 
Harold Rogers (R-Ky.), Chairman of the House Appropriations 
Subcommittee, asked at a hearing last month.
    Chertoff deputy Michael P. Jackson said government is not the best 
judge of innovation in rapidly evolving technology and will benefit 
from the nimbleness of the private sector while conducting disciplined 
oversight.
    ``We are not buying a pig in a poke.. . .We don't have to buy 
everything they sell,'' said Jackson, former head of a division at 
Lockheed Martin.
    In Arizona, agents say cameras are mainly limited to populated 
areas because other parts of the border, where most illegal crossings 
occur, do not have electricity, and solar-powered cameras don't work. 
Sand, insects and moisture play havoc with the sensors, causing them to 
shut down or fire repeatedly. Agents and support staff are too busy to 
respond to each alarm.
    On April 25, the Border Patrol's first and only Predator 2 unmanned 
aerial vehicle crashed outside Tubac, Ariz., just seven months after 
the $6.5 million craft began its flights.
    To military experts, the goal of erecting a ``virtual fence'' 
recalls attempts four decades ago to shut down the 1,700-square-mile 
area of the Ho Chi Minh Trail used to infiltrate South Vietnam, and 
more recently, to halt incursions along 1,200 miles of Iraq's border 
with Iran, Saudi Arabia and Syria.
    ``It's always harder than you think,'' said Robert Martinage, 
Krepinevich's senior defense analyst. ``The record is mixed.''
    Technology has, of course, advanced rapidly over the decades. The 
Southwest's climate and foliage pose fewer challenges, and U.S. law 
enforcement has advantages of mobility, security and infrastructure on 
its side, said retired Air Force Maj. Gen. Glen D. Shaffer, a former 
director for intelligence for the Joint Chiefs of Staff.
    Shaffer, now President and Chief Operating Officer of dNovus RDI, a 
Texas firm that may bid on SBInet, said the project is reasonable but 
not foolproof. ``Where the military historically has fallen short is 
putting all investments in sensors and not enough in the people that 
exploit the sensors. I would hope that DHS can get this right.''
    But smugglers of drugs and immigrants also are highly adaptable and 
willing to escalate the border ``arms race,'' said Deborah W. Meyers, 
senior policy analyst at the Migration Policy Institute, a think tank.
    ``Coyotes'' are regularly caught with night-vision goggles, 
military-issue binoculars, hand-held global positioning systems, and a 
treasure trove of cell phones and police scanners that allow them to 
listen to border agents.
    Border Patrol agents said that smugglers dispatch scouts every five 
minutes to check enforcement through the border crossing at San Luis, 
due south of Yuma on the Mexican border.
    ``They even know the names of our drug dogs, and which are better 
at which drugs,'' one agent said. ``It's unbelievable how much we are 
being watched.''
    Officials say they don't need to seal the borders. They just need 
to catch enough illegal border crossers to deter others from attempting 
the trip.
    Robert C. Bonner, head of Customs and Border Protection from 2003 
to 2005, said that at current staffing, the Border Patrol can handle 
only 10 percent of the illegal immigrant problem.
    ``But if you can reduce the flow even by half,'' he said, ``with 
moderate increases for Border Patrol and technology, we actually can 
control our border in a way we haven't been able to in 20 or 30 
years.''

Appendix B:

                      Seeking to Control Borders,

                 Bush Turns to Big Military Contractors

               The New York Times, May 18, 2006, Page A1
                             By Eric Lipton

    The quick fix may involve sending in the National Guard. But to 
really patch up the broken border, President Bush is preparing to turn 
to a familiar administration partner: the Nation's giant military 
contractors.
    Lockheed Martin, Raytheon and Northrop Grumman, three of the 
largest, are among the companies that said they would submit bids 
within two weeks for a multi-billion-dollar federal contract to build 
what the Administration calls a ``virtual fence'' along the Nation's 
land borders.
    Using some of the same high-priced, high-tech tools these companies 
have already put to work in Iraq and Afghanistan--like unmanned aerial 
vehicles, ground surveillance satellites and motion-detection video 
equipment--the military contractors are zeroing in on the rivers, 
deserts, mountains and settled areas that separate Mexico and Canada 
from the United States.
    It is a humbling acknowledgment that despite more than a decade of 
initiatives with macho-sounding names, like Operation Hold the Line in 
El Paso or Operation Gate Keeper in San Diego, the Federal Government 
has repeatedly failed on its own to gain control of the land borders.
    Through its Secure Border Initiative, the Bush administration 
intends to not simply buy an amalgam of high-tech equipment to help it 
patrol the borders--a tactic it has also already tried, at a cost of 
hundreds of millions of dollars, with extremely limited success. It is 
also asking the contractors to devise and build a whole new border 
strategy that ties together the personnel, technology and physical 
barriers.
    ``This is an unusual invitation,'' the deputy secretary of homeland 
security, Michael Jackson, told contractors this year at an industry 
briefing, just before the bidding period for this new contract started. 
``We're asking you to come back and tell us how to do our business.''
    The effort comes as the Senate voted Wednesday to add hundreds of 
miles of fencing along the border with Mexico. The measure would also 
prohibit illegal immigrants convicted of a felony or three misdemeanors 
from any chance at citizenship.
    The high-tech plan being bid now has many skeptics, who say they 
have heard a similar refrain from the government before.
    ``We've been presented with expensive proposals for elaborate 
border technology that eventually have proven to be ineffective and 
wasteful,'' Representative Harold Rogers, Republican of Kentucky, said 
at a hearing on the Secure Border Initiative program last month. ``How 
is the S.B.I. not just another three-letter acronym for failure?''
    President Bush, among others, said he was convinced that the 
government could get it right this time.
    ``We are launching the most technologically advanced border 
security initiative in American history,'' Mr. Bush said in his speech 
from the Oval Office on Monday.
    Under the initiative, the Department of Homeland Security and its 
Customs and Border Protection division will still be charged with 
patrolling the 6,000 miles of land borders.
    The equipment these Border Patrol agents use, how and when they are 
dispatched to spots along the border, where the agents assemble the 
captured immigrants, how they process them and transport them--all 
these steps will now be scripted by the winning contractor, who could 
earn an estimated $2 billion over the next three to six years on the 
Secure Border job.
    More Border Patrol agents are part of the answer. The Bush 
administration has committed to increasing the force from 11,500 to 
about 18,500 by the time the president leaves office in 2008. But 
simply spreading this army of agents out evenly along the border or 
extending fences in and around urban areas is not sufficient, officials 
said.
    ``Boots on the ground is not really enough,'' Homeland Security 
Secretary Michael Chertoff said Tuesday at a news conference that 
followed Mr. Bush's announcement to send as many as 6,000 National 
Guard troops to the border.
    The tools of modern warfare must be brought to bear. That means 
devices like the Tethered Aerostat Radar, a helium-filled airship made 
for the Air Force by Lockheed Martin that is twice the size of the 
Goodyear Blimp. Attached to the ground by a cable, the airship can 
hover overhead and automatically monitor any movement night or day. 
(One downside: it cannot operate in high winds.)
    Northrop Grumman is considering offering its Global Hawk, an 
unmanned aerial vehicle with a wingspan nearly as wide as a Boeing 737, 
that can snoop on movement along the border from heights of up to 
65,000 feet, said Bruce Walker, a company executive.
    Closer to Earth, Northrop might deploy a fleet of much smaller, 
unmanned planes that could be launched from a truck, flying perhaps 
just above a group of already detected immigrants so it would be harder 
for them to scatter into the brush and disappear.
    Raytheon has a package of sensor and video equipment used to 
protect troops in Iraq that monitors an area and uses software to 
identify suspicious objects automatically, analyzing and highlighting 
them even before anyone is sent to respond.
    These same companies have delivered these technologies to the 
Pentagon, sometimes with uneven results.
    Each of these giant contractors--Lockheed Martin alone employs 
135,000 people and had $37.2 billion in sales last year, including an 
estimated $6 billion to the Federal Government--is teaming up with 
dozens of smaller companies that will provide everything from the 
automated cameras to backup energy supplies that will to keep this 
equipment running in the desert.
    The companies have studied every mile of border, drafting detection 
and apprehension strategies that vary depending on the terrain. In a 
city, for example, an immigrant can disappear into a crowd in seconds, 
while agents might have hours to apprehend a group walking through the 
desert, as long as they can track their movement.
    If the system works, Border Patrol agents will know before they 
encounter a group of intruders approximately how many people have 
crossed, how fast they are moving and even if they might be armed.
    Without such information, said Kevin Stevens, a Border Patrol 
official, ``we send more people than we need to deal with a situation 
that wasn't a significant threat,'' or, in a worst case, ``we send 
fewer people than we need to deal with a significant threat, and we 
find ourselves outnumbered and outgunned.''
    The government's track record in the last decade in trying to buy 
cutting-edge technology to monitor the border--devices like video 
cameras, sensors and other tools that came at a cost of at least $425 
million--is dismal.
    Because of poor contract oversight, nearly half of video cameras 
ordered in the late 1990's did not work or were not installed. The 
ground sensors installed along the border frequently sounded alarms. 
But in 92 percent of the cases, they were sending out agents to respond 
to what turned out to be a passing wild animal, a train or other 
nuisances, according to a report late last year by the homeland 
security inspector general.
    A more recent test with an unmanned aerial vehicle bought by the 
department got off to a similarly troubling start. The $6.8 million 
device, which has been used in the last year to patrol a 300-mile 
stretch of the Arizona border at night, crashed last month.
    With Secure Border, at least five so-called system integrators--
Lockheed, Raytheon and Northrop, as well as Boeing and Ericsson--are 
expected to submit bids.
    The winner, which is due to be selected before October, will not be 
given a specific dollar commitment. Instead, each package of equipment 
and management solutions the contractor offers will be evaluated and 
bought individually.
    ``We're not just going to say, `Oh, this looks like some neat 
stuff, let's buy it and then put it on the border,' '' Mr. Chertoff 
said at a news conference on Tuesday.
    Skepticism persists. A total of $101 million is already available 
for the program. But on Wednesday, when the House Appropriations 
Committee moved to approve the Homeland Security Department's proposed 
$32.1 billion budget for 2007, it proposed withholding $25 million of 
$115 million allocated next year for the Secure Border contracting 
effort until the Administration better defined its plans.
    ``Unless the department can show us exactly what we're buying, we 
won't fund it,'' Representative Rogers said. ``We will not fund 
programs with false expectations.''

    CORRECTION: A front-page article on Thursday about a federal plan 
to use contractors to help secure the borders of the United States 
misstated the amount that Lockheed Martin made in Federal Government 
sales in 2005. Of $37.2 billion in sales, more than $31 billion, not $6 
billion, was in sales to the government.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. Sorry for the delay, but a vote is in 
progress on the Floor. I don't think we will be interrupted for 
several hours now, so we are all set.
    I want to welcome everyone to this afternoon's hearing. I 
especially want to welcome Admiral Cohen, who has been 
confirmed as Under Secretary right just before the August 
recess, and who is making his first appearance before our 
Committee. Admiral, to know us is to love us. We have very high 
hopes for Admiral Cohen, and we appreciate his efforts to make 
sure he could attend today's hearing.
    I want to remind Admiral Cohen, as we always reminded your 
predecessor, that this is the Committee that created the 
Science and Technology Directorate, and we are eager to see it 
succeed. As we said at the time we were establishing the 
Department of Homeland Security, ``Like the Cold War, the war 
against terrorism will be won as much in the laboratory as on 
the battlefield.'' We cannot afford to let the Directorate 
flounder.
    One of the Directorate's most important areas of 
responsibility is the subject of today's hearing: border 
security. There are many aspects of border security, a hot 
topic right now, but one essential aspect is certainly how to 
successfully deploy technology to help prevent or thwart 
illegal border crossings.
    My sense is that we haven't done a very good job of that so 
far. We haven't methodically thought through what technology to 
develop, how to deploy it, and how to integrate it with the 
people who will actually be apprehending those trying to cross 
the border illegally. We haven't come up with a clear, 
adequately funded plan to conduct the research needed to 
improve existing technologies and create new ones. And in 
Congress, we haven't thought comprehensively about border 
security, instead focusing on massive public works projects, 
like border fences.
    Hopefully, the Secure Border Initiative the Department of 
Homeland Security is in the process of implementing will start 
us down a more thoughtful and successful path. This committee 
certainly will be watching that with great anticipation. And we 
will especially want to be sure that there is adequate research 
to ensure that technology can continue to improve.
    We have before us today, my colleagues, some of the leading 
experts in the field, who will give us their views on what the 
Department, and particularly the Science and Technology 
Directorate, should be doing to ensure that border security 
improves. And that, in everyone's mind, is an imperative. Our 
motto here should be ``better living through technology.'' That 
doesn't mean technology to the exclusion of people. It means 
technology that is designed with the users in mind and that is 
integrated with the Border Patrol.
    I am very eager to hear their testimony.
    Mr. Gordon.
    [The prepared statement of Chairman Boehlert follows:]

          Prepared Statement of Chairman Sherwood L. Boehlert

    I want to welcome everyone this afternoon's hearing. I especially 
want to welcome Admiral Cohen, who was confirmed as Under Secretary 
right before the August recess and who is making his first appearance 
before our committee. We have very high hopes for Admiral Cohen, and we 
appreciate his efforts to make sure he could attend today's hearing.
    I want to remind Admiral Cohen, as we always reminded his 
predecessor, that this is the Committee that created the Science and 
Technology Directorate, and we are eager to see it succeed. As we said 
at the time we were establishing the Department of Homeland Security, 
``Like the cold war, the war against terrorism will be won as much in 
the laboratory as on the battlefield.'' We cannot afford to let the 
Directorate flounder.
    One of the Directorate's most important areas of responsibility is 
the subject of today's hearing, border security. There are many aspects 
of border security--a hot topic right now--but one essential aspect is 
certainly how to successfully deploy technology to help prevent or 
thwart illegal border crossings.
    My sense is that we haven't done a very good job of that so far. We 
haven't methodically thought through what technology to deploy, how to 
deploy it, and how to integrate it with the people who will actually be 
apprehending those trying to cross the border illegally. We haven't 
come up with a clear, adequately funded plan to conduct the research 
needed to improve existing technologies and create new ones. And in 
Congress, we haven't thought comprehensively about border security, 
instead focusing on massive public works projects, like border fences.
    Hopefully, the Secure Border Initiative the Department of Homeland 
Security is in the process of implementing will start us down a more 
thoughtful and successful path. This committee will certainly be 
watching that with great anticipation. And we will especially want to 
be sure that there is adequate research to ensure that technology can 
continue to improve.
    We have before us today some of the leading experts in the field, 
who will give us their views on what the Department, and particularly 
the Science and Technology Directorate, should be doing to ensure that 
border security improves. Our motto here should be ``better living 
through technology.'' That doesn't mean technology to the exclusion of 
people. It means technology that is designed with the users in mind and 
that is integrated with the Border Patrol.
    I am very eager to hear their testimony.
    Mr. Gordon.

    Mr. Gordon. Thank you, Mr. Chairman.
    Securing the Nation's borders is one of the main 
responsibilities of the Department of Homeland Security. Border 
control is prominent in the current debate on illegal 
immigration and certainly is a necessary component of the 
larger issue of defending the country against terrorist 
attacks.
    Technology has an important role to play in border security 
simply because of the size and nature of the problem. There are 
thousands of miles of border, much of it remote and rugged, and 
a limited number of enforcement officers. Technology can 
provide tools needed to multiply the effectiveness of the 
Border Patrol officers in the detecting and apprehending 
illegal intruders at the border.
    The question is what detection, surveillance, 
communication, and computer-aided analysis and control 
techniques--technologies are appropriate and cost-effective, 
and how can they be integrated into an effective system for 
border security.
    The Department of Homeland Security's Science and 
Technology Directorate has developed a resource portfolio that 
is focused on improving border security. I am particularly 
interested in hearing how the S&T Directorate will be providing 
its expertise and advice to assist the Border Patrol in its 
procurement of the new, integrated border control system called 
for under the Border Security Initiative.
    The Secure Border Initiative is an ambitious undertaking 
that follows past unsuccessful efforts to integrate and 
automate sensors and surveillance technologies in a user-
friendly system. To succeed this time will require close 
supervision by DHS. I hope to hear that this S&T Directorate 
will be closely involved with the establishment of a new border 
control system and with its evolution as new technology becomes 
available.
    Again, thanks, Mr. Chairman. I want to thank you for 
holding this hearing, and I look forward to this very 
distinguished panel discussion.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    Securing the Nation's borders is one of the main responsibilities 
of the Department of Homeland Security.
    Border control is prominent in the current debate on illegal 
immigration and certainly is a necessary component of the larger issue 
of defending the country against terrorist attacks.
    Technology has an important role to play in border security simply 
because of the size and nature of the problem. There are thousands of 
miles of border, much of it remote and rugged, and a limited number of 
enforcement officers.
    Technology can provide the tools needed to multiply the 
effectiveness of the Border Patrol officers in detecting and 
apprehending illegal intruders at the border.
    The question is what detection, surveillance, communication, and 
computer-aided analysis and control technologies are appropriate and 
cost-effective, and how can they be integrated into an effective system 
for border security?
    The Department of Homeland Security's Science and Technology 
Directorate has developed a research portfolio that is focused on 
improving border security.
    I am particularly interested in hearing how the S&T Directorate 
will be providing its expertise and advice to assist the Border Patrol 
in its procurement of the new integrated border control system called 
for under the Secure Border Initiative.
    The Secure Border Initiative is an ambitious undertaking that 
follows past, unsuccessful efforts to integrate and automate sensors 
and surveillance technologies in a user-friendly system.
    To succeed this time will require close supervision by DHS. I hope 
to hear that the S&T Directorate will be closely involved with the 
establishment of the new border control system and with its evolution, 
as new technology becomes available.
    Mr. Chairman, I want to thank you for calling this hearing, and I 
look forward to our discussion with the panel.

    Chairman Boehlert. Thank you very much.
    All of our colleagues have the opportunity to insert 
opening remarks in the record at this juncture, but let us go 
right to the panel, as is our modus operandi here, because we 
want to listen and learn from the distinguished panelists 
before us.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank the witnesses for appearing before 
our committee to examine the current and potential uses of technology 
for improving border security and the research needs in this area.
    I believe border security and strengthening enforcement at our 
borders is the first step needed to reform our immigration policies. 
With my support, Congress has taken action to improve border facility 
infrastructure and to increase the number of Border Patrol agents and 
immigration inspectors. In addition to an increased physical presence, 
officials also need the technological capabilities, such as cameras, 
sensors, and surveillance equipment, to successfully detect and 
intercede illegal border activity.
    Within the Department of Homeland Security, the Office of Border 
Patrol (OBP) and the Science and Technology (S&T) Directorate work 
together to secure the land border of the United States. Specifically, 
the S&T Directorate assists the OBP in its efforts to implement the 
Secure Border Initiative, the networked system for detection and 
response to border incursions. To date, much of the work at S&T has 
been focused on the actual border, both at ports of entry and between 
ports of entry. The current technologies being used to secure the 
border include cameras and Unattended Ground Sensors (UGS) to detect 
and identify illegal border intrusions. I look forward to hearing from 
witnesses at the Department of Homeland Security as to why the current 
technological system is limited in its ability to detect activity and 
effectively operate.
    The number of people entering the country illegally at our borders 
presents risks to national security. I share the views of the witnesses 
that there is a not a ``one size fits all solution'' for border 
security. I believe we must provide adequate resource levels to support 
all aspects of border security in order to meet the challenges of 
securing our borders.
    I look forward to hearing from our witnesses.

    [The prepared statement of Ms. Hooley follows:]

          Prepared Statement of Representative Darlene Hooley

    I first want to thank the Chairman for holding a hearing today on 
this very important topic. The issue of illegal immigration is one that 
evokes passionate responses from most Americans. It is a complicated 
problem with many proposed solutions. However, while people may 
disagree on other aspects of the immigration debate, everyone agrees 
that we must have a secure border.
    Securing our border is going to take a multi-pronged approach. We 
will need to look at the problem comprehensively and address each 
component: increase the number of Border Patrol officers, place troops 
on the U.S. border, expand the use of technology to monitor our 
borders, track those who come into our country on temporary visas, and 
construct a fence to prevent illegal immigrants from crossing the 
border.
    The focus of today's hearing is on one of these components, 
expanding the use of technology to monitor our borders and making this 
technology easier to use for our Border Patrol officers, and I believe 
that this discussion is not coming a day too early.
    We need to be focusing on improving the various forms of border 
monitoring: cameras, motion detectors, ground sensors, unmanned aerial 
surveillance, so that they can be used effectively by the Border Patrol 
to construct a virtual fence across the border.
    Much talk has been made of building a fence along the entire 
border, a length of approximately 2,000 miles. However, limitations in 
funding and materials, as well as challenges posed by rugged terrain, 
may make this an impossible task. However, if we can build up our 
technology to the point that it allows for the continual monitoring of 
the entire border, we will be able to achieve a balance between the 
physical presence of a fence and the flexibility that technology 
allows.
    It is one thing for the technology to be developed and deployed. If 
the people on the ground can't integrate it into their training, it 
will be wasted. That is why I am heartened to hear many of the 
witnesses today make the statement that the focus needs to be on what 
technology works in the field, what technology will make the agents' 
lives easier, and not on what seems like a good idea in the lab. We 
will not achieve border security in a lab.
    Again, I thank the Chairman for holding this hearing and I thank 
all of today's witnesses for appearing and giving us much needed 
insight and expertise.
    I yield back the balance of my time.

    [The prepared statement of Mr. Davis follows:]

           Prepared Statement of Representative Lincoln Davis

    Good morning. Thank you, Mr. Chairman and Ranking Member, for the 
opportunity to discuss border security and the technology that can help 
secure American borders. Thank you, Witnesses, for your presence today.
    Over the past several months a debate about immigration and border 
security has finally received the attention it deserves. As I have been 
saying for years now, the influx of illegal immigrants into the United 
States is a problem that I wish Congress and the Administration would 
take more seriously. The ease with which people can cross the border 
should concern every American. I look forward to hearing from the panel 
today and to learn what technologies exist that can be used to make 
America safer.
    In the wake of 9/11, we must look at every possible solution and I 
believe an automated system at the border would be a positive step in 
securing our border. But I also believe that to make sure the taxpayers 
receive a reliable system that really works, the Department of Homeland 
Security (DHS) must proceed carefully with this project. DHS needs to 
be sure that the development process stays on time and, once complete, 
produces a program that actually works. I would encourage DHS to report 
back to Congress and update us on the progress of the project.
    It is my hope that today's hearing will provide the committee with 
the information we need to properly solve this important issue.
    Thank you, Mr. Chairman.

    Chairman Boehlert. Admiral Jay M. Cohen, Under Secretary 
for Science and Technology, U.S. Department of Homeland 
Security in your maiden appearance before this committee. 
Admiral, welcome. Mr. Gregory Giddens, Director, Secure Border 
Initiative Program Executive Office, U.S. Department of 
Homeland Security. Dr. Greg Pottie, Associate Dean for Research 
and Physical Resources, School of Engineering and Applied 
Science, University of California at Los Angeles. Dr. Gervasio 
Prado, President, SenTech, Incorporated. Mr. G. Dan Tyler, 
Johns Hopkins University, Applied Physics Laboratory, National 
Security Technology Division. And Dr. Peter Worch, Independent 
Consultant, Member of the U.S. Air Force Science Advisory 
Board.
    Thank you all, gentlemen. We really appreciate you being 
here and serving as resources for this committee.
    Now we are going to listen, hopefully learn, and then we 
will get right to the questions.
    Admiral, you are up first.

STATEMENT OF ADMIRAL JAY M. COHEN, UNDER SECRETARY FOR SCIENCE 
     AND TECHNOLOGY, U.S. DEPARTMENT OF HOMELAND SECURITY; 
ACCOMPANIED BY MR. GREGORY L. GIDDENS, DIRECTOR, SECURE BORDER 
    INITIATIVE PROGRAM EXECUTIVE OFFICE, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Admiral Cohen. Chairman Boehlert, Congressman Gordon, and 
all of the distinguished Members of this committee, I will tell 
you, it is a personal honor for me to be here, and I normally 
don't correct the Chairman, but I did have the honor of 
testifying before this committee in my prior life as Chief of 
Naval Research alongside Bob Ballard and other wonderful----
    Chairman Boehlert. That was a prior life.
    Admiral Cohen. It was a prior life.
    Chairman Boehlert. And I won't talk about it if you won't.
    Admiral Cohen. And it is looking pretty good.
    But I always like to start out by reminding everybody, and 
certainly not the Members or the witnesses, but everyone else 
who is here why we are here. And we just had the commemoration 
of the fifth anniversary, a very sad event, tragic events of 
September 11 of 2001. But we would not have a Department of 
Homeland Security, in my opinion, if it had not been for that 
heinous attack. And Chairman, you have addressed the enabling 
legislation for the Department of Homeland Security and the 19 
pages that created the S&T Directorate. I think that that was a 
very brave and inspired move on the part of the Congress and 
the Administration, and I salute you for that.
    I have had the opportunity over the last three weeks to 
meet with both majority and minority staffs in a very non-
partisan, bipartisan way, of six of my seven oversight 
committees and briefed the new organization, which Secretary 
Chertoff very kindly approved last Wednesday, and I briefed to 
the Homeland Security Committee last Thursday, and is now in 
effect. And that organizational construct, and the processes 
associated with it, will affect how Greg Giddens and I operate 
as we go forward. From my prior life and from Greg's prior life 
in deepwater, we have already a professional and a personal 
relationship.
    Mr. Chairman, on a personal note, I would like to thank you 
for your service. I know that--I understand--I don't think I am 
making that announcement. I understand it is public that you 
will be leaving, but your leadership and your vision has been 
incredibly important to the science and technology of this 
country. We are in crisis. The young kids are turning away in 
middle school from science and math, and I take that aspect of 
the enabling legislation my leadership role in encouraging the 
future generations to pursue the hard topics so that we 
continue to enjoy the wealth and the freedom that science and 
technology and innovation has brought us very, very seriously. 
And in fact, I enjoy that part of my portfolio.
    I had prepared remarks, which I would request be made a 
part of the record.
    Chairman Boehlert. Without objection, so ordered, as will 
the complete statements of all our witnesses.
    Admiral Cohen. And in light of the distinguished witnesses 
who are here, the number of witnesses, and the number of 
Members who I know have questions, and the importance of this 
topic, I am going to depart even from my short oral statement 
that I had prepared to share with you the answer, the short 
answer, to what role does S&T play in enabling the Secure 
Border Initiative.
    Five years ago when Secretary Gordon England had just got 
to the job as Secretary of the Navy from his General Dynamics, 
F-16, very technological background, he called me in and he 
said, ``Admiral, before we sit down, tell me what I will get 
from my basic research investment today in 20 years.'' I wanted 
to make a good impression. I didn't want to say, ``I don't 
know.'' And so I said to the Secretary, ``Mr. Secretary, I 
cannot answer your question unless you let me control one 
variable.'' And he said, ``Well, Admiral, what is that?'' And I 
said, ``Well, Mr. Secretary, I can tell you, beyond a shadow of 
a doubt, that if we invest nothing today, in 20 years, you will 
have nothing.'' At that point, he went from ``Admiral'' to 
``Jay.'' He said, ``Sit down. You are right. Let us do 
business.'' And we had a wonderful five-year run together.
    So the converse of that is I could go through a litany of 
individual technologies, individual capabilities, but you are 
very familiar with that. The facts of life are it is S&T, in a 
spiral development with risk taking, that will initially, and 
you are going to hear some of the promise and some of the 
deficiencies, I am sure, from the other witnesses, in making 
our borders secure. One size doesn't fit all. We have different 
terrain. We have coverage where we need to see through trees. 
We have Rocky Mountains. We have desert. We have water. In my 
organizational construct, we have established a Borders and 
Maritime Department, which is enduring what I found was a 
department that was organized for projects, not for enduring 
disciplines where projects might come and go.
    And so in the new organizational construct that the 
Secretary has approved, to date, there has been a very close 
alignment. We have got Merv Leavitt here, who worked with 
Greg's predecessor, of offering, and we have given detailed 
briefs to Members and to Hill staff and to industry. It has 
been part of the SBI/BAA, and I have been involved with them 
the short time I have been on board. But the facts of life are 
that, in my opinion, what you will see in terms of the industry 
who has come forward to give us the initial answers and the 
initial construct to make our borders secure should be 
considered either phase one or phase two. That is to kick-start 
it and that is medium- to low-risk technology solutions, some 
of which involve manpower, others of which leverage off the 
incredible investment that we have made in the Department of 
Defense over many years developing common operational pictures, 
air, land, and sea sensors, and the weapons and integration, 
both manned and unmanned.
    But in my role as Under Secretary for S&T, you all and the 
Congress, over many years, have wisely given S&T the authority 
to take risk. I am the risk component of acquisition. I put 
millions of dollars at risk in order to prevent putting 
billions of dollars in acquisition at risk. And we don't have 
the time today, and it is not the purpose of this hearing, but 
again, both the majority and minority staff has been fully 
briefed on this. I am pleased to brief you at any time. But you 
will see my portfolio now has acquisition enablers. These are 
the low- to medium-risk technologies across all the venues that 
Greg must fulfill. This is when you go to Best Buy you have a 
five mega pixel camera and they are offering an eight mega 
pixel camera and it is cheaper. That is spiral development. 
That is low risk. That is insertion of technologies. And by the 
way, ladies and gentlemen, it has metrics and S&T of cost, 
schedule, and capability.
    But there are other avenues where we take higher risk, and 
you gave me HSARPA, and you told me to prototype and deploy and 
test. That is medium- to high-risk. With that comes the 
probability of failure. But failure is not a negative in 
science and technology. We learn from those failures. We get it 
back into the scientific method, and we then come through with 
the success. Those are two- to five-year prototypical 
demonstrations. Candidly, they embarrass the status quo. They 
are meant to embarrass the status quo. And if they work, when 
they work, we then insert them laterally for leap-ahead 
capabilities in the SBI or other initiatives.
    And then finally, I have basic research. Basic research 
makes leadership very uncomfortable. It doesn't make this 
committee uncomfortable, because they understand the value of 
change in paradigms. They understand that only the Federal 
Government can make the sustained investment year to year in 
our laboratories and in our universities to cultivate the 
discoveries like the small investment in more precise 
measurement of time in the mid 1970s that gave us global 
positioning in the 1990s and changed the world, or the 
transistor that has given us the wireless world today, or 
E=MC<SUP>2</SUP> that has given us nuclear power. But the model 
that exists today, and that has worked for many, many years, is 
1,000 flowers are planted in basic research, 100 projects are 
taken and matured in applied research, two to three prototypes 
then are developed in advanced technology, and we get the 
George Foreman grill. The George Foreman grill is the profit-
maker. Now every boss I have worked for, on the output side, 
this is true in industry and in the military and in government, 
would like the following model: one flower will result in one 
project, will give us one prototype, and then give us the 
George Foreman grill. Oh, that it could be that way.
    So the model you will see with me has balanced risk, 
different times to delivery, but in all cases, it is slave to 
the customer.
    And on specific questions of different technologies, I know 
Members will ask, and I will be glad to answer that.
    And with that, this is a joint statement for Greg and I. I 
am honored to be here and look forward to your questions, sir.
    [The prepared statement of Admiral Cohen and Mr. Giddens 
follows:]

       Prepared Statement of Jay M. Cohen and Gregory L. Giddens

Introduction

    Good morning. Chairman Boehlert, Congressman Gordon, and 
distinguished Members of the Committee, it is a pleasure to be with you 
today to discuss the progress the Department of Homeland Security is 
making in the Nation's efforts to secure America's borders. Today, in 
accordance with the Committee's letter of invitation to testify, we 
will focus our testimony on how technology can help secure our borders, 
especially the ways in which science and technology support the 
Department of Homeland Security's Secure Border Initiative.
    Under the Secure Border Initiative, the Science and Technology 
(S&T) Directorate supports the homeland security missions of U.S. 
Customs and Border Protection (CBP), U.S. Immigration and Customs 
Enforcement (ICE), U.S. Citizenship and Immigration Services (USCIS), 
United States Coast Guard (USCG), Intelligence and Analysis (I&A), US-
VISIT, the Domestic Nuclear Detection Office (DNDO), and others by 
conducting, stimulating, and enabling research, development, test, 
evaluation, and timely transition of homeland security capabilities to 
end-users in the field.

Problem Statement

    The challenge of securing the Nation's borders is enormous. Border 
security is a continuum that begins far beyond the borders of the 
United States and continues to the interior of our country. It involves 
the movement of both people and goods and is not successful unless it 
protects the country from harm and allows lawful trade and immigration. 
Border security requires a critical blend of tangible resources such as 
equipment and personnel, along with intangible items such as useful 
intelligence and strong partnerships with foreign governments. Securing 
the United States borders is a Presidential priority. In his May 15, 
2006, Address to the Nation, President Bush said, ``First, the United 
States must secure its borders. This is a basic responsibility of a 
sovereign nation. It is also an urgent requirement of our national 
security. Our objective is straightforward: The border should be open 
to trade and lawful immigration--and shut to illegal immigrants, as 
well as criminals, drug dealers, and terrorists.. . .We are launching 
the most technologically advanced border security initiative in 
American history. We will construct high-tech fences in urban 
corridors, and build new patrol roads and barriers in rural areas. We 
will employ motion sensors, infrared cameras, and unmanned aerial 
vehicles to prevent illegal crossings. America has the best technology 
in the world, and we will ensure that the Border Patrol has the 
technology they need to do their job and secure our border.''
    To date, much of the work of S&T has been focused on the actual 
border, both at ports of entry and between ports of entry. The current 
technologies being used between ports of entry to secure the border 
include cameras and Unattended Ground Sensors (UGS) to detect and 
identify illegal border intrusions. Cameras--both daylight and thermal 
infrared that are installed on poles and other structures along high-
volume illegal alien traffic areas of the border--constitute the Remote 
Video Surveillance (RVS) system. UGS are also used along high-volume 
illegal alien traffic areas of the border.
    The current systems provide a remote detection and identification 
capability, but with limitations. For example, (1) sensors are not able 
to differentiate between illegal activity and legitimate events; (2) 
RVS cameras cannot automatically detect any activity or movement and 
are limited by weather; (3) sensors are limited by battery power and 
RVS cameras have infrastructure requirements; and (4) system 
effectiveness is dependent upon the availability and capability of 
skilled operations and maintenance personnel.

Secure Border Initiative

    The Secure Border Initiative (SBI) is the Department's approach to 
lead, integrate, and unify our efforts against cross border and 
international activities that threaten border security. SBI's approach 
is that the border is not merely a physical frontier and effectively 
securing it requires attention to processes that begin far outside the 
U.S. borders, occur at the border and continue to all regions of the 
United States. SBI brings a systems approach to meeting this challenge; 
its mission is to integrate and unify the systems, programs and 
policies needed to secure the border and enforce our customs and 
immigration laws. It is a national effort to transform the border 
security continuum with the objective to disrupt, dismantle and deter 
all cross-border crime and balance legitimate travel and trade into and 
out of the United States.
    The Science & Technology Directorate is supporting SBI by providing 
the systems engineering tools, processes, and manpower to ensure that 
SBI implementation is effective and affordable. In addition to 
providing systems integration, analysis and engineering support, S&T is 
developing an integrated systems model. Using modeling & simulation, 
SBI decision-makers will have the tools to make informed choices for 
investment strategies and program and policy formulation. The decision 
makers will understand: 1) where to invest scarce resources (e.g., how 
many agents and detention beds, how much technology and fencing), 2) 
the trade-offs associated with their decisions, and 3) where the gaps 
and risks are. The first phase of this model focuses on the immigration 
system.
    Technology is required that will provide better detection of 
illegal activity and situational awareness to give us the ability to 
make near-real-time strategic and tactical decisions regarding our 
response. These technological capabilities will include new sensors and 
platforms using manned, unmanned, ground, air, maritime or perhaps even 
space assets, as well as command and control, decision support aids, 
robust communications capability, surveillance equipment, and data 
transfer.
    DHS has a requirement for a Common Operating Picture (COP) at the 
tactical, operational and strategic levels that can seamlessly 
interface with systems used by other federal, State and local law 
enforcement partners. Better situational awareness and command and 
control at the border will facilitate the apprehension and location of 
individuals and groups who have violated or intend to violate the 
border. Leveraging emerging technologies and the development of 
standards, protocols and symbology enables the creation of common user 
views and information exchange. These common views and information then 
may be shared with all who operate at the border, independent of the 
method an agency chooses to implement its specific COP.
    S&T is also developing and transitioning technologies critical to 
SBInet (a component program of SBI) per the request of CBP, which is 
the executive agent for this program. Specific needs to be addressed to 
enhance the ability to detect and interdict illegal border activity 
are:

        <bullet>  Improved technology for detection, classification and 
        interdiction of illegal activity and enhancing the ability to 
        make rapid strategic and tactical response decisions.

        <bullet>  A COP of the border environment for tactical and 
        operational planning with other federal, State and local law 
        enforcement partners.

        <bullet>  Access by DHS personnel, both at and between ports of 
        entry, to the same information at the same time to ensure tight 
        coordination and effective response to all threats.

        <bullet>  Rapid response capabilities to effectively respond to 
        cross-border violations, including technologies that improve 
        situational awareness, command & control, and communications, 
        and provide decision aids for commanders.

        <bullet>  Identification of individuals with hostile intentions 
        toward the United States and its citizenry and secure and 
        accurate communication of that information to those who can 
        expeditiously assess the risk of each person, leading to timely 
        interdiction.

        <bullet>  Technologies that aid in the deterrence and 
        channeling of illegal cross-border activity.

        <bullet>  Technologies that survive rugged handling and extreme 
        environmental and operational conditions with improved 
        reliability and maintainability.

        <bullet>  Technologies that improve voice and data connectivity 
        in remote field areas.

    While SBI initially focuses on land border security, it will also 
address security of the U.S. maritime borders. Specific needs to be 
addressed to enhance maritime border security are:

        <bullet>  Improved detection, surveillance and reconnaissance 
        capabilities in ports and off shore, using improved platforms, 
        communication networks, and sensors; as well as vessel tracking 
        and anomaly detection.

    The goal is to provide agents and officers with a total scene 
awareness capability that provides a geo-spatially referenced 
detection, classification and tracking capability along with 
collaboration and decision-making tools to improve efficiency. Only 
highly reliable technologies, coupled with a validated and improved 
concept of operations, will meet the goal. Greater confidence in 
successful interdiction through advanced technology will lead to force 
efficiencies and an enhanced ability to prioritize the deployment of 
intelligence, surveillance, and reconnaissance assets. The 
effectiveness of any one technology must be balanced against the 
considerations of its impact on ancillary systems including people, 
processes, and other deployed technologies.
    While SBI is a multi-year development, it looks to S&T to provide 
technology insertion on a 12-18 month cycle. This insertion into SBI 
will be in the form of system hardware specifications, software code, 
supporting documentation, and lessons learned from technology 
developments and operational tests.

Risk

    As stated above, the President has declared that securing our 
borders is an urgent priority for the national security. Not resolving 
existing capability gaps directly impacts the Department's overall 
mission to prevent and deter terrorist attacks. One of the Department's 
highest priorities is the prevention of the entry of terrorists and 
their instruments of terror into the United States. S&T addresses this 
priority by providing technology and processes for detecting, 
apprehending and prosecuting this illegal activity.
    S&T conducts continuing technical evaluation of current and future 
risks to the borders as a foundation of risk-based decision-making by 
both the S&T Directorate and the Department of Homeland Security. 
Additionally, S&T analyzes and distills scientific and operational 
information to better inform strategic and operational choices made by 
decision-makers. S&T also conducts technology evaluation and assessment 
by identifying, developing, testing, and facilitating the transition of 
advanced homeland security technical capabilities to DHS's operational 
components and State, local and tribal entities.
    S&T also reduces risk by prototyping concepts and technologies and 
demonstrating their capabilities in an operational environment. We are 
currently piloting two important capabilities that we call BorderNet 
and COP/Data Fusion System at the Douglas Border Patrol Station in the 
Tucson Sector. These systems are force multipliers that decrease 
officer workload and response time and increase detection and 
apprehension of illegal border crossers. The results from our 
prototyping and pilots provide valuable lessons learned for SBI and 
future systems development. This approach ensures that the most 
advanced technological solutions are provided to those who protect our 
borders and that new capabilities are deployed to the field in the 
shortest possible time and at an affordable cost.

S&T Border Security Programs

    The Department of Homeland Security has already put several new 
technologies in place to aid in securing our borders. Besides BorderNet 
and the COP/Data Fusion System, we have provided a long range acoustic 
device (LRAD), which gives Border Patrol agents the ability to 
communicate with persons at a long distance and we partnered with CBP 
in deploying Unmanned Aerial Vehicles along the Southern border. We 
continue to develop and demonstrate new and enhanced capabilities to 
ensure enhanced security.
    The Border Watch Program is a technology-based initiative to 
develop and transition capabilities that improve the security of our 
nation's borders. Its goal is to develop and integrate information 
management and sensor technologies necessary to prevent the entry of 
terrorists and their instruments of terror, criminals, and illegal 
aliens through our nation's borders. Border Watch technologies will be 
integrated into SBI as capabilities mature. Border Watch consists of 
the following program components:

        <bullet>  Border Detection Grid,

        <bullet>  Border Network (BorderNet),

        <bullet>  Border Protection Pattern Discovery and Prediction, 
        and

        <bullet>  Common Operating Picture (COP).

    The Border Detection Grid components will identify available 
sensors and sensor monitoring capabilities, as well as technology gaps, 
in order to achieve persistent electronic surveillance of the U.S./
Mexico and U.S./Canada borders. The detection target includes people or 
groups of people on foot, in vehicles (cars, trucks, and snowmobiles), 
and in tunnels, vessels, and low-flying aircraft. Sensor and sensor 
platform technology gaps will be addressed through studies, system 
design and development, test and evaluation, and/or pilot programs. The 
program will investigate the potential use of radar, Electro-Optic/
Infrared (EO/IR) cameras, unattended ground sensors (UGS), fiber optic 
tripwires, and other emergent sensors. Sensor platforms will include 
fixed and mobile towers, vehicles, and manned and unmanned airborne 
vehicles. Variations in environmental conditions (terrain, weather, 
marine versus land) and communication availability are expected to 
drive the solution set for different geographical areas. Department of 
Defense sensors and sensor systems will be surveyed and adopted, as 
appropriate.
    The Border Network (BorderNet) is a proof-of-concept, prototype 
development. Capabilities will be developed in spirals with each spiral 
providing greater capability and user base. BorderNet provides Border 
Patrol agents with the capability to conduct biometric and biographic 
queries to identify detainees, in the field and at the time of 
apprehension. Fusion of multiple data sources provides the agent with 
actionable intelligence in the form of indications, warning and 
incident responses recommendations. BorderNet also generates a tactical 
situation awareness display at the agent and station level, and 
includes sensor alerts and blue force tracking (BFT) or friendly force 
ID. Target tracks generated by the COP/Data Fusion System, developed 
under the Arizona Border Control Initiative, provide overlays on the 
BorderNet situation awareness display. Field agent connectivity to the 
various information sources occurs via wireless communications using 
handheld digital devices and vehicle mounted mobile data computers. 
Initially, BorderNet accesses biographical data from the Enforcement 
Case Management System (ENFORCE), the Automated Biometric 
Identification System (IDENT), and the National Criminal Information 
Center (NCIC) based on personal data collected from a detainee. NCIC 
will be accessed through the Arizona Criminal Justice Information 
Center. Vehicle registration and status information will be obtained 
through the Arizona Department of Public Safety. Subsequent spirals 
will connect to the Homeland Security Information Network (HSIN) and 
the Homeland Security Data Network (HSDN), as well as other local, 
State and national data sources. Additional features in future spirals 
may include language translation, knowledge discovery, improved Blue 
Force Tracking, detainee field enrollment, video transmission, detainee 
tracking, federated query, and northern border applications.
    Border Protection Pattern Discovery and Prediction technologies 
will provide a new capability to Customs and Border Protection to 
rapidly fuse disparate information sources to discover geo-spatial, 
behavioral, and temporal patterns and indicators that provide field 
agents local scene awareness and actionable intelligence. A prototype 
will be developed in concert with CBP customers, which will develop 
patterns and indicators that address topics such as:

        1)  crossing routes and staging areas for cross border 
        smuggling,

        2)  crossing patterns by group--to discover patterns that will 
        help identify the number of organized groups involved and their 
        respective ``signatures,''

        3)  crossing patterns by tactic--to discover patterns that will 
        help identify distinctive ``signatures'' for specific tactics, 
        such as drug smuggling, human smuggling, etc.,

        4)  identifying the links and patterns between illegal border 
        crossing and criminal activity within the U.S., and

        5)  tunnel activity--to discover the likely next tunneling 
        start and end points.

    The Common Operating Picture (COP) component will provide the 
capability to fuse and display at a tactical level the information from 
select assets within DHS, including but not limited to, Border Patrol 
Stations, Ports of Entry (POE) and the U.S. Coast Guard. It will be a 
layered architecture, scalable from the agent/officer in the field to 
the DHS Operations Center. It will use multi-level security and 
authentication measures to protect sensitive information and will 
provide collaborative tools as decision aids. It will use an approved 
set of standards, including interfaces, services, protocols, and 
supporting structures. The COP will provide a command and control 
capability and a tool for inter-agency collaboration. Initially, it 
will be a sector capability focusing on the southwest border. 
Subsequent versions will expand to include additional DHS components.

Unmanned Aerial Vehicles (UAVs)

    The Department of Homeland Security has made a great deal of 
progress in the area of UAVs over the past three years. At the request 
of Congress, S&T led an extensive study effort, involving all DHS 
operational Components, Department of Defense (DOD), Department of 
Transportation (DOT), Federal Aviation Administration (FAA), and 
National Aeronautics and Space Administration (NASA) that provided a 
comprehensive evaluation on the uses of UAVs to support DHS missions. 
The report was delivered to Congress on time on March 31, 2004, as 
directed.
    Beginning in the summer of 2004, S&T funded two major UAV 
evaluations as part of DHS' Arizona Border Control Initiative (ABCI). 
The first period of operational evaluation ran from June through 
September and utilized the Hermes 450 UAV. The second period of 
operational evaluation employed the Army's Hunter UAV with operations 
beginning in November 2004 and continuing through January 2005. The 
data from these evaluations and other analyses, including an extensive 
Analysis of Alternatives developed by S&T, led to the establishment of 
a DHS UAV initial operational capability along the Southern Border.
    S&T worked very closely with CBP to acquire DHS's first UAVs to 
support the initial operational along the Southern Border. The initial 
DHS/CBP UAV capability, consisting of one UAV system (one aircraft and 
ground control equipment), became operational in 2005. CBP is the lead 
for operations and acquisition with S&T providing program and systems 
integration support. The priority for DHS/CBP UAVs will be to support 
CBP operations along the border but they will also be used by S&T for 
evaluation and development of new UAV payloads and systems that will 
continuously improve DHS UAV mission effectiveness.
    Current FAA restrictions on the use of UAVs within United States 
air space limit their utilization. S&T is working with DOD and FAA to 
remove current flight restrictions on Border Patrol Southwest border 
operations through the development of Sense-and-Avoid capability to 
allow freer use of CBP UAVs in the national air space.

Conclusion

    The Department of Homeland Security believes strongly that, only by 
developing the border security technologies that will be needed five 
and ten years from now, can we fully ensure that the Nation will be 
secure for decades to come.
    Mr. Chairman, Congressman Gordon, and Members of the Committee, 
this concludes our prepared statement. With the Committee's permission, 
we request our formal statement be submitted for the record.
    We thank you for the opportunity to appear before this committee 
and we will be happy to answer any questions you may have.

                       Biography for Jay M. Cohen

    Department of Homeland Security, Under Secretary for Science and 
Technology, Jay M. Cohen is a native of New York. He was commissioned 
in 1968 as an Ensign upon graduation from the United States Naval 
Academy. He holds a joint Ocean Engineering degree from Massachusetts 
Institute of Technology and Woods Hole Oceanographic Institution and 
Master of Science in Marine Engineering and Naval Architecture from 
MIT.
    His early Navy assignments included service on conventional and 
nuclear submarines. From 1985 to 1988 Cohen commanded USS HYMAN G. 
RICKOVER (SSN 709) after putting this new ship into commission.
    Following command, he served on the U.S. Atlantic Fleet as a senior 
member of the Nuclear Propulsion Examining Board, responsible for 
certifying the safe operation of nuclear powered ships and crews.
    From 1991 to 1993, he commanded USS L.Y. SPEAR (AS 36) including a 
deployment to the Persian Gulf in support of Operation DESERT STORM.
    After Spear, he reported to the Secretary of the Navy as Deputy 
Chief of Navy Legislative Affairs. During this assignment, Cohen was 
responsible for supervising all Navy-Congressional liaison.
    Cohen was promoted to the rank of Rear Admiral in October 1997 and 
reported to the Joint Staff as Deputy Director for Operations 
responsible to the President and DOD leaders for strategic weapons 
release authority.
    In June 1999, he assumed duties as Director Navy Y2K Project Office 
responsible for transitioning all Navy computer systems into the new 
century.
    In June 2000, Cohen was promoted in rank and became the 20th Chief 
of Naval Research. He served during war as the Department of the Navy 
Chief Technology Officer (a direct report to the Secretary of the Navy, 
Chief of Naval Operations and Commandant of the Marine Corps). 
Responsible for the Navy and Marine Corps Science and Technology (S&T) 
Program (involving basic research to applied technology portfolios and 
contracting), Cohen coordinated investments with other U.S. and 
international S&T providers to rapidly meet war fighter combat needs. 
After an unprecedented five and a half year assignment as Chief of 
Naval Research, Rear Admiral Cohen retired on February 1, 2006.
    Under Secretary Cohen was sworn in to his current position at the 
Department of Homeland Security on August 10, 2006.

                    Biography for Gregory L. Giddens

    Mr. Gregory L. Giddens, a member of the Senior Executive Service, 
is the Director for the Secure Border Initiative, Department of 
Homeland Security. The Secure Border Initiative (SBI) is a broad multi-
year initiative that looks at all aspects of border control and 
immigration enforcement using systems thinking to enhance deterrence, 
detection, apprehension, detention and removal of illegal aliens, and 
compliance with immigration laws.
    Mr. Giddens entered civil service after completing his 
undergraduate degree in Electrical Engineering at Georgia Institute of 
Technology. He earned an MBA from Georgia College and completed Air War 
College and is a graduate of the advanced Program Manager's course at 
Defense Systems Management College. Mr. Giddens has also received an MS 
in National Resource Strategy from the Industrial College of the Armed 
Forces and has completed the Defense Acquisition University's Senior 
Acquisition Course.
    He began his civil service career at Warner Robins Air Logistics 
Center where he worked in both depot production and logistics 
management. He was transferred to Wright-Patterson AFB to work in the 
Training System Product Group as a program manager for C-17 aircrew and 
maintenance training. He subsequently served as the Deputy Director and 
Director for all of the Product Group's Air Mobility Command training 
programs.
    Mr. Giddens was then reassigned to the Air Force's Program 
Executive Office for Battle Management at the Pentagon where he was an 
Assistant for Acquisition. He was detailed to the Office of the 
Assistant Secretary of the Army (Research, Development, and 
Acquisition) to be the director of the Department of Defense (DOD) 
Acquisition Workforce Personnel Demonstration Project and jointly 
reported to the Deputy Under Secretary of Defense for Acquisition 
Reform. Mr. Giddens attended the Industrial College of the Armed Forces 
(ICAF) before being assigned to Hanscom AFB as the Program Manager for 
the Air Force Weather Weapon System. He was then assigned as the Deputy 
System Program Director for the Airborne Warning and Control Systems 
(AWACS) at Hanscom AFB. In 2000, Mr. Giddens was selected as the Deputy 
Assistant Commandant for Acquisition at USCG Headquarters and later 
that year was selected to be the Deputy Program Executive Officer for 
the Integrated Deepwater System, United States Coast Guard. In October 
2005, Mr. Giddens was selected to lead the Secure Border Initiative 
(SBI) Program Office for the Department of Homeland Security.
    He was a member of Air Force Materiel Command's Top Rung senior 
executive development program and was an initial selectee into DOD's 
Defense Leadership and Management Program. Mr. Giddens was selected as 
a member of the Senior Executive Service in 2000. He was a 2004 
recipient of the Presidential Rank Award Distinguished for exceptional 
long-term accomplishments. He holds certifications in Program 
Management and Logistics Management.

    Chairman Boehlert. Thank you very much, Admiral.
    I like your style. I couldn't agree more. You are not 
preaching, but you are talking to the choir, so to speak, here. 
And one of the reasons why, in a bipartisan basis, this 
committee is optimistic is that there is a little thing called 
the American Competitiveness Initiative that is finally getting 
some attention around this town. The need to invest more in 
basic research, the need to do a better job of preparing our 
youngsters in the science and math disciplines, and we take 
great pride from this committee, being one of the driving 
forces for that.
    So thank you very much.
    And Mr. Giddens, thank you.
    Mr. Tyler, you are up next.

   STATEMENT OF MR. GORDON DANIEL TYLER, JR., JOHNS HOPKINS 
   UNIVERSITY, APPLIED PHYSICS LABORATORY, NATIONAL SECURITY 
                      TECHNOLOGY DIVISION

    Mr. Tyler. Chairman Boehlert, Congressman Gordon, Members 
of the House Committee on Science, I am Daniel Tyler, head of 
the National Security Technology Department at Johns Hopkins 
Applied Physics Lab.
    Thank you for this opportunity to share my insights with 
the Committee on the applicability of a system engineering 
approach to the daunting challenge of securing our nation's 
border.
    With your permission, I would like to submit my written 
testimony for the record.
    This nation has a rich history of developing massive, 
complex systems. In the 1950s, three major weapons systems, the 
strategic triad, were developed and integrated for the global 
command control and communications network to realize an 
immense strategic deterrent system of systems, and it has 
worked for a decade. In the 1960s, as we all know, we went to 
the Moon with a very impressive application of systems 
engineering. And not so well known, in the 1970s and 1980s, 
AT&T seamlessly re-engineered the Nation's entire 
telecommunications infrastructure, changing the entire system 
from analog to digital at a cost of $50 billion without their 
customers even knowing that it was going on.
    We have a lot of experience that is on a scale with the 
border security challenge, which has addressed very similar 
issues in the past: major technical issues, a need for research 
to provide solutions, balancing technology against human 
resources, developing a concept of operation, policies issues, 
and involvement of numerous agencies. We have learned a lot 
about what works and what doesn't work.
    The systems engineering methodology has specifically 
assimilated this past experience into a disciplined approach 
for solving the problem of massive and complex system 
development.
    How is system engineering defined? It is by a set of phases 
with associated activities that you have to perform. If the 
activities aren't there, you are not doing system engineering. 
Specifically, first phase: concept development. This is where 
needs, feasibility, requirements, risks are identified and 
concept definition with detailed planning.
    The second phase: engineering development. Here, high-risk 
mitigation prototyping is done, and very importantly, limited 
systems are developed and tested to ensure operational 
suitability. And that is done before the third phase where you 
go to production, deployment, operations, and effectiveness 
assessment.
    Systems engineering brings rigor and discipline to each of 
these elements of systems development. The system engineering 
methodology has been institutionalized in standards and policy 
by virtually all acknowledged professional technical societies, 
government agencies for the development of massive complex 
systems, like the DOD 5000 series.
    A reasonable question for this committee to ask is: ``In an 
era of tight budgets and urgent national security imperatives, 
is system engineering really necessary?'' Discipline, rigor, 
due diligence sounds slow and expensive. Well, picture trying 
to develop a complex system that is massive in scale, has many 
interrelated tasks and specific requirements, employs different 
disciplines, multiple organizations, demanding schedules and 
budgets, and picture all of that in the absence of a well-
defined process.
    Without a defined disciplined process, there is no 
knowledge of progress and no technical control over development 
until the system is deployed, and then it is too late.
    There is a profound difference between activity and 
progress. It is easy to perform activity. You need a 
disciplined methodology, like system engineering, to make and 
measure progress.
    We are all familiar with the current border security 
problem: 10,000 miles of borders, 1.5 million illegal aliens 
yearly, and according to the GAO, the DHS IG, and other 
testimony, we have spent about $5 billion and more than doubled 
the number of Border Patrol agents over the last decade and 
haven't realized significant progress.
    Secretary Chertoff and other senior government officials 
have committed to rapid progress on operational control of the 
borders and, in some reports, is said within two years.
    The issue is then how to fix the current situation, 
understand and solve the technical problems, and make progress 
expeditiously. In particular, what could we do in a timeframe 
like two years?
    My thesis is, obviously, we need to start by employing a 
disciplined system engineering methodology. Given that one has 
done that, this methodology, however, is not prescriptive in 
implementation. From past experience, we know how important it 
is that an implementation strategy first ensure adherence to 
rigid system engineering principles and second, ensure 
successful execution of each phase. Recognize that the 
government is ultimately accountable for results and needs to 
ensure that there is governmental technical competence to 
understand issues and make decisions. If the government, 
itself, doesn't have the needed breadth and depth of technical 
expertise, then it needs to engage third-party organizations to 
support them.
    Organizational roles, in general, are critical: who sets 
requirements, how the broad technical community is engaged, the 
existence of independent assessments for every element of the 
process, the role of the prime contractor. These are critical 
in determining the success.
    So what can be done in two years? Well, we have learned 
lessons from previous efforts that have attempted to develop 
complex systems on an urgent basis, to get out of the starting 
gate rapidly.
    First, the existence of major hardware and infrastructure 
is critical for getting started. We have got ISIS, we have got 
sensors, and we have got a substantial infrastructure to build 
on.
    Second, open architecture is necessary to allow many 
organizations to plug-and-play and to enable spiral development 
upgrade, like the Admiral alluded to. This is included in the 
SBI solicitation.
    Third, major contracts need to be in place, because if they 
are not, you know this could easily cost you a year or more. 
And the DHS is about to award the prime contract for SBI.
    Fourth, very critical, resolving critical technical issues 
requires the key technology already be in the pipeline, and 
that is that it be available now. For this, the SBI strategy 
needs to encourage outreach to the broad technical community. 
There is a lot of technology out there, and I think you are 
going to hear about some of it in a minute.
    I believe that system engineering, properly implemented, 
will provide, within two years, a very good probability of 
fielding an operational system on some sections of the U.S. 
border, which could then demonstrate significant progress in 
resolving the technical issues. Decisions could then be made 
for full-scale production and deployment.
    This ends my remarks concerning the applicability of system 
engineering to the daunting challenge of securing our nation's 
borders.
    Again, thank you for this opportunity to address you today.
    [The prepared statement of Mr. Tyler follows:]

             Prepared Statement of Gordon Daniel Tyler, Jr.
                Applying Systems Engineering Methodology
                    to Help Secure America's Borders

EXECUTIVE SUMMARY

    Significant investments in securing our nation's borders over the 
last decade have not produced capabilities that met operational 
expectations. The issue for developing systems and operations that 
address this massive, technically complex, and time critical challenge 
is identifying an approach to systems development that has a high 
likelihood of success. Notably, the collective experience of a rich 
history of producing complex engineered systems has been assimilated 
into a methodology with a proven track record of achievements--systems 
engineering.
    The systems engineering methodology provides a disciplined approach 
to requirements, concepts, planning, prototyping, testing, and other 
elements of system development and operational deployment. Systems 
engineering mitigates risk, controls cost, and ensures performance when 
prompt responses to exigent challenges are needed. In particular, the 
systems engineering methodology can provide the oversight tool that 
helps Congress and the Department of Homeland Security (DHS) monitor 
the progress of the Secure Border Initiative (SBInet) with metrics and 
guide its ultimate success. In times of tight budgets and the need for 
urgency, as in today's volatile national security environment, it is 
tempting to abandon the rigor and discipline of systems engineering in 
favor of ways of doing business that appear less expensive and more 
rapid. Repeatedly, these other formulas have fallen short of the mark, 
producing activity without real progress, while systems engineering has 
a history of delivering performance, on budget and schedule. The 
systems engineering methodology has been institutionalized in standards 
and policy by virtually all acknowledged professional technical 
societies and Government agencies for the development of massive, 
complex systems.
    While adopting the systems engineering methodology is essential for 
engineering large-scale, highly complex systems, special attention must 
be paid to employing an implementation strategy that ensures adherence 
to the principles of systems engineering, and successful execution of 
its various phases. The Government is ultimately accountable for 
results, and must ensure adequate Government technical competence is 
brought to bear for understanding issues and making decisions. When 
needed, especially with complex problems, the Government may engage 3rd 
party organizations to support them in this capacity.
    The systems engineering discipline is not prescriptive regarding 
implementation strategies, and there are assorted successful examples. 
The Navy's management of the Polaris Program, initiated in 1956, 
included a technical staff of 450 in the Program Office fully dedicated 
to the development and production of the Polaris system. The Navy's 
sonar development program started in 1996, relies heavily on the broad 
technical community, operating in peer working groups, for concept 
identification, feasibility assessment, prototyping, and especially for 
validation and testing at every phase of the systems engineering 
methodology. For each system development activity, specific 
consideration should be given to the appropriate roles for Government 
agencies and Government laboratories, prime contractors, associate 
contractors, Federally Funded Research and Development Centers 
(FFRDCs), University Affiliated Research Centers (UARCs), academia, 
nonprofits, and small or minority owned businesses. In architecting an 
implementation strategy, especially in defining the roles of prime 
contractors, note that history has shown that the strength of this 
nation for addressing massive, complex challenges is the wealth of 
available domain expertise, and the power of competitive forces.
    The systems engineering methodology is flexible. It can be tailored 
to emphasize risk mitigation, incremental improvement, capability-based 
acquisition, as well as milestone- or cost-driven development. Given 
the urgency of the current national security environment, a 
particularly relevant issue is how to make real and rapid progress: How 
much can we improve operational effectiveness and how long will it 
take? The Secure Border Initiative program component (SBInet) has 
existing advantages for getting underway quickly: i.e., current 
Integrated Surveillance Intelligence System (ISIS) sensors, video 
surveillance, and infrastructure; an imminent Indefinite Delivery, 
Indefinite Quantity (IDIQ) prime contract; very promising technology in 
the pipeline; and data that can be used to address technical issues and 
support technology development. The program now needs to adopt a 
disciplined systems engineering methodology, and demonstrate a 
successful, limited-deployment operational system, conceivably within 
two years, before going into full production and deployment.

MAIN TESTIMONY

    Chairman Boehlert, Congressman Gordon, and Members of the House 
Committee on Science. I am G. Daniel Tyler, Head of the National 
Security Technology Department at The Johns Hopkins University Applied 
Physics Laboratory (JHU/APL). Thank you for the opportunity to address 
you today on ``How Can Technologies Help Secure Our Borders?'' The 
Applied Physics Laboratory has been a long-term, trusted strategic 
partner with the Federal Government, in particular the Department of 
Defense (DOD) and the Navy, for providing critical contributions to our 
nation's most pressing national security challenges. I am pleased to be 
able to share our insights with the Committee as to the applicability 
of a disciplined systems engineering approach to the elusive challenge 
of securing our nation's borders.

PREFACE

    What is systems engineering? Other areas of engineering (e.g., 
electrical, mechanical, chemical, etc.) are considered ``disciplines'' 
in that they are fields of study, and spheres of domain expertise. More 
prescriptive are ``processes'' that define the steps or tasks to be 
executed conducing to an end. Systems engineering is a discipline, less 
regimented than a well-defined process, best described as a 
methodology. In particular, systems engineering is defined by a set of 
phases with associated activities that must be performed. If these 
activities are absent, then the systems engineering methodology is not 
being followed.
    The traditional systems engineering methodology for designing, 
developing, and deploying major systems is usually described in three 
phases:

        1.  Concept Development--needs, feasibility, requirements, 
        concept definition, and detailed planning

        2.  Engineering Development--prototyping and testing for 
        operational use

        3.  Post-Development--production, deployment, operations, 
        effectiveness assessment

    In times of tight budgets and urgency driven by a volatile national 
security environment, it is tempting to look for ways of acquiring 
needed capabilities that appear to be less expensive and more rapid. A 
reasonable question is: Are the rigor and discipline of the systems 
engineering process really necessary for developing appreciably complex 
systems? The foreman on a job site constructing a new home may be able 
to manage the entire construction process, plan, and schedule in his 
head, and single-handedly coordinate contractors. In contrast, consider 
the program manager responsible for the construction of an aircraft 
carrier, clearly dealing with more complexity than a single human brain 
can accommodate at once. Major system development efforts are usually 
complex, need to support specified user requirements, are composed of 
many interrelated tasks, involve several different disciplines, are 
performed by multiple organizations, have a specific schedule and 
budget, and may require years to complete. The human brain can 
conceptualize and manage small development activities, but larger 
efforts demand a disciplined process. The issue is identifying a 
process that, in some sense, optimizes the probability of success for 
developing a complex system, while mitigating risk and controlling cost 
and schedule.

SYSTEMS ENGINEERING AND SBI/SBINET

    The Secure Border Initiative (SBI) and SBInet are large, complex 
system solutions to an immediate critical challenge facing our nation. 
Properly applying the systems engineering methodology to the challenge 
of securing our borders makes sense because:

        <bullet>  A disciplined systems engineering approach can 
        develop and deliver massive, complex systems with a proven high 
        rate of success.

        <bullet>  Previous approaches to securing our country's borders 
        have not met operational expectations, according to the GAO and 
        other testimony.

        <bullet>  The systems engineering methodology provides the 
        right tools for oversight and success: i.e., requirements, 
        metrics, planning, prototyping, testing, and deployment for 
        operational use.

        <bullet>  Both the public and private technical and acquisition 
        communities have embraced systems engineering and shown its 
        effectiveness for controlling performance, schedules, and cost.

        <bullet>  Organizationally, implementing a systems engineering 
        process properly requires appropriate roles for the Government 
        and Government laboratories, prime contractors, associate 
        contractors, independent laboratories, and academia.

    There is a profound difference between mere activity and progress. 
There are easy ways to simply take action, but systems engineering is 
the way to ensure progress. Applying a disciplined, deliberate systems 
engineering methodology to the border security challenge provides a 
proven development process for controlling performance, budgets, and 
schedules. Moreover, the systems engineering methodology provides an 
oversight tool to help Congress and the Department of Homeland Security 
(DHS) monitor the progress of SBInet with metrics and therefore guide 
its ultimate success.

DELIVERING MASSIVE, COMPLEX SYSTEMS WITH PROVEN SUCCESS

    The Nation has a rich history of relevant experience in 
successfully developing massive, engineered systems:

        <bullet>  Investing $50B in converting the Nation's 
        telecommunications infrastructure from analog to digital;

        <bullet>  Going to the Moon in less than a decade;

        <bullet>  Integrating three major and diverse weapons systems 
        from two services with global command, control, and 
        communications, and providing interfaces with the Intelligence 
        Community and the White House to realize a Strategic Deterrence 
        system of systems.

    We even have experience, similar to the border security challenge, 
in more than one mission area, for providing surveillance over large 
geographic areas and supplying cuing for follow-on forces. Between 1950 
and 1985, for example, in support of the Anti-Submarine Warfare 
mission, the Navy's surveillance community successfully produced a 
system that provided surveillance and cuing for 12,000,000 square 
nautical miles of ocean, including 20 worldwide Naval Facilities for 
shore-based processing and analysis and thousands of Navy and civilian 
support personnel.\1\
---------------------------------------------------------------------------
    \1\ Edward C. Whitman, ``The Secret Weapon of Undersea 
Surveillance,'' Undersea Warfare, Winter 2005, Vo1. 7, No. 2.
---------------------------------------------------------------------------
    Previous efforts have tackled the same types of issues facing the 
border security challenge. Historically, in the development of large 
and complex systems it has been the norm that at the outset, designers 
could readily identify many technical issues to address; however, there 
have also been ``unknown unknowns'' that surfaced only during the 
phases of development and testing. Critical system elements may have 
been nonexistent and required rapid directed research to produce 
seemingly miraculous results. Prior system development efforts 
necessarily had to deal with the problem of balancing technology 
against human resources. Concepts of Operations (CONOPS) had to be 
developed. Often, the total solution for a successful mission required 
addressing a myriad of issues under the jurisdiction of multiple 
agencies. However, lessons have been learned in the design, 
development, and deployment of these major systems that clarified what 
processes, management structures, and assignment of organizational 
roles and responsibilities were most effective for realizing acceptable 
system performance, controlling cost, and attaining operational 
capability as rapidly as possible. The modern discipline of systems 
engineering has assimilated this collective experience into a proven 
process.
    An example that Congress is familiar with is the Navy's Fleet 
Ballistic Missile (FBM) Program. This program has been so widely 
recognized and studied as a DOD acquisition success story, that in 
1990, the General Accounting Office (GAO) produced a report\2\ for 
Congress to clarify what made this program so successful. The Navy 
initiated the program in December, 1956, when it began development of a 
submarine-launched ballistic missile (Polaris) under a new 
organization, the Special Projects Office [now called Strategic Systems 
Programs (SSP)]. SSP was given complete authority to design, develop, 
produce, and support the FBM system.
---------------------------------------------------------------------------
    \2\ United States General Accounting Office, ``Fleet Ballistic 
Missile Program,'' GAO/NSIAD-90-160, 9-6-1990.

         ``Three major components--a solid propellant fuel, a small 
        high yield nuclear warhead, and an accurate guidance/fire 
        control/navigation system--needed major technical breakthroughs 
        at the time that the Polaris project was authorized. A nuclear 
        attack submarine also had to be modified to carry and launch 
---------------------------------------------------------------------------
        the missiles while submerged.''

    The first Plans and Programs Director of SSP made the analogy that,

         ``. . .building and fielding Polaris was similar to building 
        the entire automobile industry. That is, not only did the first 
        automobile have to be developed but also the internal 
        combustion engine, tires, the oil industry, gas stations, and 
        driver training before the automobile's feasibility was 
        known.'' \3\
---------------------------------------------------------------------------
    \3\ Ibid.
---------------------------------------------------------------------------
    Amazingly, the technical problems were solved, and ``the Polaris 
program went from concept development to deployment in three years--
three years ahead of the original schedule.'' Between 1956 and 1990, 
about $74B was appropriated for FBM program acquisition. Three classes 
of FBM submarines have been deployed (59 hulls), and six generations of 
missiles (more than 3,000 missiles). A key finding of the GAO study is 
the commitment over the entire life cycle of the system, for the 
following:

         ``(1) concept exploration/definition, (2) concept 
        demonstration/validation, (3) full-scale development and low 
        rate initial production, (4) full-rate production and initial 
        deployment, and (5) operations support''

    (coincidentally, all of the components of the systems engineering 
paradigm).
    Importantly, SSP's implementation of systems engineering relies 
strongly on independent test and evaluation in all phases of the 
process.
    The message from the FBM program and history is clear. We have 
engineered many large, complex, technology-based systems, comparable in 
scale to the challenge of securing our borders. We have learned a lot 
from employing different development processes and from our successes 
and failures. We have developed a sense for what works and what does 
not work. Although there is no guaranteed ``cookbook'' approach to 
developing massively complex systems, there is a high correlation of 
success with employing a disciplined systems engineering development 
process.

THE CURRENT INABILITY TO MEET OPERATIONAL EXPECTATIONS

    Some of the challenges in securing our nation's borders are 
obvious: 10,000 miles\4\ of diverse land borders and coastline and 1.5 
million illegal aliens yearly\5\ present formidable impediments to 
gaining control of our borders. Solutions whose core attribute consists 
of employing large quantities of sophisticated technology and 
significant human resources (e.g., Border Patrol agents), may have an 
intuitive appeal, but this is in the absence of a deeper understanding 
of more subtle, qualitative, and complex performance drivers. This 
appears to be the case in the recent history of attempts to improve 
border security. Starting in the 1970s and 1980s, the Office of Border 
Patrol (OBP) introduced acoustic and magnetic sensors and video cameras 
to assist agents in remotely detecting illegal aliens entering the 
United States. In 1998, the Immigration and Naturalization Service 
(INS) formally established the Integrated Surveillance Intelligence 
System (ISIS) comprising more than 11,000 seismic and magnetic sensors, 
255 operational remote video surveillance (RVS) systems, and the 
Integrated Computer Assisted Detection (ICAD) system. In 2003, OBP 
recognized the need to further improve border surveillance and remote 
assessment and monitoring technology, due to poor program management, 
technology failures, and poor operational results for ISIS.\6\ 
Therefore, OBP began developing the America's Shield Initiative (ASI). 
This initiative included additional surveillance structures, upgraded 
and expanded surveillance equipment, and significantly enhanced 
detection and monitoring capabilities. According to OBP, the expanded 
use of surveillance technologies was viewed as an effective force-
multiplier. In an April 7, 2006 hearing of the House Appropriations 
Subcommittee on Homeland Security, the opening statement of Chairman 
Harold Rogers summarized real progress over this time period:
---------------------------------------------------------------------------
    \4\ Does not include Alaska or Hawaii.
    \5\ Source: ``Estimates of the Unauthorized Migrant Population for 
States Based on the March 2005 CPS,'' Pew Hispanic Data Center Fact 
Sheet, 26 April 2006. Estimate is based on U.S. Census Data; estimate 
of 1.5M illegal aliens per year since 2000.
    \6\ Office of the Inspector General, DHS, ``A Review of Remote 
Surveillance Technology Along U.S. Land Borders,'' OIG-06-15, December 
2005.

         ``Since 1995, we have quadrupled spending on border security, 
        from $1.2B to $4.7B, and more than doubled the number of Border 
        Patrol Agents from 5,000 to 12,381; yet during that same time 
        period, the number of illegal immigrants in the U.S. has jumped 
---------------------------------------------------------------------------
        from five million to over 11 million.''

    We have applied significant resources, financial and human, to this 
challenge and still have limited control over our borders. If we cannot 
deter or detect and stop illegal immigration, then we have no ability 
to stop terrorists using the same methods from infiltrating the U.S.
    The massive scope of the border security issue deriving from large 
geographic areas and high volumes of illegal alien activity, is also 
technically challenging, operationally complex, and programmatically 
and contractually demanding for Government managers. In addition, it 
possesses multiple dimensions that interact in complicated ways, 
necessitating tradeoffs. In a December 2005 report,\7\ the Office of 
the Inspector General (OIG) of the DHS reviewed existing remote 
surveillance technology employed along U.S. land borders. This report 
contains valuable insights into some of the difficulties associated 
with attempts to exploit technology as a major contributor to border 
security operations. The following findings, organized by category, are 
from the OIG report's Executive Summary, which highlights technical, 
system, operational, and programmatic/contractual challenges:
---------------------------------------------------------------------------
    \7\ Ibid.

---------------------------------------------------------------------------
Technical Challenges:

        <bullet>  ``Remote video surveillance cameras do not have 
        detection capability regardless of whether they are used in 
        conjunction with sensors.''

        <bullet>  ``Current sensors cannot differentiate between 
        illegal alien activity and incidental activations caused by 
        animals, seismic activity, or weather. . .'' \8\
---------------------------------------------------------------------------
    \8\ Nonsensor alerts along the southwest border during a five-day 
period generated by camera detections, vehicle stops, officer 
observations, other agency observations, citizen observation, air 
observation, or some other source totaled 780 alerts, resulting in 382 
apprehensions. Over the same period, ISIS sensors generated 29,710 
alerts, resulting in 252 apprehensions.

---------------------------------------------------------------------------
System Challenges:

        <bullet>  ``Integrated Surveillance Intelligence System (ISIS) 
        components are not fully integrated: e.g., when a sensor is 
        activated, a camera does not automatically pan in the direction 
        of the activated sensor.''

        <bullet>  ``Data entered into OBP's primary source of ISIS 
        information, the ICAD system, is incomplete, and not 
        consistently recorded by OBP sectors.''

Operational Challenges:

        <bullet>  ``. . .OBP agents are often dispatched to false 
        alarms.''

        <bullet>  ``OBP was unable to quantify force multiplication 
        benefits of remote surveillance technology.''

        <bullet>  ``ISIS remote surveillance technology yielded few 
        apprehensions as a percentage of detection, resulted in 
        needless investigations of legitimate activity, and consumed 
        valuable staff time to perform video analysis or investigate 
        sensor alerts.''

Programmatic/Contractual Challenges:

        <bullet>  ``Deficiencies in the contract management and 
        processes used to install ISIS equipment have resulted in more 
        than $37 Million in DHS funds remaining in General Services 
        Administration (GSA) accounts; delays in installing, testing, 
        and bringing on-line RVS sites that are operational; and 168 
        incomplete RVS camera sites.''

    The OIG report concludes with helpful recommendations for 
addressing some of the identified deficiencies in the existing system 
and development process.\9\ Justifiably, the OIG did not accept the 
charter, nor claim subject matter expertise for actually determining 
how an operational system could be engineered to provide adequate 
performance for meeting border security requirements. That is:
---------------------------------------------------------------------------
    \9\ The DHS OIG report spells out seven recommendations dealing 
with system integration, processes for handling data, performance 
measures, contracting issues, site selection, the use of Government and 
private structures, and mobile surveillance platforms.

        1.  The OIG recommendations did not attempt to address specific 
---------------------------------------------------------------------------
        technical solutions to problems (e.g., false alarm rates).

        2.  Following the OIG recommendations may not be sufficient to 
        produce a fully functional capability.

        3.  The OIG report was intentionally limited in scope (i.e., 
        remote surveillance technology) and did not incorporate other 
        critical elements of the problem.

    Therefore, while the OIG addressed certain issues that stayed 
within the scope of its tasking, a disciplined systems engineering 
review of ISIS/ASI would have provided a better baseline upon which to 
build a superior follow-on system--SBI/SBInet--to position it for 
success.
    The DHS OIG looked specifically at remote surveillance technology. 
While solving the technical problems here will clearly be a major move 
forward, other dimensions to this challenge need to be addressed before 
a viable concept can be realized for securing the borders. Importantly, 
these other elements interact, require interfaces, and necessitate 
tradeoffs that impact responsibilities and resource requirements across 
the boundaries of multiple agencies.

MULTIPLE DIMENSIONS OF THE BORDER SECURITY CHALLENGE

    Fundamental tradeoffs need to be made between technology and human 
resources. Technology is easily envisioned as a force multiplier, but 
the experience with the current ISIS system testifies to the pitfalls 
in ignoring the technical details. The high false alarm rates 
associated with the currently deployed seismic/acoustic sensors drain 
the supply of additional OBP agents assigned to Border Patrol 
operations, producing a net decrease in operational performance. 
Synergism between technology and human resources needs to be carefully 
engineered, with a thorough understanding of the capabilities, 
limitations, and demands of the technology. In fact, technical 
solutions may burden human resources by affecting operations negatively 
and by requiring human interaction in controlling, operating, 
maintaining, and repairing technology and analyzing and communicating 
its products.\10\ Significantly, the marriage between technology and 
humans is not adequately defined until a CONOPS is developed that 
thoroughly defines how the technology and human resources will be 
jointly used operationally.
---------------------------------------------------------------------------
    \10\ ISIS operations require three types of personnel: law 
enforcement communications assistants for monitoring cameras and ICAD 
terminals and providing radio and dispatch support to field agents; OBP 
agents to respond to alerts, install and maintain cameras, and monitor 
sector RVS cameras; and CBP Office of Information Technology 
specialists for on-site repairs to sensors and cameras.
---------------------------------------------------------------------------
    In addition to the technical, operational, and programmatic 
challenges, consider the impact of U.S. immigration policy on concepts 
for securing the borders. Nonrestrictive policy may focus attention on 
verification and inspection at ports of entry (POE). Conversely, 
restrictive policy will probably result in large numbers of illegal 
aliens attempting to enter between ports of entry (BPOE)--in deserts, 
forests, and mountainous regions--keeping attention on surveillance 
systems, Border Patrol operations, and detention facilities. Decision-
makers need to be filly cognizant of the impact of policy on the 
viability, cost, and schedule of any solution to this problem. 
Moreover, system developers must recognize that policy is a major 
driver in system design.
    The threat itself is another dimension to the problem that must 
also be taken into account. The threat is not monolithic: It is 
composed of illegal immigration for economic and/or political reasons; 
trafficking in drugs, weapons, contraband, and human beings; and 
terrorism. The tactics employed may be different, the determination and 
persistence uneven, the level of desperation unpredictable, and the 
resources (financial, weapons) biased in favor of the most dangerous 
elements. We must fully account for the threat's ability to respond to 
our efforts and actively pursue countermeasures. As an OBP official 
observed, ``Once illegal aliens learn where RVS camera sites are 
located, they may choose not to cross at those locations.''
    The troublesome part of the problem is that many agencies are 
involved, at the border and in the ``interior'' operations. Federal and 
State agencies can provide critical intelligence information and 
actively participate in border security operations. In addition, 
decisions made at the border will impact federal, State, and local 
agencies dealing with immigrant monitoring, verification of status and 
employment, and apprehension.
    We can design a system focusing on technology and catching people 
at the border, or we can take a more holistic approach to the problems 
of illegal immigration, trafficking, and terrorism. Working all 
dimensions to the border security challenge collectively requires 
system engineering at multiple levels. A good example of this was the 
revolution in the telecommunications industry during the 1970s and 
1980s. AT&T developed a three-tiered systems engineering approach for 
converting the Nation's telecommunications infrastructure from analog 
to digital:

        1.  Tier 1, the highest level, engineered the overall network, 
        including local access, central switching, routing, long haul 
        transmission, and other requirements.

        2.  Tier 2 system engineered each of the Tier 1 components 
        addressing capacity, reliability, calling patterns, service 
        views (e.g., 800/900 number services, calling cards).

        3.  Tier 3 system engineered specific technical systems (e.g., 
        frame relay switches, fiber-optic networks).

    A study of the AT&T experience, which required $5013 over two 
decades, shows how multi-tiered systems engineering can be applied to 
the border security challenge: taking into account tradeoffs between 
humans and technology; addressing operations at ports of entry, between 
ports of entry, and in the interior; and devising a high-level 
construct encompassing roles for federal, State, and local agencies.
    In summary, our attempts to date for improving border security 
through the exploitation of technology combined with operations have 
not met expectations or success. The problem may seem daunting--highly 
variable and massive in extent geographically, technically challenging, 
operationally complex, and possessing multiple dimensions that require 
sophisticated planning, coordination, and interfacing across 
organizational boundaries. Accepting that there are significant 
shortfalls in our current response to border security, as recognized by 
both Congress and DHS, the issue is where to go from here.

THE SYSTEMS ENGINEERING METHODOLOGY APPLIED TO BORDER SECURITY

    Numerous paradigms exist for developing, producing, and 
operationally deploying technology and systems. Consider the ``Linear 
Model'' championed by great scientists like Vannevar Bush\11\ and 
famous leaders like Franklin Roosevelt. This model starts with basic 
research then follows a progression through applied research, 
development, up through production and operations. This model pursues 
``discovery'' first, then looks for application. It is a model used 
very successfully by many academic organizations, the Department of 
Energy (DOE) National Labs, and the services' research laboratories 
[e.g., the Office of Naval Research (ONR)]. When Government funds are 
used for the linear model, it is not necessarily known beforehand what 
will be discovered (if anything) or what utility any discovery might 
produce. At the other extreme, the Government can procure technology 
and systems for which there are no unknowns that need to be resolved, 
and which require only straightforward engineering to design and 
produce. Because national security involves known problems that need to 
be solved, with issues that frequently tend to be technically complex 
and massive in scale; because there has been an explosive growth in 
technology since the second half of the twentieth century; and because 
there is a continuing need to advance technology to pace the threat, 
neither the linear model nor straightforward procurement can 
successfully address many of the Nation's security challenges. The 
systems engineering method was specifically developed to meet this 
need.
---------------------------------------------------------------------------
    \11\ Vannevar Bush, ``Science, The Endless Frontier,'' Time 
Magazine, April 3, 1944.
---------------------------------------------------------------------------
    Kossiakoff and Sweet\12\ define the characteristics of a system 
whose development, test, and application require the practice of 
systems engineering:
---------------------------------------------------------------------------
    \12\ Alexander Kossiakoff and William N. Sweet, Systems 
Engineering, Principles and Practice, John Wiley and Sons, Inc., 2003.

        1.  Is an engineered product and hence satisfies a specified 
---------------------------------------------------------------------------
        need,

        2.  Consists of diverse components that have intricate 
        relationships with one another and hence is multi-disciplinary 
        and relatively complex,

        3.  Uses advanced technology in ways that are central to the 
        performance of its primary functions and hence involves 
        development risk and often relatively high cost.

    The development of a system for securing the Nation's borders 
easily meets these criteria and logically needs the deliberate 
application of a disciplined systems engineering methodology to 
succeed.
    The systems engineering paradigm described here is based primarily 
on the text of Kossiakoff and Sweet.\13\ While specific excerpts from 
this reference are quoted, the majority of ideas, concepts, and 
examples in this section are liberally based on material from the 
reference. Implications of the systems engineering methodology for the 
challenge of securing the Nation's borders, and examples based on 
existing deployed systems (ISIS/ASI), are provided in italics.
---------------------------------------------------------------------------
    \13\ Ibid.
---------------------------------------------------------------------------
    As mentioned in the Preface, systems engineering is usually 
partitioned into three phases:

        1.  Concept Development--needs, feasibility, requirement, 
        concept definition, detailed planning

        2.  Engineering Development--prototyping and testing for 
        operational use

        3.  Post-Development--production, deployment, operations, 
        effectiveness assessment

    Concept Development Phase. This phase first establishes a need for 
the system and ensures that it is technically and economically 
feasible. Establishing the need typically requires analysis, modeling, 
and simulation for both the system and its operational employment. 
Technical feasibility generally requires that supporting science and 
technology necessary for developing viable system concepts are ``in the 
pipeline.'' If a gap exists in a critical technology area, directed 
Science and Technology (S&T) may be needed, which increases the risk in 
system development.The second part of this phase explores potential 
system concepts and then formulates a formal set of requirements the 
system must meet. The importance of requirements is simply stated: If 
requirements are minimal, it will be easy for any system to meet them. 
Allowing contractors to establish requirements to encourage innovation 
and shorten acquisition cycles under OSD's acquisition reform did not 
work well.\14\ Last, a viable system concept is selected, its 
functional characteristics defined, and a detailed plan is developed 
for the subsequent stages of engineering, production, and operational 
deployment of the system.
---------------------------------------------------------------------------
    \14\ Michael W. Wynne, Under Secretary of Defense (AT&L), ``Policy 
for Systems Engineering in DOD,'' February 20, 2004.

         Requirements for securing the border need to be defined for 
        the combined use of technology and Border Patrol agents. Choice 
        of an appropriate metric is important: It affects system 
        design, and its sensitivities may be subtle. For example, 
        consider as metrics the success rate for illegal entry, the 
        absolute number of illegal entries in a given period, and the 
        number of illegal immigrants in the U.S. at any given time. 
        Improving border security will have a direct, positive impact 
        on all three metrics. Improved security may additionally have a 
        deterrent effect on those considering attempting to enter 
        illegally. The first metric is not sensitive to this 
        deterrence, while the last two are. Additionally, observe that 
        the first two metrics are principally under the control of the 
        system designer, while the last metric is heavily dependent 
---------------------------------------------------------------------------
        upon other federal, state, and local agencies.

         Once a Concept of Operations is developed for interfacing 
        humans with technology, requirements can be established for 
        communications and technology in the field: e.g., Personal 
        Digital Assistants (PDAs), decision aids, and reachback (e.g., 
        terrorist databases from the National Counterterrorism Center).

         Numerous other technical issues arise in the concept 
        development phase. Examples include: the existence of models, 
        simulations, and analytical techniques for addressing the 
        combined performance of systems and Border Patrol agents; the 
        detection performance for sensors and cameras; system false 
        alarm rates; potential Unmanned Aerial Vehicle (UAV) sensor 
        contributions; the impact of law enforcement human intelligence 
        (HUMINT) on cuing, detection, and response.

    Engineering Development Phase. This phase corresponds to the 
process of engineering the system to perform the functions specified in 
the system concept defined in the first phase. First, any new 
technology the selected system concept requires must be developed, and 
its capability to meet requirements must be validated. Second, a 
prototype is developed that satisfies requirements on performance, 
reliability, maintainability, and safety. Third, the system is 
engineered for production and operational use, and its operational 
suitability is demonstrated. These last two stages require engineering 
development and design, defining and managing interfaces, developing 
test plans, and determining how discrepancies in system performance 
uncovered during test and evaluation should be rectified.

         Assuming that valid system requirements for border security 
        and a system concept exist [while noting that the SBlnet 
        Request for Proposals (RFP) provided minimal requirements], 
        gaps in critical technologies must be identified and addressed. 
        Using the system concept for the current operational system 
        (ISIS/ASI) as an example, critical missing technologies may 
        include: false alarm reduction algorithms; automation/semi-
        automation of the detection process for sensors and video, 
        including ``Bell Ringers'' that alert operators and Large 
        Margin Classifiers; algorithms for fusing acoustic, magnetic, 
        video, and other sensor information; creation of a common 
        tactical scene; tactical decision aids; Unmanned Aerial Vehicle 
        (UAV) technologies including sensors, Automatic Target 
        Recognition, autonomous operations; integrated C<SUP>2</SUP>, 
        man/machine interface, and law enforcement and intelligence 
        interfaces.

         Prototyping of individual system elements must be completed 
        and performance validated through testing (e.g., are we really 
        achieving acceptable false alarm rates from sensors?). A scaled 
        prototype of an integrated system must be developed and tested 
        in an operational environment with Border Patrol agents. Full-
        scale production and deployment should begin only after any 
        discrepancies are resolved.

    Post Development Phase. This last phase includes production, 
operational deployment, in-service support and engineering, and 
continuing assessment of the operational effectiveness of the system, 
with feedback to prior phases and iterations as required to maintain/
improve system effectiveness (``Build-Test-Build'' ).

         Full-scale production of complex systems for providing border 
        security is appropriate only after the system successfully 
        undergoes operational test and evaluation. Once deployed, it is 
        critical to determine the operational effectiveness of the 
        system, establishing whether the system is meeting its 
        operational requirements, and understanding discrepancies and 
        actions needed to be taken. There is a potential wealth of 
        information from a deployed system for addressing deficiencies 
        and improving system effectiveness: e.g., recorded sensor data; 
        captured performance for the combination of the analyst and 
        system for detecting targets and eliminating false alarms; 
        empirical understanding of the utility of command, control, and 
        communications; the success of the marriage between technology 
        and Bureau of Customs and Border Protection (CBP) operations. 
        Given the lack of maturity of this mission area and the 
        associated absence of subject matter expertise in critical 
        technical areas (e.g., target signatures, false alarm 
        mechanisms for sensors), a ``Spiral Development'' process of 
        system capabilities could be entertained that would exploit the 
        continually improving knowledge in this domain.

Systems Engineering a Complex System with Predecessor Technology

    Descriptions of systems engineering usually appear to imply that a 
new system is being designed from scratch, with no regard for current 
systems that may have applicability. Existing systems will affect 
development of a replacement system in three ways:

        1.  Deficiencies of the existing system are recognized and may 
        represent the driving force for a new design.

        2.  If deficiencies are not as serious as to make the current 
        system worthless, the existing overall concept and functional 
        architecture may constitute a good starting point for exploring 
        alternatives.

        3.  Relevant portions of existing systems may be used in new 
        designs, reducing risk and saving costs.

            
    Given the significant investment in the current ISIS and ASI 
systems (including seismic and magnetic sensors, RYS, and ICAD), it is 
desirable to seriously entertain the employment of these assets in 
future system designs.

PEDIGREE OF THE SYSTEMS ENGINEERING METHODOLOGY FOR CONTROLLING 
                    PERFORMANCE, SCHEDULES, AND COST

    The systems engineering method basically consists of defining 
requirements, translating those requirements into functions (actions, 
tasks) that the system must accomplish to meet the requirements, 
selecting a preferred system design that is believed to accomplish 
those functions, then iterating and validating the system design 
through successive testing. If one views each iteration as a 
``hypothesis'' that this design will optimally meet requirements, with 
associated ``hypothesis testing'' to verify this assumption, then ``the 
systems engineering method can be thought of as the systematic 
application of the scientific method to the engineering of a complex 
system.'' \15\ This is certainly not a rigorous proof that system 
engineering is an optimal method for developing complex systems, but it 
is a compelling rationale that appeals to the same logic that supports 
the scientific method for pursuing research. Would a legitimate 
researcher pursue discovery and invention without using the scientific 
method?
---------------------------------------------------------------------------
    \15\ Ibid.
---------------------------------------------------------------------------
    The systems engineering methodology has gained acceptance in 
virtually all acknowledged professional technical communities for the 
development of massive, complex systems. Figure 1, adapted from 
Kossiakoff and Sweet, shows the relationship between the elements of 
systems engineering as described here, to other prominent systems 
engineering life cycle models.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Consider the extensive experience realized by the United States 
during the twentieth century in developing large-scale, complex 
military systems (ships, tanks, planes, command and control). The 
Department of Defense developed the DOD 5000 series of directives as a 
set of comprehensive system acquisition guidelines, specifically to

         ``. . .manage the risks in the application of advanced 
        technology, and to minimize costly technical or management 
        failures.. . .In 2001, the International Organization for 
        Standardization (ISO) and the International Electrotechnical 
        Commission (IEC) issued the result of several years of effort--
        a systems engineering standard designated ISO/IEC 15288. This 
        model is likely to become institutionalized in U.S. industry to 
        replace previous standards.'' \16\
---------------------------------------------------------------------------
    \16\ Ibid.

    As an additional example, the National Society of Professional 
Engineers adopted a model ``mainly directed to the development of new 
products, usually resulting from technological advances.'' \17\ One can 
simply Google ``Systems Engineering'' and the references will testify 
to the near-universal acceptance of this process for the development of 
complex systems. Systems engineering, arguably, has been shown to be 
the most effective process for the development and operational 
deployment of complex systems. Although a disciplined approach and 
technical due diligence are central to the process, systems engineering 
has a proven track record for realizing progress as rapidly as 
possible.
---------------------------------------------------------------------------
    \17\ Ibid.
---------------------------------------------------------------------------
    During the 1990s, DOD experimented with acquisition reform, looking 
for ways to streamline the acquisition process, decrease the 
development time line, and provide more latitude for innovation to 
contractors. ``Shortcuts'' were taken in the belief that less ``rigor'' 
and ``discipline'' may be necessary in the acquisition process. By the 
turn of the century, there was significantly more insight into what 
worked and what did not work. In 2004, the Under Secretary of Defense 
for Acquisition, Technology, and Logistics [USD (AT&L)] promulgated a 
new policy\18\ mandating the use of a robust systems engineering 
approach for ``all programs responding to a capabilities or 
requirements document, regardless of acquisition category.'' In the 
words of USD (AT&L):
---------------------------------------------------------------------------
    \18\ Michael W. Wynne, Under Secretary of Defense (AT&L), ``Policy 
for Systems Engineering in DOD,'' February 20, 2004.

         ``Application of a rigorous systems engineering discipline is 
        paramount to the Department's ability to meet the challenge of 
        developing and maintaining needed war fighting capability.. . 
        .Systems engineering provides the integrating technical 
        processes to define and balance system performance, cost, 
---------------------------------------------------------------------------
        schedule, and risk.''

    Guidance for implementation followed.\19\
---------------------------------------------------------------------------
    \19\ Glenn F. Lamartin, Director, Defense Systems USD (AT&L), 
``Implementing Systems Engineering Plans in DOD--Interim Guidance,'' 
March 30, 2004.
---------------------------------------------------------------------------

CONSIDERATIONS FOR IMPLEMENTING THE SYSTEMS ENGINEERING METHODOLOGY

    Equally as important as adopting a systems engineering methodology 
for developing complex systems, is the selection of an implementation 
strategy that ensures adherence to the principles of systems 
engineering, and verifies successful execution of each of its various 
phases. Ultimately, the Government is accountable for results, and must 
ensure adequate technical competence is brought to bear for 
understanding issues and making decisions. For developing massive, 
complex systems, the Government may need to engage third party 
organizations to support them in this capacity.
    The systems engineering methodology is not prescriptive regarding 
implementation strategies. The roles played by various organizations 
should be considered in light of how the activities in the systems 
engineering methodology might best be performed. For each system 
development activity, specific consideration should be given to 
enabling key roles for Government agencies and Government Laboratories, 
prime contractors, associate contractors, Federally Funded Research and 
Development Centers (FFRDCs), University Affiliated Research Centers 
(UARCs), academia, non-profits, and small or minority owned businesses. 
In architecting an implementation strategy, especially in defining the 
roles of prime contractors, note that history has shown that the 
strength of this nation for addressing massive, complex challenges is 
the wealth of available domain expertise, and the power of competitive 
forces.
    To begin with, massive, complex systems normally require major 
contractors because they usually have the resources for manufacturing 
and production that smaller businesses do not have. In addition, large 
organizations have infrastructure, logistics, and in-service 
engineering capabilities that are critical to life cycle support. The 
considerable scale of the challenge in securing the borders 
necessitates a major contractor in the role of prime for system 
development and deployment.
    There are many smaller companies not engaged in manufacturing and 
production; they necessarily rely on their subject matter expertise for 
providing value added to their customers. These organizations can 
provide critical support in assessing needs and feasibility, defining 
concepts, exploring operations, and providing intellectual property in 
understanding the problem and developing technologies. Because this is 
all that they do, they must be very competitive in what they provide. 
Therefore, one would not necessarily expect to see all the domain 
expertise resident in a prime contractor. To access the ``best and 
brightest,'' ways should be found to include these ``associate 
contractors'' as full members of the team.
    The Nation has a significant resource in its nonprofit laboratories 
that can operate in the best interest of the Government as ``Honest 
Brokers.'' These organizations include Government laboratories (e.g., 
DOD service laboratories), the ``National Labs'' (DOE), Federally 
Funded Research and Development Centers (FFRDCs), and University 
Affiliated Research Centers (UARCs). The absence of shareholders, 
manufacturing, and production allows more independence (less conflict 
of interest) in supporting the Government in developing requirements, 
planning, prototyping, testing, and assessing operational 
effectiveness.
    There are numerous examples of disparate successful strategies for 
implementing the systems engineering methodology. SSP's management of 
the Polaris Program, previously mentioned, included a technical staff 
of 450 in the program office fully dedicated to the development and 
production of the Polaris system. This represents an example of a model 
with a strong technical role played by the Government. Two of the five 
major features identified by the GAO as contributing to this program's 
success are:\20\ ``(4) program office technical expertise, and (5) good 
management practices, such as open communications, independent internal 
evaluation, and on-site management representation at contractor 
plants.''
---------------------------------------------------------------------------
    \20\ United States General Accounting Office, ``Fleet Ballistic 
Missile Program,'' GAO/NSIAD-90-160, 9-6-1990.
---------------------------------------------------------------------------
    A considerably different model that emerged is the recognized 
successful\21\ spiral development strategy used by the U.S. Navy for 
improving submarine sonars [Acoustic Rapid Commercial Off-the-Shelf 
(COTS) Insertion (ARCI)/Advanced Processor Build (APB)] starting in the 
mid 1990s. The Navy had made a commitment to embrace open architecture, 
in general, for new systems development efforts to enable a spiral 
development systems engineering methodology, and specifically to allow 
contributions from many organizations across the full spectrum of 
systems engineering activities. Mandating open architecture alone, 
while necessary, proved to be insufficient in many programs for 
changing the roles and contributions of organizations in the 
acquisition process. Progress in improving the acquisition process, 
had, in fact, been hampered by the continued use of traditional 
business practices that limit intellectual competition. In the words of 
the Chief of Naval Operations (CNO):\22\ ``Although we have made 
considerable Open Architecture (OA) investments over the past several 
years, we have been holding onto traditional business models and the 
overall progress transitioning into OA business practices is 
disappointing.'' The CNO then cites the ARCI/APB program, as an 
exception, for its successful business model: ``It (ARCI/APB) provides 
a clear and compelling example of competitive alternatives bringing 
reduced costs, improved capability, and increased speed of delivery to 
the fleet.''
---------------------------------------------------------------------------
    \21\ Winner of the Al Gore ``Hammer Award for Reinventing 
Government'' in February, 1999.
    \22\ M.G. Mullen, Chief of Naval Operations, ``Navy Open 
Architecture,'' Department of the Navy, August 28, 2006.
---------------------------------------------------------------------------
    The key aspect of the ARCI/APB business model cited by the CNO is 
how organizational roles are carefully tailored (Figure 2) to address 
the elements of systems engineering.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Requirements are set by a requirements group composed of Government 
(U.S. Navy) users. These are updated based on measured performance and 
changes to the threat. The broad scientific community, in general, 
supports the identification of concepts and assessment of feasibility. 
The Laboratory community develops prototypes, and as a group of peers 
[Test, Evaluation, and Support Group (TEASG)] assesses suitability of 
the concept for operational use. The results of this testing are used 
by Program Executive Office (PEO) Subs (Milestone Decision Authority) 
to validate that requirements are met before production. The Prime 
Contractor produces and deploys the system, and the Government 
[Director of Operations, Test and Evaluation (DOT&E)] verifies 
operational performance. During operational patrols, the Labs 
continuously assess operational effectiveness, and feed back results to 
the process to continue spiral development. Organizations do what they 
do best, conflicts of interest are minimized, and intellectual 
competition is encouraged throughout the process.\23\ In the words of 
the CNO: ``My vision for OA is not limited to systems built to a set of 
open standards, but rather it is focused on open business models for 
the acquisition and spiral development of new systems that enable 
multiple developers to collectively and competitively participate in 
cost-effective and innovative capability delivery to the Naval 
Enterprise.''
---------------------------------------------------------------------------
    \23\ An unnamed staff member of the prime contractor for ARCI found 
competition after contract award intellectually stimulating: ``I 
wouldn't want to go back to the old way.''
---------------------------------------------------------------------------
    One other basic aspect of the systems engineering implementation 
used by the ARCI/APB program must be mentioned because of its 
significance for ensuring real and rapid progress. Every concept/
design/improvement is subjected to data-driven evaluation or assessment 
at every phase of the process to establish maturity, understand risk of 
implementation, and determine value added to overall performance. Key 
elements of this strategy are models validated with data, common data 
sets (real data) and common metrics, end-to-end test beds, in-situ 
testing, and peer review teams. This represents an example of a model 
that exploits the greater technical community to a very considerable 
extent.

Achieving Rapid Progress

    Given the urgency of the current national security environment, a 
crucial issue for any methodology and any implementation strategy is 
``How rapidly can one make progress?'' If it takes too long to get to 
the 100 percent solution, one might be willing to take a 90 percent or 
80 percent solution in the short-term. (Or as a worst case, one might 
pursue activities rapidly that consume resources and time and result in 
no real progress.)
    Begin by recognizing that there is no magic process that can 
guarantee an arbitrary degree of progress in an arbitrarily short 
amount of time--even by throwing money at the problem. Then recognize 
that the systems engineering methodology, properly implemented, has the 
proven track record for realizing real progress as rapidly as possible. 
Very importantly, the systems engineering methodology can be tailored 
to emphasize milestone-driven development. In the ARCI program 
mentioned previously, the ``R'' stands for ``Rapid.'' Whereas, the 
traditional acquisition process for submarine sonars took 12 or more 
years to develop and implement improvements, the ARCI/APB spiral 
development process deploys a new build for sonars every year. Properly 
applying a systems engineering methodology to the border security 
challenge would seemingly offer the highest likelihood of progress as 
rapidly as possible. Moreover, a spiral development process for the 
border security challenge could reasonably produce yearly improvements 
in real performance.
    The ARCI/APB program, initiated in 1996, deployed its first version 
at sea in 1998--two years. Lessons from successful spiral development 
programs shed light on what it takes to make rapid progress at the 
initiation of a program:

        <bullet>  Major hardware systems and infrastructure take time 
        to develop. The more that exists, the faster progress can be 
        made at the beginning.

        <bullet>  Open Architecture and COTS systems are key enablers 
        for rapidly inserting software upgrades, and allowing any 
        organization to ``plug and play.''

        <bullet>  Contracting can easily delay progress. Multi-year 
        contracting with key organizations, IDIQ contracts, and 
        appropriate use of sole source contracting can all help.

        <bullet>  Technology that leads to performance improvements 
        needs to be ``in the pipeline,'' and the implementation 
        strategy should ensure accessibility to this technology, 
        wherever it might exist in the greater technical community.

        <bullet>  The Government needs a key individual (Program 
        Manager) empowered to do the right things--and it helps if he 
        or she is a zealot.

RECOMMENDATIONS

    The following recommendations address the scope and complexity of 
the border security challenge, the impact of initial policy and 
requirements development with clear, holistic metrics, and proven 
implementation strategies.

        <bullet>  Recognizing the massive scale and complexity of the 
        border security challenge, a firm commitment needs to be made 
        to a disciplined systems engineering methodology for 
        controlling performance, cost, and schedule and for providing 
        the oversight tools the Government needs for monitoring 
        performance and ensuring success.

    Even with SBlnet prime contractor selection by September 30, 2006, 
the systems engineering methodology can still be applied during rapid 
development and deployment to support operational success.

        <bullet>  Policy, goals, metrics, and requirements must be 
        defined at the beginning.

    CONOPS, policy, goals, metrics, and requirements for SBlnet should 
be clearly articulated to the prime early in the development process. 
An integrated view must be developed for the roles of federal, State, 
and local agencies.

        <bullet>  An implementation strategy should consider enabling 
        multiple organizations to collectively and competitively 
        participate in all elements of system design, development, and 
        deployment.

    Organizational constructs for SBlnet that vest too much 
responsibility and authority in a single prime organization may 
diminish objectivity and alternatives, and fail to exploit the Nation's 
strengths for solving its challenges--a wealth of technical resources, 
and an open competitive market for ideas.

        <bullet>  Organizational conflict of interest must be avoided 
        in testing and evaluation by using Government, nonprofit, and 
        peer review organizations.

    The Nation's nonprofit laboratories (e.g., DOD Labs, the DOE 
``National Labs,'' FFRDCs, and UARCs) operate for the Government as 
``Honest Brokers.'' The absence of shareholders, manufacturing, and 
production in these organizations provides the Government an 
opportunity for independent validation and oversight of SBlnet. In 
particular, the Nation's nonprofit Labs can support requirements 
development, planning, prototyping, testing, and assessment of 
operational effectiveness.

        <bullet>  Technology development and validation, risk 
        reduction, testing for operational effectiveness, prototyping, 
        limited production, and deployment--should all be performed 
        before full-scale production and deployment.

    A scaled prototype of an integrated system for SBlnet should be 
developed and tested in an operational environment with Border Patrol 
agents. Full-scale production and deployment should begin only after 
discrepancies are resolved, and operators accept the system.

        <bullet>  A continuing assessment of operational performance--
        determination of deficiencies, issues, and lessons learned--
        should feed back into a spiral development process for 
        developing improved technologies and operations and improving 
        performance.

    Given the lack of maturity in the marriage of technology and 
operations that support the border security mission area, a ``spiral 
development'' process should be used that exploits continually 
developing knowledge in this domain, adapts to technology improvements, 
and continually refines the CONOPS and tactical operations.

        <bullet>  Given the urgency of today's national security 
        environment, DHS should take those actions necessary to ensure 
        real and rapid progress in the near-term.

    Secretary Chertoff has stated that SBI/SBlnet will make significant 
progress in two years.\24\ What could SBlnet reasonably attempt to 
accomplish in that time? The current ISIS sensors, remote video 
surveillance, and existing infrastructure, and an imminent multi-year, 
IDIQ prime contract are significant resources for getting started. 
Importantly, there exist key technologies in the pipeline that apply to 
SBlnet's most critical issues: e.g., false alarm reduction algorithms, 
``large margin'' classifiers, bell ringers, automatic target 
recognition, data fusion algorithms, and tactical scene generation. The 
data stream from existing sensors could be employed immediately for 
providing critical inputs to ``data driven'' research and development 
of these new technologies. These technologies, however, exist at many 
different organizations, and typically, outside the DHS community. So, 
the organizational implementation strategy used for SBlnet should 
accommodate--even encourage--outreach to a broad technical community. 
Moreover, an open architecture should be used for system development 
and implementation to allow any organization to ``plug and play.'' 
Properly constructed and managed, in two years SBlnet could 
meaningfully attempt deployment of a limited prototype that 
demonstrates orders of magnitude improvement in critical performance 
areas (e.g., false alarm reduction), successful resolution of critical 
technical issues, and a baseline system that enables full-scale 
development and deployment.
---------------------------------------------------------------------------
    \24\ Oral Testimony by Secretary Michael Chertoff, before the U.S. 
House of Representatives Appropriations Subcommittee on Homeland 
Security, Rayburn House Office Building, July 27, 2006, reported by UPI 
on July 28, 2006: Chertoff Pledges Better Border Security, by Martin 
Sieff.

CLOSING

    Again, I thank you for this opportunity to address you today on 
``How Can Technologies Help Secure Our Borders?,'' and specifically how 
applying the discipline of the systems engineering methodology can 
ensure that Congress' investment in SBI and SBInet will be rewarded 
with operational success. This ends my remarks concerning the 
applicability of a disciplined systems engineering approach to the 
daunting challenge of securing our nation's borders.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                 Biography for Gordon Daniel Tyler, Jr.
Company Title(s): Department Head, National Security Technology 
Department

         Business Area Head for Undersea Warfare

         Business Area Head for Homeland Protection

         Business Area Head for Biomedicine

         Member APL Executive Council

Areas of Practice/Specialization:

    With 36 years experience in research, development, test and 
evaluation, Mr. Tyler has been in technical, program management, and 
line management positions. He has supported DOD, the Intelligence 
Community, the Department of Homeland Security, and other Government 
agencies in various mission areas, including Undersea Warfare 
(Submarine Security, Anti-Submarine Warfare), Homeland Security/
Homeland Defense (Maritime Domain Awareness, Border Protection, 
Counterdrug, Infrastructure Protection, Preparedness and Response), and 
Special Operations. His areas of technical specialization include: 
Sensor and System Development; System Concept Development and System 
Engineering; Operations Analysis, Modeling and Simulation, and Test and 
Evaluation.

Honors, Degrees:

M.S., Johns Hopkins University, 1974, Computer Science B.S., 
        Massachusetts Institute of Technology, 1970, Electrical 
        Engineering

Stanford Executive Program, Graduate School of Business, Stanford 
        University, 2002

Merle Tuve Fellowship (1985)

Doctoral Coursework, Johns Hopkins University (1978-1985), Applied 
        Mathematics

Work Experience:

1970-Present: Johns Hopkins University Applied Physics Laboratory

Department Head, National Security Technology Department, 1998-Present
    Head line manager for APL department of 525 staff responsible for 
activities in Homeland Protection, Undersea Warfare, and Biomedicine, 
with principal organizational competencies in physics, sensors, signal 
and information processing, system concept development and systems 
engineering, test and evaluation.

Business Area Head for Homeland Protection, 1998-Present
    Responsible for APL business activities in Homeland Security/
Homeland Defense (180 staff years of effort), which includes the 
following thrusts:

        <bullet>  Preparedness and Response: Syndromic Surveillance/
        Biosurveillance/ESSENCE, for DARPA, DTRA, CDC, NCR; regional 
        response planning, ``first responder'' support, and operational 
        response T&E for DHS, NIH, MD;

        <bullet>  Key Facilities Protection: Mail screening and mail 
        security activities for the U.S. Government and DOD; CBRNE 
        sensor evaluations, pentagon security for PFPA;

        <bullet>  Maritime and Border Security: Portal Systems T&E for 
        TSA; Container and In-Bond Security for C&BP; Advanced Spectral 
        Systems for DNDO; Maritime Domain Awareness and Maritime 
        Security for USCG;

        <bullet>  Special Operations and ISR: Systems engineering and 
        analysis for SOCOM; Ops assessments and gaps evaluation for 
        JIEDDO; special ISR projects for the intelligence community; 
        systems engineering and analysis support for the Naval Special 
        Warfare Development Group;

        <bullet>  CBRNE Detection and Defeat: CBRNE sensor/system RDT&E 
        for JPEO CBD; sensor T&E and performance analysis for JPEO CBD; 
        Spectral Sensing for Bioaerosols for DARPA; ``gold standard'' 
        testing for HSARPA; systems engineering and analysis support 
        for DTRA.

Business Area Head for Undersea Warfare, 1998-Present
    Responsible for APL business activities in Undersea Warfare (350 
staff years of effort) which includes the following thrusts:

        <bullet>  Submarine Security and Technology: SSBN Security 
        Program; Submarine Security and Survivability Program;

        <bullet>  Anti-Submarine Warfare: Advanced Processor Builds for 
        Submarine Sonar, Tactical Control, and Surface Ship Sonar; 
        Engineering Measurements Program for Submarine Sonar (T&E); 
        numerous ONR S&T efforts; Integrated Undersea Surveillance 
        Systems; numerous special studies, analyses, and war games that 
        directly support the office of the CNO.

        <bullet>  USW GWOT activities: Submarine In-Port and Near-Port 
        Security; Nuclear Weapons Security; Pearl Harbor Port Security 
        (NFESC);

    Principal sponsors in Undersea Warfare include Director of 
Submarine Warfare (CNO N87); PEO Integrated Warfare Systems; NAVSEA; 
NAVAIR; SPAWAR; ONR; Strategic Systems Project Office; DARPA.

Business Area Head for Biomedicine, 1998-Present
    Responsible for APL business activities in Biomedicine, which 
includes the following efforts:

        <bullet>  A revolutionary 22 degree of freedom upper extremity 
        prosthetic with full neural integration (peripheral nerves, 
        cortical neurons), and haptic feedback (DARPA); APL lead for 
        team of worldwide, expert organizations; APL responsible for 
        system engineering and integration;

        <bullet>  Biomechanics: Blunt trauma modeling and testing; 
        Head-Supported Mass Program for the U.S. Army; vehicle and 
        occupant response to IED detonation; Crash Test Facility 
        testing.

NSTD Assistant Department Head for Programs, 1994-1998
    Department supervisor responsible for program management and 
development activities including: fiscal year/multi-year planning; 
identification and development of strategic thrust areas; system 
concept development; program/project formulation; coordination and 
monitoring of program activities; identification of fiscal, human, and 
capital resources required to execute program activities; development 
of teaming arrangements with industry, academia, and government labs. 
The principal areas addressed consist of: Undersea Warfare technologies 
and systems (Submarine Security, Surveillance, Anti-Submarine Warfare, 
Mine Warfare); Information Science and Technology (Simulation, 
Modeling, Data Integration and Fusion, Signal and Information 
Processing, C<SUP>3</SUP>I, Intelligent Networking); Marine 
Engineering, Test and Evaluation; Counter-Drug technologies and 
systems; Ocean and Atmospheric Physics; technologies and systems for 
countering weapons of mass destruction; and Health Care Technologies.

Undersea Surveillance Program Area Manager, 1988-1994
    Responsible for the development and management of Undersea 
Surveillance and Anti-Submarine Warfare systems and technologies, 
including: directed research, basic science and technology development; 
system engineering (requirements definition; modeling, simulation and 
analysis; system concept development; prototyping; system engineering 
and integration; test and evaluation; system architecture development; 
C<SUP>3</SUP>I; operational evaluation); concept of operations 
development. Major programs included: Integrated Undersea Surveillance 
Systems programs (Low Frequency Active, Critical Sea Test (Lead Lab), 
Air Defense Initiative, SURTASS development (Lead Lab), Advanced 
Distributed Systems, Full Spectrum Processing); avionics for the LAMPS 
helo program; BEARTRAP; Periscope Detection Radar; and DARPA simulation 
and modeling development.

Acoustics Program Manager for the SSBN Security Technology Program, 
        1981-1987
    Responsible for eight to ten projects in the SSBN Security Program 
investigating the underwater acoustic detection of submarines. Projects 
emphasized basic physics, modeling, simulation, signal and information 
processing, system concept formulation, system design and engineering, 
test and evaluation, and operations analysis. Projects included: 
radiated signatures of submarines; mobile, low frequency active 
acoustic systems (DIANA, Standard Aura I, II, and I1I); fixed, low 
frequency active systems (Fixed-Fixed I, II, III); sub-on-sub 
operations (Standard Arrow I, II); exploitation of transient and 
intermittent acoustic radiation (LANTSECEX and PACSECEX testing); and 
sonar performance in oceanographic ducting conditions.

Advanced Concepts Section Supervisor of the Acoustics Group, 1976-1980
    Line supervisor responsible for the development and evaluation of 
advanced underwater acoustic technology and system concepts for the 
detection of submarines. The scope of activities included: 
identification of key technologies; development of operational 
concepts; performance of scoping calculations with performance models; 
identification of critical issues and the conduct of analytical or 
experimental efforts for resolution.

Assistant Program Element Manager of the Acoustics Group, 1979-1980
    Assistant Program Manager for the acoustics projects in the SSBN 
Security Program. Supported the Program Manager in planning, executing, 
and monitoring major acoustics projects including Standard Argo 
(exploitation of acoustic noise field anisotropy with high resolution 
sonar arrays), LANTSECEX 302-80 (detectability of specific signature 
components in acoustic surface ducts), and special analyses of Sonar 
Evaluation Program data.

Protect Leader for SSBN Security Program Efforts, 1976-1980

        <bullet>  Standard Aries Sea Test and Analysis: Exploitation of 
        underwater acoustic surface ducting conditions for submarine 
        detection. Directed project team performing environmental 
        surveys and test area selection, pre-test performance 
        predictions, test geometry designs, identification of critical 
        issues associated with physics of acoustic propagation and 
        scattering, measurement designs, signal processing, and overall 
        analysis plans.

        <bullet>  Advanced Concepts Analysis Project: Directed team of 
        analysts investigating advanced acoustic concepts for submarine 
        detection as part of the SSBN Security Program. Specific 
        concepts included inter-array processing (IAP), low frequency 
        active acoustic sonars, planar arrays, distributed sensors, 
        oceanographic exploitation, and the utilization of loud, 
        intermittent acoustic evolutions.

        <bullet>  Skeleton Array Exercise (SKELEX): Principal analyst 
        and Project team lead, for planning, conducting, and performing 
        analysis for the SKELEX at-sea exercise addressing maximum 
        achievable gains for passive sonar towed arrays.

Associate Engineer, Acoustics Group, 1970-1976
    Designed and developed digital signal processing hardware, 
algorithms, and software in support of analysis of underwater acoustics 
data, for assessing sonar performance in support of the SSBN Security 
Program. Designed and developed high-speed programmable array 
processor. Designed and implemented high-speed frequency domain 
algorithms for correlation, beamforming, and automated detection. 
Principal investigator for infrasonic detection of submarines, surface 
scattering effects on sonar performance, and Inter-array Processing.

Publications:

The Emergence of Low Frequency Active Acoustics as a Critical Anti-
        Submarine Warfare Technology, Johns Hopkins APL Technical 
        Digest, Vol. 13, No. 1, 1992.

An Overview of the Critical Sea Test Program, U.S. Navy Journal of 
        Underwater Acoustics, Vol. 42, No. 2, 1992.

Array Signal Gain Measurements for a Large Aperture Acoustic Array 
        Operating in a Convergence Zone Environment, Proc. 32nd Navy 
        Symposium on Underwater Acoustics, 1978.

Measurement of Signal Coherence, Propagation, and Array Dynamics with a 
        Large Acoustic Array, APL/JHU POR-3143, April, 1976.

Associations:

Naval Submarine League

National Defense Industrial Association

Armed Forces Communications and Electronics Association
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. Thank you very much, Mr. Tyler.
    Dr. Worch.

STATEMENT OF DR. PETER R. WORCH, INDEPENDENT CONSULTANT, MEMBER 
          OF THE U.S. AIR FORCE SCIENCE ADVISORY BOARD

    Dr. Worch. Chairman Boehlert, distinguished Members of the 
House Committee on Science. I am, indeed, honored to be asked 
to provide you my comments relative to technologies for border 
security. I would like to point out that these are my opinions 
and not necessarily those of either the Air Force Scientific 
Advisory Board or the Air Force.
    I look at this border security as a system problem, and so 
it is fitting that I follow Dan here. It is a set of layered 
systems, layered elements. And it starts with information and 
it ends with information, by the way. At the front end, and I 
hear this too seldom, we need to have the information on the 
people that might cross the borders, their culture, their 
behavior, their motivation, their training. We need to know 
about the terrain, the topography. We need to know about the 
motivation or the possible routes that the people might take. 
And we need to know about the objectives.
    Call this intelligence, if you will, but it is not to be 
considered as a separate element. It is an integral part of the 
surveillance problem. And I have seen too little mention of 
that important role. And where it helps, right from the start, 
it tells where to put the sensors and how to use the sensors, 
and that is important.
    The next piece I see is a tripwire. It can successfully 
protect our borders, yet remain within the limits of acceptable 
behavior of a broad area. Unattended ground sensors happen to 
be my favorite along with unmanned air vehicles that can detect 
just motion--not imagery--just motion at this point, we are 
trying to detect.
    The next level is to investigate those detections, and that 
is where images come into play from UAVs, which I will repeat 
several times here, seem, to me, to be the best way to go about 
it.
    And finally, people. And what we need to do is think about 
these technologies, I believe, in how they aid the human, the 
human that is the agent, the human that is operating the 
command center, the human who needs to have the information 
brought to him and put in the proper form that he can make a 
rapid and effective and correct decision. The consequences of 
bad decisions here are severe, and one needs to take into 
consideration the need to aid people, not replace them.
    On UAVs: UAVs clearly, in my mind, offer significant 
advantage over all other platforms. They can rapidly deploy to 
an area in which there is a suspected or a real intrusion. They 
can investigate that area. They can provide persistent 
surveillance, 24/7, and no one gets tired. And they can provide 
relentless tracking of individuals or vehicles that may have 
crossed the border. So I think they play a key role.
    Let me switch gears now to the technology part.
    I see technology needs really in three areas: sensors, and 
UAVs, and again, in the information management portion. Call it 
intelligence, if you will. It is some of both, really.
    In the sensor area, I think there is much to be done in 
area of unattended ground sensors. There has been some good 
work done in the field. There has been some good work done by 
Sandia Laboratories and other activities, the military labs, 
and in industry, and in the universities, Berkeley, for 
example. This sort of work in the basic, unattended ground 
sensors is essential, because they can provide a very low-cost 
tripwire, if you will, and eventually even some level of 
identification.
    Other work needs to be done in multi-spectral and hyper-
spectral sensors and in radar processing, radar processing to 
extract these slow-moving, small radar cross-section people 
from the background that is there. A very difficult problem.
    And finally, automatic target recognition, not as a 
replacement for an individual, but again, to aid that 
individual making the right decisions.
    UAV technologies fall in two areas: human system 
integration, the ability to give the man on the ground the same 
feel for the aircraft, the same indications, the same 
situational awareness he would have if he were in the aircraft 
himself. Not enough work has been done on that. We can build 
wings, we can build engines, but we have got to deal with the 
human finally and do that at a much better rate.
    The other area is really a group of projects that are 
necessary for air safety. Many of these projects have been 
pursued for manned aircraft. Some of them are unique for 
unattended aircraft, UAVs. And those are the areas that need to 
be pushed. Unfortunately, much of this was funded by NASA and 
since they have reduced the budget in that area, we definitely 
have a shortfall. They have some very good programs 
specifically aimed at operating UAVs in manned airspace.
    The third area is that of information management. And yes, 
connectivity communications is part of this, but the more 
difficult thing is to gain knowledge out of data that comes 
from a large number of sources, a large number of independent 
sources, and some of it may be history, some of it may be real-
time from the sensors, but to put that in a form where the 
decision-maker can make a quick and accurate decision.
    So those are the three areas: sensors, UAV technologies, 
and information management technologies.
    Now getting there.
    Very quickly, I think it is important to partner with the 
military laboratories. I think the military problem is very 
similar to this. It may not have been five years ago or five 
years and a few days ago, but it is now, both from what has 
happened in this country and what we are dealing with in Iraq. 
Very similar. There needs to be cooperation much better than 
there is. Fortunately, there is one good example where this is 
happening. The National Law Enforcement and Corrections 
Technology Center Northeast is partnering with the Air Force 
Research Laboratory Information Director at Rome, New York. 
They are in adjacent buildings. They are working together. The 
technology is flowing in both ways, but it is a small 
operation, and much more needs to be done in that regard.
    In the area of systems, I am in favor of evolutionary 
approaches to system acquisition, not--I am disappointed, quite 
frankly, in a turnkey, large system integrator approach that we 
have or large system approach that is on the streets now. I 
feel a contract--and it is backed up in some of the appendixes. 
Contractor A is going to put contractor A's equipment on the 
line. Contractor B is going to put contractor B's equipment. We 
don't know whether either one of those are the right ones. But 
that is--a piece of this evolutionary acquisition needs to be 
brought to this table, and it builds on what is there now and 
gradually improves this. I think we need to insist on 
integration of information, not integration of systems.
    That concludes my remarks.
    [The prepared statement of Dr. Worch follows:]

                  Prepared Statement of Peter R. Worch

    Chairman Boehlert, distinguished Members of the House Committee on 
Science. I am honored to be asked to share with you my thoughts on the 
difficult topic of border security. To successfully protect our 
borders, yet remain within the limits of acceptable behavior of a 
democratic society is indeed a challenge.
    To set the record, my background is in the development of 
technology to support military operations, based on 24 years of an Air 
Force career involving both operational and technical experience, 
followed by a second career in unmanned aerial vehicles (UAVs) and 
associated sensors and communications. Many of the systems lessons 
learned, as well as the technology developments, could contribute to 
the border security problems. My expertise is not the entry-point 
problem; I concentrate on the remote border problem.

Overview

    The detection of border security violations has some similarities 
to the military border and area security challenges faced in Iraq and 
many other locations today. The differences are sufficient, however, 
that the system solutions are quite different in most cases. But, the 
technologies that have been developed and tested in military 
applications deserve consideration for homeland security, and the 
benefits and savings achieved by joint endeavors are significant.
    In this paper, I attempt to review the technologies that, in my 
opinion, offer promise for significantly improved detection of border 
incursions. I will urge the homeland security and military laboratory 
teams to work together on these technologies.

A Context

    I was asked to make assessments and compare, or evaluate 
technologies for border security. I find it most useful to consider 
technologies in the context of system concepts, and hence I would like 
to spend a few moments on the system aspect.
    Border security is much like what the air forces call time-critical 
targeting. In the battlespace, a detected target must be attacked 
within a time frame (typically 10 minutes) determined by the 
possibility that the target will act or escape or both. The 10 minutes 
must be budgeted across numerous actions--Find, Fix, Track, Target, 
Engage and Assess.
    In the case of border security, the objective is to intercept the 
detected intruding individual or vehicle before it can escape.--Detect, 
locate, identify, decide, intercept. Once again, the time must be 
budgeted across these elements. If a human moves at five mph, you have 
just 12 minutes to catch that human if you want to limit travel to one 
mile from the border. I say this to emphasize that one minute saved in 
the detection and reporting process is a minute that the border agent 
has to get to the point of intrusion.
    Human eyes and reasoning are essential in order to avoid 
fratricide--but a system of shoulder-to-shoulder border agents is not 
possible, and it is not practical to continuously watch images of the 
entire border from airborne or surface sensors 24/7 across 8000 miles 
of border on the chance an intruder will be seen. Though a bank guard 
can view the few camera images of the bank access points, the vault, 
and perhaps the cashiers, the problem of monitoring sensors that may 
themselves be moving (creating a dynamically changing background), and 
the large area being guarded suggest a challenging situation. Yet, 
direct viewing or high resolution imagery is the only acceptable means 
of verifying that an unwanted intrusion has occurred. Automated target 
recognition (ATR) techniques may be able to determine that a human has 
been detected, but nothing more about identification or intent, given 
today's state-of-the-art.
    I see no magic--no single solution--The system solution must be a 
layered sensor approach, tailored to the nature of the specific border 
situation. It must include:

        <bullet>  An interagency information system that can point to 
        likely areas of intrusion

        <bullet>  A ``trip-wire'' to detect an intrusion and alert the 
        system. A means to aim or focus an imaging sensor at the point 
        of intrusion or other alerting cues

        <bullet>  A communication of an image containing the suspected 
        intruder to a human agent for confirmation

        <bullet>  Collaboration of information from available sources, 
        including the sensors, to expedite and improve the analysis 
        process

        <bullet>  Presentation to the human decision-maker in a form 
        that is immediately sufficient to make an informed decision

        <bullet>  A means to expeditiously dispatch an agent to 
        intercept the intruder

        <bullet>  An effective concept of operations, with the 
        associated procedures and training to accomplish the above.

    There are a number of options for systems that meet this construct. 
Table 1 depicts some of the more powerful techniques.
    Air intruders are an additional threat. These could be manned 
aircraft--perhaps a Cessna 172 piloted by a terrorist or a smuggler of 
narcotics or humans, or could be an unmanned aircraft, ranging in size 
and complexity from a miniature radio-controlled (RC) hobby model 
capable of carrying a few ounces of a deadly chemical agent to a Cessna 
172 aircraft that has been rigged for unmanned operation, perhaps 
looking like a conventional manned aircraft with a mannequin in the 
cockpit seat but carrying 500 lbs. of explosive. The Air Force 
Scientific Advisory Board has recently studied this problem.\1\
---------------------------------------------------------------------------
    \1\ Air Force Scientific Advisory Board Study, ``Air Defense 
Against UAVs,'' 2006.
---------------------------------------------------------------------------
    Low and slow small aircraft pose unique challenges to our air 
defense system. Often the radar features that improve the ability to 
discern aircraft from background ground traffic by remove the slow 
movers (judged to be ground vehicles) on the basis of speed, would 
similarly gate out the UAVs and slow manned aircraft. Technology 
efforts are in order to address the processing of slow-moving small 
aircraft from background clutter.
    The second key challenge for air targets is to determine intent. 
Given that the goal will be to force the air vehicle to the ground or 
shoot it down, we must be quite certain that this air vehicle has a 
hostile intent. This will be extremely difficult to determine and 
sensors are not available to accomplish the task. Intelligence will be 
the best indicator.
    It will be especially important to provide air defense for the 
National Capitol Region and National Special Security Events, but 
borders must be considered as well.
    The key to effective border surveillance and security is the 
intelligence that allows the security team to concentrate their search 
efforts and prepare the agent team. This cannot be over-emphasized, and 
includes intelligence information gained from the point of origin of 
the would-be intruders as well as the local intelligence information on 
staging areas and transportation means. The information may be gained 
over a significant time and geographical span, thus requiring both an 
effective network and an efficient correlation and dissemination 
process. This will be addressed in a later section.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Sensors

    Sensor technology for airborne applications is very well developed. 
The experiences in Iraq have demonstrated the advanced capabilities, 
and have generated yet further improvements in sensor systems, driven 
by the unique nature of the operations of the adversary. The military 
laboratories and industry have succeeded in gaining high resolution and 
compact packaging such that even small UAVs can carry the sensors and 
associated communications equipment. Table 2 shows the common sensors 
for this application.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Despite the fact that Unattended Ground Sensors (UGS) have been in 
development for many years,\2\ the state-of-the-art is still lagging. 
The military services have been slow to develop and employ ground 
sensors, largely due to wariness as to the performance. The DHS Customs 
and Border Protection has reportedly placed some 11,000 (11,000 sensors 
spaced 100 feet means approximately 200 miles of ground-sensor 
monitored border) along the northern and southwestern borders. The 
false alarm rate has been uncomfortably high for sensor detections 
(animals, sun glint, etc.), and short battery life. Yet, their have 
been successes in other government laboratories\3\ the commercial world 
including the development of grape-size sensors that are capable of 
self-organizing and robust networking. Table 3 provides advantages and 
disadvantages of the ground sensors.
---------------------------------------------------------------------------
    \2\ Perhaps one of the most widely-publicized failures of ground 
sensors was McNamara's attempt to stall supply flows along the Ho Chi 
Ming trail in Vietnam during that conflict.
    \3\ Sandia National Laboratories has an excellent unattended ground 
sensor program.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The false alarm rate was the Achille's Heel of the Southeast Asia 
application of ground sensors. More recently, the use of combination 
sensors (acoustic with seismic, for example) coupled with the progress 
in miniature processing hardware has shown great promise for low false 
alarm rates and long battery performance. This unattended ground 
sensors offer great promise for the monitoring for border intrusions, 
particularly in areas of dense vegetation and rough terrain.
    There remain some important areas for further technology 
development. These tend to be more in the effective utilization of 
current sensing regimes

        <bullet>  Multi- and Hyperspectral Imagery sensors for 
        detection and identification of humans from airborne & UGS 
        platforms. Hyperspectral imaging offers the capability for 
        identification of vehicles and, perhaps, humans. Moreover, it 
        has shown promise in the identification of packages and 
        equipment being transported across borders.

        <bullet>  Automatic Target Classification/Recognition 
        techniques for EO & IR imagery. The key to improving the 
        efficiency of the limited number of border agents is to provide 
        tools, such as the ability to scan images for humans or 
        targets, to provide alerts with low false alarm categorization 
        of the detection to the operator.\4\
---------------------------------------------------------------------------
    \4\ The gambling casinos are now using automatic recognition 
techniques to spot undesirable participants.

        <bullet>  Low cost, miniature, self-organizing, multi-sensor 
---------------------------------------------------------------------------
        unattended ground sensors for detection and classification

                  Acoustic

                  Seismic

                  EO

                  Imaging IR

                  Thermal IR

           This is perhaps the most promising area of technology 
        development for the border surveillance. The sensing elements 
        should be developed further to reduce size and battery power, 
        and the processing of multiple complementary sensors for 
        improved recognition or reduced false alarm rate is important.

        <bullet>  Radar processing techniques for extracting small slow 
        moving air and ground targets from background low speed 
        clutter. To date, MTI radar has been very effective in 
        generating a situational awareness picture of a battle area, 
        including the tracking of supply and equipment movements, but 
        the slow speed and small cross-section of humans has limited 
        effectiveness against humans. There is now hope for the 
        detection of slow moving humans, and that area needs a 
        technology investment.

UAV Platforms

    The unmanned aerial vehicle has revolutionized the airborne sensor 
world. The aircraft and propulsions are mature and efficient. The 
vehicle mission management systems are reliable, partly due to improved 
hardware and software and partly due to the redundancy now being 
included in such aircraft as Predator B. They have the advantage (over 
manned aircraft) of long endurance--30 to 50 hours. UAVs (like manned 
aircraft) tend to avoid failures once airborne, so the long endurance 
affects reliability as well.
    The experiences of the Air Force and CIA in operation of long 
surveillance flights have been excellent. Predator and Global Hawk UAVs 
have been instrumental in gaining surveillance information around the 
clock. Both have been paired very successfully with attack aircraft. 
The Predator UAV has been successful in lingering in harms way to 
monitor suspected hideouts and laser designating targets for buddy 
strike. There have been cases of Predator surveillance of IED placement 
that resulted in many saved lives.
    Even within the Border Patrol mission, UAVs have shown their value. 
The Predator B has been quite successful in its operation, being given 
credit for finding, tracking and the eventual capture of border 
crossing intruders. There have been a minimum of failures.
    There are some advocates for aerostats as sensor platforms. In view 
of their inability to cope with higher winds, they seem to be achieving 
a 60-70 percent airborne rate. The UAV can move closer to an area to 
increase the look-down (grazing) angle, providing a better opportunity 
to view areas of vegetation, structures and terrain. Aerostats do not 
have that flexibility. In my mind, the low rate, combined with the need 
for substantial real estate and ground support equipment suggests the 
UAV for the mission.
    An area of possible technology investment would be in the 
development of a hybrid aerostat that could morph to a parafoil kite 
when winds increased, and thus stay on station.
    Table 4 shows the classes of UAVs suitable for border surveillance. 
Within the classes of possible UAVs for border security, the medium 
altitude endurance UAVs are most suited because they give the best 
trade between cost and endurance, with the border surveillance mission.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    But there remain UAV technology issues deserving attention. 
Developing and operating UAVs present unique technology needs that go 
beyond the airframes and propulsion (and border surveillance flights):

        <bullet>  Human-System Integration--situational awareness, 
        controls and displays, health management, and emergency 
        procedures all require improved HSI.

        <bullet>  Detect, See and Avoid techniques that are highly 
        automated, vision-based systems are needed for UAV operations 
        (and would benefit civil and military aircraft).

        <bullet>  Automatic Traffic Alert and Collision Avoidance 
        System (TCAS) to do the tasks of the current TCAS, but 
        translate the alerts into control commands suitable for 
        avoiding collisions.

        <bullet>  Automated landing systems based on GPS but tailored 
        for UAVs suitable for alternate precision landings at all 
        airports.

        <bullet>  Automated voice for declaration of position and 
        intentions for lost-comm or other emergency situations, and for 
        receiving emergency comms from disadvantaged nodes.

        <bullet>  Communications networks that support machine-to-
        machine connectivity between ATC and UAV operators.

    One might have expected NASA to pioneer in developing many of the 
technologies listed above, as UAVs have both military and commercial 
applications in addition to those of the DHS. The UAV National Industry 
Team (UNITE) and the NASA ACCESS 5 Project were addressing the issues. 
With the reduction in the NASA aeronautics budget, ACCESS 5 was 
canceled and it appears this will not happen. The military services and 
DHS are not funded to accomplish this either.
    Certification of new systems will be rigorous, and is beyond the 
means of the UAV industry to fund. Here the Government should support 
this process, as it is long and costly.

Intelligence and Information Management

    While I see much to be accomplished in the development of new 
sensors, our major shortfall, both in the military and in homeland 
border security, is the inability to effectively and efficiently deal 
with the large amount of information that is collected by our sensors 
or is available from other sources. This problem starts with the 
gathering of that information which will help us determine when and 
where sensors should be placed. This needn't be tapping of telephones 
or bugging residences, but is a matter of understanding the nature of 
the border (e.g., what is the terrain like; where are access points 
from highways; did it snow heavily in this area today), monitoring 
locations that might give indications of impending activity, and 
understanding the nature and behavior patterns of the individuals being 
sought. From this analysis, the limited resource budget of sensing 
systems and responding agents can be efficiently deployed. The notion 
of 24/7 surveillance of the entire border (or even 10 percent of the 
border) from the air is just not practical.
    A good analogy is that of the ardent deer hunter. The deer hunter 
doesn't go out and sit at the first stump to wait for a deer. He (or 
she) has analyzed the general hunting area and selected an area most 
likely to be productive. Further analysis will tell the hunter which 
paths the deer will likely take under what conditions of weather and 
time of day. The deer doesn't worry about deer coming across a river or 
lake (though it sometimes happens). The hunter selects a location from 
which to observe, and uses his natural sensors wisely--usually motion 
or noise are the tipoff, and the combination of the two--eyes sensing a 
movement as the noise emanates from the same spot. The hunter then 
casts a focused eyeball on the source of the movement or noise will 
confirm the target, and track that `target'' to the point of 
``intercept.'' Those same eyeballs couldn't possibly ``image'' all the 
area all the time.
    The second information shortfall is that of communicating sensed 
data to a location(s) at which these data can be fused, analyzed, 
compared to stored data, stored, and presented in a coherent picture to 
the operator--Thomas Friedman terms this ``connect and collaborate.'' 
At the current time, information is available, but difficult to access. 
Information is located within various organizations and many locations. 
The information may be seconds old or years old. Data formats are 
different. Scales may be different on different images. The sources may 
have different levels of credibility.
    The presentation to the decision maker is the final level of 
information management. The agent who must decide on a course of action 
has little time. He cannot search databases for relevant information. 
He, or she, must be presented with a fused picture that includes the 
material with appropriate indications of the reliability and nature of 
the information. It may be necessary to discuss the information with 
another individual, so the information must be shared, whether the 
distant individual has a 21-inch screen at the command center or a PDA 
he has carried into the movie theater.
    Little attention has been given to information management. The Air 
Force Scientific Advisory Board has recently completed a study\5\ which 
makes the case for inter-operability and the integration of 
information. In that study, it is pointed out that recent programs have 
created ``stovepipes'' of information, and solutions that lean toward 
integrating stovepipe systems will simply create further stovepipes. 
Instead, inter-operability, achieved by metadata tagging (recording the 
data about the data--time and location, context, content descriptions, 
format) of all data can make it accessible to all. Moreover, the use if 
a service-oriented architecture providing the common tools for 
transferring, storing, fusing, and disseminating data assures a 
coherent management of the information.
---------------------------------------------------------------------------
    \5\ Air Force Scientific Advisory Board, ``Domain Integration,'' 
2005.
---------------------------------------------------------------------------
    I see the following areas as important information technology 
investment areas:

        <bullet>  Communications networking

                  Internet Protocol (IP) based communications sensor 
                networking

                  Self-forming/self healing network management

                  Low power dynamically variable bandwidth comms for 
                ground sensors.

        <bullet>  Data management and knowledge generation

                  Descriptive metadata (i.e., content, context, and 
                structure)

                  Semantic matching

                  Geospatial and temporal registration (co-
                registration of multi-sensor data)

                  Fusion

                  Real-time publish-subscribe-query service

                  Rules and tools for constructing metadata 
                vocabularies

                  Automated metadata insertion into legacy databases

                  Rules for information sharing

                  Performance issues when scaling to many COIs and 
                operational users.

        <bullet>  Visualization technology

                  Aids to interpretation of large amounts of imagery

                  Aids to human interpretation of machine data

                  Aids to developing a concise and complete 
                situational assessment picture in a timely manner for 
                the decision-maker.

An Approach

    It seems fitting to make some comment relative to achieving the 
improved border security capitalizing on the technology advancements.
    In so far as developing the pertinent technologies is concerned, 
there are some fundamental science issues and as the science is 
matured, there are some prototyping and experimentation phases. To be 
sure, there will be a need to focus resources. I am concerned that the 
costs, both direct and overhead, associated with a new/expanded DHS 
sensors laboratory program will be significant. I see the need to 
partner with Service laboratories\6\ in the technology program, not 
only in capitalizing on the lessons learned in long years of military 
endeavor in sensor development, production, deployment, and employment, 
but also in using facilities and other resources already in place. Some 
arrangement to, perhaps, provide funding and tasking to the military 
laboratories for sensor developments, or to co-locate DHS scientists 
with military laboratory teams should be pursued.
---------------------------------------------------------------------------
    \6\ The partnering of the National Law Enforcement & Corrections 
Technology Center--Northeast Region with the Air Force Research 
Laboratory--Information Directorate is a good step.
---------------------------------------------------------------------------
    Testing should also be conducted in conjunction with military. Once 
again, sharing the cost of the tests will lead to joint management and 
sharing the results. Over and above that, there exist test ranges, 
experienced test managers, and procedures that could be used jointly to 
satisfy the needs of both DHS and the Military.
    For the development of a system of advanced sensors, processing 
systems, and command centers, I strongly recommend against turn-key 
integrated systems, Much of the past work addressing integration has 
actually been focusing on creating monolithic large scale systems. This 
a costly approach that inevitably restricts the introduction of new 
elements to those provided by the integration contractor. An end user 
only requires virtual integration--he needs to receive integrated data. 
He does not require actual domain integration nor does he have the 
responsibility and resources to accomplish it. For this reason, and 
many others, it is prudent to define an architecture that is flexible 
and is inter-operable with the legacy systems. Quality of Service 
should be the metric, and hence a service-oriented architecture (SOA) 
is in order. A service-oriented architecture is an approach to defining 
integration-architectures based on the concept of service. A service is 
a collection of applications, data, and tools with which one interacts 
via message exchange.

Integrate information, not systems

    Finally, It is important to adopt an evolutionary acquisition 
approach. I quote from an Air Force Instruction:

         ``Evolutionary acquisition (EA) is a nontraditional, 
        overarching acquisition strategy that a program can use to 
        develop and field a core capability meeting a valid requirement 
        with the intent to develop and field additional capabilities in 
        successive increments.''\7\
---------------------------------------------------------------------------
    \7\ From Air Force Instruction 63-123, ``Evolutionary Acquisition 
of C2 Systems,'' 1 Apr. 2000.

         ``The simple goals of EA for systems are to achieve 
        modernization and deployment efficiently and quickly. Use of an 
        EA strategy for systems will deliver a core operational 
        capability sooner by dividing a large, single development into 
        many smaller developments or increments. EA allows a program to 
        quickly respond to changing conditions by allowing each 
        increment to accommodate the following three activities: 1) 
        develop new capabilities supporting the operational 
        requirements and goals of the system, 2) exploit opportunities 
        to insert new technologies that reduce cost of ownership or 
        accelerate fielding of new capabilities resulting from 
        experimentation or technology demonstrations, and 3) refine 
        current capabilities based on user feedback, testing, or 
        experimentation.'' \8\
---------------------------------------------------------------------------
    \8\ Ibid.
---------------------------------------------------------------------------

Summary

    There have been shown to be several border security technology 
areas worthy of increased emphasis by the Department of Homeland 
Security Customs and Border Protection service. For the most part, the 
developments are not breakthrough basic science, but rather a matter of 
applying science and making it available in a deployable form for 
application to the borders. More importantly, it is a matter of 
processing the raw data from multiple sensors, along with intelligence 
information data, in such a way as to extract the full content of 
knowledge from the data. This is not a job for sensor developers, but 
for information experts with a strong understanding of the sensor 
outputs. It seems we have radar experts and EO/IR experts and UAV 
experts, but lack in ``find the human'' experts.
    This testimony is formulated to suggest the maturation of the 
technologies be conducted jointly with the U.S. military services. The 
techniques for the detection of humans entering the United States are, 
with minor variations in employment, essential to the protection of 
U.S. Forces and U.S. interests abroad.

                      Biography for Peter R. Worch

EDUCATION

Oklahoma State University, Ph.D., Electrical Engineering

Oklahoma State University, M.S., Electrical Engineering

Union College, B.S., Electrical Engineering

PROFESSIONAL SUMMARY

    Dr. Worch is a senior systems scientist with over forty years R&D 
experience in the areas of avionics, communications, navigation, 
intelligence, command and control, emitter location, identification and 
surveillance; as well as overall military technology research and 
development management. He has been assisting in unmanned air vehicle 
(UAV) development programs and in UAV payload development efforts. Dr. 
Worch is a member of the Air Force Scientific Advisory Board.
    Dr. Worch is a Research Scientist with George Mason University, 
conducting research in command and control systems concepts.

EXPERIENCE

Consultant (1994 to Present).

    Dr. Worch provides assistance in operational, technical, and 
program analyses as well as both strategic and tactical sensor, 
electronic warfare, and C<SUP>3</SUP>I architecture studies. He 
conducts analyses in time critical targets, UAVs, reconnaissance 
sensors, C<SUP>3</SUP>I interface for advanced weapons systems, 
avionics, data links, smart weapons, navigation; LPI/LPE 
communications, electronic warfare and information warfare. He is also 
an advisor in the SIGINT technologies.

Manager, Defense Systems Technology Operation, SAIC (1989-1994).

    Dr. Worch directed the activities of three Divisions involved in 
advanced research and development programs. The activities were 
primarily in the area of advanced C<SUP>3</SUP>I and reconnaissance/
surveillance technology with emphasis on sensor technology for the 
detection recognition of ground and air targets that are hidden or 
possess reduced observables characteristics. Dr. Worch served directly 
as a technical advisor to ARPA on numerous program areas relating to 
C<SUP>3</SUP>I.

Manager, C<SUP>3</SUP>I Technology Division, SAIC (1982-1989).

    Dr. Worch was involved in operational and technical analyses as 
well as both strategic and tactical sensor, electronic warfare, and 
C<SUP>3</SUP>I architecture studies corporate-wide. He conducted 
analyses and managed programs in relocatable targets, RPVs, 
reconnaissance systems, C<SUP>3</SUP>I interface for advanced weapons 
systems, data links, smart weapons, navigation; LPI/LPE communications, 
electronic warfare and C<SUP>3</SUP>CM. He was active in C<SUP>3</SUP>I 
R&D for strategic, tactical and special operations forces.

U. S. Air Force (1957-1981).

    Dr. Worch served in numerous roles as an Air Force officer 
including both development and maintenance of communications and 
electronics systems; weapons systems; and avionics equipment of 
tactical and airlift aircraft. He served as project engineer 
responsible for research and exploratory development of electromagnetic 
signal reconnaissance techniques, communications and navigation 
projects at Rome Laboratory (formerly Rome Air Development Center). Dr. 
Worch completed his service as Vice Commander of Rome Air Development 
Center at which he was principal assistant to the Commander and shared 
responsibility for command and direction of the Center research and 
development in command, control, communications and intelligence.

R&D Program Manager, Tactical Technology Office, DARPA (1973-1976).

    Managed and technically directed multi-service exploratory 
development efforts of critical importance to defense programs. 
Initiated, planned, directed and evaluated programs in electronics 
intelligence, advanced communications, advanced LPI airborne radar, 
target identification, navigation, and low observables aircraft. 
Directed and participated in OSD studies, symposia and panels of 
technical and operational nature. Dr. Worch conceived and managed a 
program for precision emitter location from remotely piloted vehicles 
(RPV) and participated in RPV communications and sensor system 
developments. He formulated and directed programs in bistatic radar and 
low probability of intercept airborne radar.

PUBLICATIONS

Reports
Worch, P.R., et al., Strategic Conventional Standoff Capability (SCSC) 
        C<SUP>3</SUP>I System Architecture (U), AAMRC-TR-86-031, 
        SECRET/NOFORN, 1987.
Worch, P.R., et al., Mission Electronic Equipment for Special 
        Operations Forces (U), SAIC Report to DARPA/TTO, SECRET, 1984.
Worch, P.R., et al., Joint STARS Radar Review Final Report (U), SAI 
        Report to DARPA/TTO, SECRET,1984.
Worch, P.R., et al., Far Term Fighter Force Modernization (U), SAI 
        Report to U.S. Air Force Aeronautical Systems Division, SECRET, 
        1984.
Worch, P.R., et al., System Options for an Enduring Strategic C<SUP>3</SUP> 
        Capability (U), Institute for Defense Analyses, Report S-548, 
        TOP SECRET, 1983.
Worch, P.R., LPI Communications; Background and Solution Concepts (U), 
        SAI report to DARPA, SECRET, 15 April 1983.
Worch, P.R., et al., System Options for Improving Joint Tactical 
        C<SUP>3</SUP> Capabilities (U), Institute for Defense Analysis, 
        Report S-545, SECRET, 1983.
Worch, P.R., Communications and Navigation Technology for Remotely 
        Controlled Vehicles, A Part of the RADC RCV R&D Study, 25 April 
        1972.
Worch, P.R., Communications and Navigation for Remotely Piloted 
        Vehicles, RADC, 16 July 1971.
Worch, P.R., et al., Laser Communications Study, RADC, 30 December 
        1970.
Worch, P.R., (Ph.D. Dissertation), An Experimental Investigation of 
        Generation--Recombination Noise in Double-Injection Diodes, 
        Oklahoma State University Graduate College, 1970.
Worch, P.R., Transverse Mode Studies in a Helium-Neon Gas Laser, 
        Oklahoma State University School of Electrical Engineering, 
        Department Report, 1965.

MAJOR ADVISORY ACTIVITIES

2006  Co-Chair, AFSAB Summer Study, ``Air Defense Against UAVs''

2005  Member, DARPA Study, ``Vertical Dominance''

2005  Member, AFSAB Quick Look Study, ``Automatic Target Recognition''

2005  Member, Air Force Operational Test and Evaluation Advisory Group

2005  Co-Chair, AFSAB Ad Hoc Study, ``Domain Integration''

2004-2005  Member, DARPA J-UCAS Senior Advisory Group

2004  Vice Chair, AFSAB Summer Study, ``Networking to Enable Coalition 
Operations''

2004  Member, Aerospace Command, Control, Intelligence, Surveillance, 
Reconnaissance Center (AC2ISRC) Commander's Advisory Group

2004  Member, Air Combat Command Commander's Advisory Group

2004  Member, Air Force Operational Test and Evaluation Center 
Commander's Advisory Group

2003  Panel Chair, AFSAB Summer Study, ``Unmanned Aerial Vehicles in 
Perspective''

2003  Chair, Air Force Special Operations Command Commander's Advisory 
Group

2002  Chair, AFSAB Quick Look Study, ``Low Observable Aircraft 
Maintenance Technologies''

2002  Member, AFSAB Summer Study, ``Immediate Attack Deep in Hostile 
Territory''

2001  Chair, Concealed Targets Panel, AFSAB Summer Study, ``Sensor 
Technology for Difficult Targets''

2000  Member, ASD C<SUP>3</SUP>I Joint Services Advisory Group (JSAG) 
on C<SUP>3</SUP>I

2000  Chair, AFSAB Summer Study, ``Air Force Command and Control--The 
Path Ahead''

1999  Co-Chair, AFSAB Summer Study, ``Technology Options to Leverage 
Aerospace Power In Other Than Conventional War Situations''

1998, 2000, 2006  Chair, AFSAB S&T Review of Sensor Programs

1998  Member, AFSAB Summer Study, ``Aerospace Operations in the 21st 
Century: An Investment Strategy''

1997  Member, AFSAB Summer Study, ``Global Air Navigation System''

1996  Chairman, AFSAB Summer Study, ``UAV Technologies and Combat 
Operations''

1995  Member, Sensors Technology Panel, AFSAB Summer Study, New World 
Vistas Long Range Forecast

1995  Chairman, AFSAB Study, ``F-22 Electronic Combat Effectiveness 
Testing''

1994  Member, SAB Ad Hoc Study on Technology Opportunities for Wide 
Area and Local Area Communications

1994-1996  Member, C<SUP>3</SUP>I Science & Technology Panel, Air Force 
Scientific Advisory Board

1994  Chairman, Special Missions Aircraft Panel, Air Force Scientific 
Advisory Board Summer Study, ``Mission Support and Enhancement for the 
Foreseeable Aircraft Force Structure''

1993  Member, C<SUP>3</SUP> Panel, Air Force Scientific Advisory Board 
Summer Study, ``Options for Theater Air Defense''

1992-1993  Member, Air Force Studies Board ``Committee on Counterforce 
Options Against Tactical Missiles''

1992  Member, Space and C<SUP>3</SUP>I Panel, Air Force Scientific 
Advisory Board Summer Study, ``Concepts and Technologies for Global 
Power--Global Reach''

1990-1991  Chairman, DARPA Advanced Targeting Technology Program Red 
Team

1991  Member, Communications Architecture Panel, Air Force Scientific 
Advisory Board Summer Study, ``Off-Board Sensor Data to Support 
Military Combat Air Operations''

1985  Member, ECM, Sensors & Navigation Panel and C<SUP>3</SUP> Panel, 
Air Force Scientific Advisory Board Summer Study, ``Enhancement of 
Special Operations Forces (SOF)''

1982  Member, C<SUP>3</SUP> Panel, Air Force Scientific Advisory Board 
Summer Study, ``Enhancement of Airlift in Force Projection''

1978  Member, The Technology Cooperation Program (TTCP), Subgroup K, 
Radar Technology

1977-1979  Group Member and Subgroup Chairman, NATO Project 2000, Phase 
II. Study on Target Detection, Location and Identification

1975  Co-Chairman, Joint Services Emitter Identification Conference

1975  Panel Chairman, EUCOM Target Acquisition Seminar

1975-1976  Associate Member, Air Force Scientific Advisory Board Panel 
on TDOA Emitter Location Sorting

1975  Associate Member, Defense Science Board Task Force on 
Identification, Friend, Foe or Neutral

1975  Co-Chairman, DOD Integrated Tactical Information System Study 
Group

1975  Member, CIA Study Group on Precision Guided Munitions

1974  Chairman, DOD NAVSTAR Weapon Guidance Workshop

1974  Co-Chairman, Tri-Service Millimeter Wave Workshop

1974  Member, DOD Intelligence Research and Development Council Task 
Force on Intercept and Position Fixing

MISCELLANEOUS

Commercial Pilots License with Single, Multi-engine and Instrument 
        Ratings

First Class Radiotelephone License

Senior Member, IEEE

Member, Eta Kappa Nu

Top Secret and SCI Clearances

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Boehlert. Thank you very much.
    I am quite familiar with the Rome----
    Dr. Worch. Aren't we both.
    Chairman Boehlert.--enterprise. Yes.
    Dr. Prado.

   STATEMENT OF DR. GERVASIO PRADO, PRESIDENT, SENTECH, INC.

    Dr. Prado. Good afternoon, Mr. Chairman and----
    Chairman Boehlert. Your microphone, please, Doctor. I don't 
think the microphone is on.
    Dr. Prado. Okay. Good afternoon, Mr. Chairman, Members of 
the Committee. I am very honored to have been invited to 
testify and share some of our experiences in the area of 
sensors, in particular in the protection of our borders.
    Because the time is short here, I would request that my 
written statements be introduced into the record. I will now 
just address a few of the points in a more informal way.
    My company and I have been involved in the area in the 
development of unattended ground sensor systems for some years 
now. We have had support from DARPA, Sandia National Labs, and 
various other government agencies. We have been able to 
participate in some of the more important sensor programs and 
demonstrations that have been conducted over the last decade.
    Unattended ground sensors is an area that combines the use 
of passive sensors. The ones which we specialize in are 
acoustic, seismic, and electro-optic imagers, you know, like 
either day imagers or thermal imagers, and combining them into 
an integrated system that can work together and produce 
actionable intelligence. These sensors, of course, have to 
operate. They will be designed with an extremely low power 
consumption, be able to operate in extremes of weather 
conditions of hot and cold. They have to operate in concert, 
several different types of sensors together, to produce the 
best intelligence possible and to extract the most useful 
critical properties of each of these types of sensing 
technologies. Finally, they have to be networked and--so that 
they can communicate that information to the user, sometimes 
over extremely long distances.
    And I would like to just discuss an application that we 
have worked on where it involves the use of multiple sensors to 
survey an area of terrain in a very remote location. You would 
have acoustic and seismic sensors detecting the presence of 
people or personnel along a road or a trail. These sensors 
would alert a communications gateway device that is connected 
to a thermal imager, and that imager would then take pictures 
of the intrusion, you know, whether it is people or vehicles, 
track those vehicles, select the images that are most useful in 
terms of clarity and sharpness, compress them, and then pass 
them onto the communications device that can transmit that 
information, literally, to the other end of the world where 
that will appear on the desk of an analyst as in the form of an 
e-mail with a picture and the detection data.
    This type of technology has been made possible visually by 
using various off-the-shelf technologies that have been 
developed, like GPS, communications satellites. A lot of the 
sensing technology that we use, for example, is derived from 
Navy projects dedicated to acoustic detection underwater. And 
all of this is now being put together. We need to work on the 
way to implement it more reliably at an affordable cost. We 
realize that when we put these sensors out on the field, we 
cannot rely on the abundant infrastructure that we have 
available in--you know, in the cities or, you know, populated 
areas.
    So finally, you know, the real emphasis in terms of new 
research and development that needs to be applied here is not 
so much in the research on new transducers or cameras but in 
the application of intelligence that is embedded on the 
processors, the signal-on-image processing technologies that 
allow us to extract the information from the sensors and 
communicate them to the users in a form that is actionable.
    I would like to conclude my statements by saying that, from 
a personal perspective, as an immigrant from Cuba, I am very 
aware--it has given me a perspective on the intense attraction 
that this country has for people that are seeking freedom and 
opportunity. And that creates an enormous demand for entering 
the country, some of which is channeled in legal means, but 
unfortunately, a lot of it is channeled through illegal 
immigration. And we have to address that problem, because it 
causes severe socioeconomic problems in our society.
    I want to thank the Committee for inviting me, and that 
concludes my remarks.
    [The prepared statement of Dr. Prado follows:]

                  Prepared Statement of Gervasio Prado

    Good Afternoon, Mr. Chairman and Members of the Committee; I am 
very pleased to have the opportunity to share with you my perspectives 
on the use of technology to improve the security of our borders.
    I am Gervasio Prado, President of SenTech, Inc., a small defense 
contractor in Stoneham, Massachusetts. My working career spans 35 years 
spent at various research and development institutions. During the last 
20 years I have specialized in the development of Unattended Ground 
Sensors (UGS), the last thirteen of them at SenTech, the company I 
founded in 1993. Over the last decade, we have participated in many UGS 
programs funded by DARPA, the U.S. Army and other agencies. I came to 
this country with my family from Cuba in 1960. We were able to enter 
the United States legally and my family's success is a testimony of the 
opportunities that this country offers to people coming here from all 
over the world.
    I would like to talk about a technology widely used to survey 
border areas both here and overseas. Unattended Ground Sensors (UGS) 
are devices that can be placed in remote areas, where they will operate 
for a long time detecting, processing and transmitting information to 
military or law enforcement personnel that can act on that information. 
This technology has a long history that started during the Vietnam 
conflict, with a variety of acoustic and seismic devices being 
developed and deployed along the Ho Chi Minh Trail. After the Gulf War 
in 1991, there was considerable interest in using UGS to detect and 
locate mobile missile launchers and other high value targets. In recent 
years, the emphasis has turned towards the detection and localization 
of civilian vehicles and personnel. This change in emphasis coincided 
with the increased need and interest in using sensors along the border 
as an alternative to expensive physical barriers.
    A variety of these types of sensors exist and some are in limited 
use along the Southwest border of the U.S. The preferred sensing 
technologies are passive (sensors that do not emit radiation to detect 
the targets) because they use less power and are more difficult to 
detect than active sensors. The technologies employed are acoustic, 
seismic, imaging--both infrared and visual and passive infrared.
    Acoustic sensors are very effective in detecting ground and air 
vehicles. They are easy to conceal, do not need line of sight to the 
target and generally have very low power consumption. Their performance 
is affected by changes in the atmospheric conditions, but generally 
they will detect most vehicles at several hundred meters and heavy 
trucks or military vehicles at ranges of one kilometer or more. 
Acoustic sensors are not very effective at detecting personnel.
    Seismic sensors are effective against both vehicles and personnel, 
although their detection range is more limited than that of acoustic 
sensors. They can be completely buried, making them very good for 
stealthy deployment. Seismic sensors can generally detect a person 
walking at ranges of 30 to 50 meters. However, their performance will 
vary greatly from site to site.
    Passive Infra-Red Sensors are very effective as trip-line sensors. 
They are very inexpensive and economical, however they have to be 
carefully emplaced and are harder to conceal.
    Visual Imaging Cameras provide excellent resolution pictures and 
are very reasonably priced if they are meant to be used during the 
daytime or twilight hours. In extremely low light conditions Infra-Red 
Imagers have a definite advantage. Their main drawback is that they are 
very expensive, although the price of IR cameras with un-cooled 
detectors has been coming down in the last few years.
    At the heart of an Unattended Ground Sensor System there is a 
capable digital signal or image processor that has the task of 
extracting the relevant information from the transducer outputs. It is 
in the programming of this device that the art and science of sensor 
design is based. Sensors must also communicate their results in a 
reliable and economical way. Sensors are typically linked in a network 
to a communications Gateway that is used to concentrate the collected 
data and transmit it over a long haul link (typically a satellite 
link). The design of distributed sensor networks has become a very 
active field of research because of its many military and commercial 
applications. Distributed sensor networks are certain to find an 
important role in border surveillance.
    The most effective utilization of Unattended Ground Sensors 
involves the use of multiple sensors of different types in order to 
exploit the unique capabilities of each. For example: Several seismic 
sensors can be placed to detect people walking along a trail. These 
sensors, which can operate with minimal power consumption, will send a 
signal to a Gateway unit connected to a visual or infrared imager. The 
imager, which has relatively high power consumption, is only turned on 
when there is a potential target in its field of view. A built-in image 
processor on the imager detects the moving target, compresses the 
picture and hands it over to the Gateway to be sent to the user. 
Coordinating or fusing the data from sensors with very dissimilar 
capabilities increases the reliability of the reports, and reduces 
false alarms. It is important to remember that sensors cannot determine 
the intent of the targets detected, only their presence, location and 
direction. In this respect the use of imagers acquires a special 
importance when trying to allocate limited human resources over an 
extensive border area.
    When we are considering the possibility of large numbers of sensors 
spread over a large area, the amount of information that can be 
generated could easily overwhelm the communications links and the 
personnel monitoring the sensors. The biggest challenges to the design 
of an Unattended Sensor system are: first to limit the number of false 
alarms to an extremely low rate; second, to extract and condense the 
relevant information as much as possible. To achieve these objectives, 
sensors need to be endowed with as much local signal and image 
processing capability as possible to make sure that only the essential 
information is reaching the user.
    In summary, Unattended Ground Sensors is a mature technology that 
is available to provide surveillance over large areas of our borders 
and enhances the capability of our law-enforcement agents. We now have 
to apply our organizational skills to fund, deploy and utilize this 
technology.
    Small companies are often at the cutting edge of technology 
development. They take risks that larger companies avoid and thus form 
one of this country's most valuable resources. From our perspective, 
the Department of Homeland Security can play an important role in 
furthering the development of new technologies that are being conceived 
on a regular basis at these small companies.
    Some specific suggestions that would further these goals are:

        a)  Providing better access to DHS personnel at the operational 
        level in order to get first hand feedback of the utility of new 
        technologies.

        b)  Making test and evaluation facilities available to small 
        companies, where they can get access to locations and scenarios 
        that would otherwise be available out of their reach.

        c)  Allowing small companies to keep more of the Intellectual 
        Property Rights developed under Government Contracts as a way 
        to stimulate participation in programs of critical national 
        importance.

        d)  An increase in the funding allocated to small companies 
        through the use of Broad Agency Announcements, SBIRs, etc., 
        would always be helpful. Equally helpful would be a reduction 
        of earmarked funds and allocation of those funds through open 
        competitive procurements.

    I would like to conclude with the observation that securing our 
borders requires solutions that are well beyond the purely technical. 
While legal immigrants make a very valuable contribution to our 
society, illegal entries cause serious socio-economic problem. The flow 
of undocumented aliens across our southwestern border is driven by the 
lack of freedom and opportunity in their countries. The irresistible 
desire to immigrate to our country will only be eliminated when their 
countries have improved substantially their living standards and 
political institutions.
    Securing our borders against terrorists and criminals involved in 
the drug trade is also a matter of the greatest urgency. Unfortunately, 
these individuals have the resources to gain entrance to our country 
legally as tourists, students or businessmen. Deducing the intent of a 
person arriving at one of our entry points is a most difficult problem 
without a purely technical solution. We simply need to remember that 
most the 9/11 terrorists entered the country with legitimate passports 
and visas.
    Thanks again for the opportunity to share my thoughts with you 
today.

                      Biography for Gervasio Prado

    Dr. Prado is President of SenTech, Inc., founded in 1993. He led 
the design of the acoustic-seismic sensor for the Steel Eagle and Steel 
Rattler sensors. He has also participated in the IUGS and Sniper 
Detection programs with DARPA. His company is currently participating 
in the development of the Intelligent Munition System for FCS and 
developing affordable hand-emplaced acoustic and electro-optic sensors 
sensors.
    From 1986 to 1993 Dr. Prado served as Manager of the Acoustic-
Seismic Sensor Group at Textron Defense Systems where he led the 
development of the sensor for the Wide Area Mine. He has also held 
positions at Bolt Beranek and Newman, MIT Lincol Laboratory and the 
Charles Stark Draper Laboratory.
    Dr. Prado received his Ph.D. From the Massachusetts Institute of 
Technology in 1971 and a B.S. in 1966. Dr. Prado was born in Havana, 
Cuba.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Boehlert. Thank you very much.
    Dr. Pottie.

STATEMENT OF DR. GREGORY J. POTTIE, ASSOCIATE DEAN FOR RESEARCH 
AND PHYSICAL RESOURCES, HENRY SAMUELI SCHOOL OF ENGINEERING AND 
     APPLIED SCIENCE, UNIVERSITY OF CALIFORNIA, LOS ANGELES

    Dr. Pottie. Mr. Chairman, distinguished Members, thank you 
for inviting me here. I am going to depart a little bit from my 
written testimony, in order to respond to some of these things, 
but I am not secure enough to depart from my PowerPoint.
    So I am basically going to tell a bit of a story about my 
own research in wireless sensor networks beginning in the mid 
1990s and walk you through some of the lessons we learned from 
our initial enthusiasm to some continued enthusiasm but in new 
directions.
    [Slide.]
    So up here is a picture of some of the nodes that have been 
developed. A sensor node basically includes a sensor of some 
type, signal processing, a communications means, and some way 
of networking this all together so that you can do some 
processing in site, save energy, and potentially build larger 
networks. And our--over the years, sensor nodes have developed 
in two directions, basically trying to get the initial 
functionality made smaller and also just adding new 
capabilities as technology moves along. And we have been 
involved in both directions.
    [Slide.]
    Our early idea was that large numbers of nodes could--with 
limited capabilities could be deployed and collectively the 
network would be very powerful. As it turns out, this original 
vision had to be modified.
    [Slide.]
    So where we are now, I am Deputy Director of a--of SENDS, 
an NSF-supported STC, where we are deploying sensor networks 
for basic science applications, including contaminant transport 
and other environmental issues. Our thesis in forming the 
center was that only with the close cooperation of the end 
users, in our case the scientists and the engineers, would we 
end up with tools that would be very useful. And it turns out, 
this has been right. Our initial ideas about what the 
scientists would find useful were pretty well wrong, and over 
four years, we have really changed our direction radically in 
proceeding forward.
    [Slide.]
    So the--I am not going to read through all of this, but the 
basic lesson is that the original vision of thousands of 
unattended nodes was not realistic. The logistical issues in 
deployment are much larger than we thought, and in fact, as 
some of our other speakers have said, you need to include other 
components. In particular, you need infrastructure and support 
and a lot more attention to the user interaction: how does this 
fit in with what the end user really wants? And to that end, 
they need to be involved in basically all stages of the 
development.
    As an example of a successful test, we ended up with a 
robotic node that is quickly deployed, and the scientists 
determined which instrument package had to be developed, and it 
resulted in something that was feasible. The kind of data we 
got out of this would not have been possible with a pure ground 
sensor deployment. We needed to think about infrastructure and 
other ways to support what they needed.
    [Slide.]
    I have also been involved in military-supported research, 
in this case DARPA, and this is an example of a deployment in 
the year 2000. And here there are two major lessons to draw 
from this. One is the logistics were really hard. Even 
deploying this small number of nodes was difficult in the year 
2000. We have progressed since then, but it is still not 
something to take lightly. And then the second thing is it 
works pretty well in finding vehicles. Finding vehicles at 
distance, relatively simple nodes will do the job, because the 
vehicles are loud, big, and generate wonderful signals.
    But if you are trying to detect personnel, the matter is 
quite different. What you are trying to find is small. It is 
affected very much by the environment. Is a person walking on 
soft sand? Are you trying to listen in wind? Are you listening 
at night? Are you listening in the day? All of these things 
have a huge impact on the range you have with the sensors. And 
so, as has been pointed out by previous speakers, what you need 
is a complete system where you have, perhaps, ground sensors as 
tripwires, but you supplement it by imagers, UAVs, and most 
critically, the personnel who know where you should place the 
sensors. Just as an example of a border security possible 
application, one could think of a dense network of sensors 
running along a fence for a boundary, but the other deployments 
at choke points specifically designed to find vehicles, say, in 
locations where the Border Patrol suspects or knows that there 
is likely to be traffic. And this whole system has to interact 
with the users. I completely agree with Dr. Worch that this is 
an information integration problem, and it needs to fit in with 
what the agents do so that you don't end up with a system where 
the Border Patrol agents are supporting the technology rather 
than having the technology support the agents. And to that end, 
how do we get there with a practical research program? So this 
isn't simply a matter of letting out some contracts and saying, 
``In six months, you will deliver this. In one year, you will 
deliver the following,'' or down-selecting on that basis. This 
is something that requires an interaction between multiple 
research teams and the Border Patrol and other responsible 
agencies so that you have this direct user-technology developer 
interaction so that you end up in the end with a system that 
meets their needs.
    Our experience is that the tools we develop may seem really 
cool to the engineers, and that is why we do them, but may be 
totally useless for the end users. It is only if they are 
involved in telling us how they are using the system, what is 
deficient in it that we can produce the tools that they really 
want and need.
    And with that, I will conclude.
    [The prepared statement of Dr. Pottie follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    Biography for Gregory J. Pottie

    Gregory J. Pottie was born in Wilmington DE and raised in Ottawa, 
Canada. He received his B.Sc. in Engineering Physics from Queen's 
University, Kingston, Ontario in 1984, and his M.Eng. and Ph.D. in 
Electrical Engineering from McMaster University, Hamilton, Ontario, in 
1985 and 1988 respectively. From 1989 to 1991 he worked in the 
transmission research department of Motorola/Codex in Canton MA, with 
projects related to voice band modems and digital subscriber lines. 
Since 1991 he has been a faculty member of the UCLA Electrical 
Engineering Department, serving in vice-chair roles from 1999-2003. 
Since 2003 he has also served as Associate Dean for Research and 
Physical Resources of the Henry Samueli School of Engineering and 
Applied Science. His research interests include reliable 
communications, wireless communication systems, and wireless sensor 
networks. His current focus is on the information theory of sensor 
networks. From 1997 to 1999 he was secretary to the board of governors 
for the IEEE Information Theory Society. In 1998 he received the Allied 
Signal Award for outstanding faculty research for UCLA engineering. In 
2005 he became a Fellow of the IEEE for contributions to the modeling 
and applications of sensor networks. Dr. Pottie is the deputy director 
of the NSF-sponsored science and technology Center for Embedded 
Networked Sensing, a member of the Bruin Master's Swim Club 
(butterfly), the St. Alban's Choir (2nd bass), and is a co-founder of 
Sensoria Corporation.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairman Boehlert. Thank you very much. And thank all of 
you very much.
    I tend to be very simplistic as I approach some of these 
problems, and I think I speak for a lot of people when what we 
are really looking for is some master plan with all of the 
technologies and the integration with people using those 
technologies that we can put down on the paper and just 
implement the plan. If it was easy, it would have been done by 
now. It is not easy. I understand that.
    And Admiral, one of the things that I like to get out of 
the hearings is, and we are privileged to have some of the most 
distinguished people in the business before us on these panels 
down here, as we have today, is we learn an awful lot. And I 
would hope that you would take away an awful lot from this 
meeting.
    So I would like to begin the questioning by asking the non-
government witnesses what you think the top couple of research 
priorities ought to be for DHS. And incidentally, I didn't 
sense anybody mentioning DHS. You talked about DARPA funding 
and NSF funding. Nobody was talking about DHS funding. But I 
would like to know what you think the top couple of research 
priorities ought to be at DHS and the border security area and 
whether you think those priorities are being adequately 
addressed. And then, Admiral, I would like you to respond to 
what the witnesses say.
    You and I are in the same business. We are not short of 
people with ideas on how we both can do a better job. And you 
are the new guy on the block, and so I want to use this as an 
opportunity to help and--your education from the outside world.
    So let us start with--well, let us go in the reverse order. 
Mr. Pottie, you go first.
    Dr. Pottie. Okay. Thank you.
    So there were a couple of questions there. The first is why 
didn't I mention DHS funding. And the answer is because we 
don't have any. In preparation for this hearing, I looked at 
the website, and indeed, there are a lot of contracts that have 
short-term objectives and so on and oriented to COTS 
technology. And I can understand why that would be, but there 
haven't been large, long-range programs in the style of the way 
DARPA was in the '90s, oriented towards academia. But a more 
blue sky. Okay. And I can't responsibly put Ph.D. students on a 
contract that could end in a year. I, you know--except--so I--
to engage in it, we need contracts that last longer, and that 
is why most of our funding is now NSF, because it matches to 
how we train the next generation of scientists and engineers.
    As to what the priorities should be, I think it is 
reasonable that a large fraction of their resources are now 
going towards short-term, what can be done to plug the holes, 
because it is a problem that was neglected for a long time. And 
so a focus on commercial off-the-shelf technology is not bad, 
in itself. It is really more a question of proportion. So how 
much of the total pie is going to be given towards long range 
so we can train the engineers and scientists----
    Chairman Boehlert. Pause right there. Admiral Cohen, can 
you respond to that?
    Admiral Cohen. Absolutely. And you know me well enough, 
Chairman, we are not going to get into tit for tat, because I 
found myself agreeing, in large measure, as you would imagine, 
with the other witnesses.
    What I found at DHS S&T Directorate when I got there was 
that the Directorate was aligned, in large measure, around 
projects and because of the horrendous events of 9/11. And as 
we go back in time and we think about those planes going into 
the towers and in the Pentagon and I was there, and we think 
about the Anthrax attack going on, there was a sense of what 
was the risk and what were the priorities. And so probability 
of occurrence versus consequence. The probability of occurrence 
in our mind before 9/11 of those events happening or chemical 
attack on our homeland or a biological attack other than the 
occasional hoof-and-mouth disease that we see agriculturally, 
was really not on our horizon. We understood the consequences, 
but we didn't think it would happen. And so the Administration 
and the Congress, in a bipartisan way, went ahead and focused 
on the consequence: the chemical, the biological, the nuclear, 
and the radiological.
    And so the initial thrust of much of the research and 
development in S&T in the Department of Homeland Security 
focused on those four areas.
    Chairman Boehlert. How are we changing?
    Admiral Cohen. What--I briefed your staff, and I will put 
up, very quickly, one--just one chart is if you execute----
    [Slide.]
    Chairman Boehlert. I can read that clearly.
    Admiral Cohen. I will read it to you, sir, but you don't 
need to worry about the black line.
    Chairman Boehlert. Yeah.
    Admiral Cohen. And we are working on improved vision.
    Chairman Boehlert. Yeah.
    Admiral Cohen. For me, not you, sir.
    If you are aligned to project execution, as the projects 
change, you must constantly realign. This is not how effective, 
world-class S&T management organizations operate. And so what 
you see here is six departments with enduring disciplines of 
energetics, in my case, that is not nuclear and radiological, 
chem-bio, C4ISR, and I must tell you, as I went forward with 
this, people said, ``Oh, no, that is too military. It should be 
command and control.'' But I will tell you that Dr. Worch has 
it exactly right. It is command, control, computers, 
communication, intelligence, surveillance, and reconnaissance. 
I don't have an air department. If need a platform, as Dr. 
Worch has so eloquently described, that is a UAV, that is in 
C4ISR. I have borders and maritime. Even though those are two 
8,000-pound gorillas, customs and border protection and the 
Coast Guard, if they are put together, they encircle our 
borders, land and sea. Human factors. That was addressed. Man-
machine interface. Critically important. Understanding the 
psychology of terrorism. And then finally infrastructure, and 
to me, transportation is infrastructure that moves----
    Chairman Boehlert. Admiral, with all due respect----
    Admiral Cohen. Yes, sir.
    Chairman Boehlert.--I want to focus more narrowly. And I 
know the broad mission. And it is just--well, it is the biggest 
restructuring of government since the post-World War II era.
    Admiral Cohen. Yes, sir.
    Chairman Boehlert. Twenty-two agencies, 180,000 people. And 
I am not talking about all of the other stuff. We are focusing 
on border security. Should there be more of a mix with short-
term and long-range projects? I think Dr. Pottie's suggestion--
--
    Admiral Cohen. Well, he is absolutely right, and that is 
why I started out my testimony by telling you I now have three 
portfolios that cut across this with time, risk, and 
investment. Those are acquisition enablers. The HSARPA 
prototypical demonstrations to leap ahead. And then finally, 
the basic research, which gives us, in the eight- to ten-year 
timeframe, where the Ph.D.s and post-doctorates are investing 
their time, the change in paradigm. And that is how you will 
see, initially, the 2008 budget when it comes to you in 
February, and then more fully filled out in the 2009 budget. I 
have gotten the permission from OMB and from the Department to 
go ahead and make those changes as best I can in the existing 
budget structure now. We have Centers of Excellence, as you are 
well of, that--where we do invest the basic research dollars, 
but that is not universal----
    Chairman Boehlert. Well, let me ask you this. Now you are 
the new guy on the block, so----
    Admiral Cohen. Yes, sir.
    Chairman Boehlert.--I mean--and your evaluation of where we 
have come so far in this new Department of Homeland Security, 
your Directorate specifically. You talked about projects, 
individual projects. You talked about consequences.
    Admiral Cohen. Yes, sir.
    Chairman Boehlert. Was there someone sort of concerned 
about integrating those projects and integrating the use of 
people and technology? Was there a master plan, did you find? 
Or is that still in the development stage?
    Admiral Cohen. I will tell you that it varies, but in the 
area of borders, I have Merv Leavitt, who is now my Department 
Head of Borders and Maritime, because of his demonstrated 
performance in supporting the customer, which is Customs and 
Border Patrol, in this case, on SBInet. And he has an eloquent 
brief that shows you--incorporates all of the technologies, 
near-term, mid-term, and long-term, as well as the integration, 
the common operating picture, the man-machine interface, the 
use of unmanned as well as manned vehicles, et cetera.
    So in this area, we have been literally aligned with my 
customer, which is CBP, for this. But that, to me, is not 
adequate to get us to the next stage, and that is why I felt I 
had to restructure.
    Chairman Boehlert. All right. I--Dr. Prado, would you care 
to share some observations?
    Your microphone again.
    Dr. Prado. I agree with Dr. Pottie here that the reason 
that we didn't mention any DHS funding is because we haven't 
seen any, at least at my level. Most of our funding has come 
from sources like DARPA and the U.S. Army and so on. But what--
--
    Chairman Boehlert. Give me your top one or two priorities 
for--that you think DHS should focus on----
    Dr. Prado. Right. well, the first priority that I think we 
need, from my perspective, is to get a picture of how this 
border security problem is going to be structured and how we 
are going to decide what technologies would be best to use, how 
they would be deployed, and get a sense of, you know, what the 
operational utility of these sensors are, by having--letting us 
get some direct feedback from the agents in the field as they 
use the sensors so that we learn, you know, where it is that we 
need to add more intelligence or condense the data or transmit 
it faster.
    Chairman Boehlert. But----
    Dr. Prado. That, to me, is the first priority.
    Chairman Boehlert. Right. And you two should be comforted 
by Admiral Cohen's response. And I would think that maybe a 
year or two from now, when we have another panel like this to 
talk about this very subject, Admiral Cohen will be able to 
report, ``Yeah, we have got the mixture, short-term, long-term, 
and we do--we have heard them. And we have learned from them. 
And we are investing both.''
    Dr. Prado. Yeah. I don't envy his job as the----
    Chairman Boehlert. It is tough.
    Dr. Prado. The amount of--range of problems that you have 
to address are so wide, you know, from the catastrophic 9/11 
type events to the steady drip of illegal immigrants that are 
crossing the borders.
    Chairman Boehlert. Well, one of my closest friends, we were 
elected together, we came to Congress together, and we are just 
close friends, was given a God-awful job. Tom Ridge. He was the 
first Director of Homeland Security. ``Make our nation safer.'' 
Good gosh. I don't think he got to sleep--any sleep any night, 
any day of any month or any year.
    Dr. Prado. That is right.
    Chairman Boehlert. All right. Dr. Worch, how about you?
    Dr. Worch. I am not privileged to know about the relative 
amounts of funding in the DHS. I am just not familiar with that 
part of it.
    Chairman Boehlert. Well, I--quite frankly, I think I will 
agree with Admiral Cohen. They are modest, and we ought to put 
more into that Directorate, and this committee is trying to do 
that.
    Dr. Worch. Going into the areas where I think more work--
where the high priorities should be, certainly one is 
information integration, as I mentioned. As Thomas Friedman put 
it, ``Connect and collaborate.''
    Chairman Boehlert. Yeah, that is right. The world is flat.
    Dr. Worch. They need to get on with that. The world is 
flat. Right. The other area--and that involves interagency 
connection of information, and to do that, one needs to get 
common databases, data tagging, and so on. I would refer the 
panel to the Air Force Scientific Advisory Board's study on 
domain integration, which talks about how do you get 
information available in a form so that everybody can use it 
that needs it without the battle that we have now. And 
interagency is certainly part of that.
    The other part is that airspace safety. Something needs to 
be done with that. The sensors are coming along for the UAVs. 
They are coming along because of military needs. There is one 
area that hasn't been worked hard enough, that hasn't been 
mentioned here, and that is defense of the borders against 
slow, slow aircraft, including unmanned aircraft that someone 
else might have to deliver goods across the border. That is 
another subject.
    But the sensors, in general, for the UAVs are coming along 
quite nicely. The resolution is improving, their ability to 
detect even humans, but we need to get that airspace safety 
that--on--get FAA on board and get these airplanes in the air.
    Chairman Boehlert. Admiral Cohen.
    Admiral Cohen. That is exactly right. We have regulatory 
issues that I believe are ``handle-able'' with the authorities. 
I would tell you that the common operating picture that we are 
basically talking about is critically important. We do that 
today on the Web. You know. You don't worry about who you are 
communicating with or what program they are using, because in 
the marketplace, if people want to communicate by e-mail or 
send you attachments, it has to be compatible. We have to 
figure out how to be able to do that, not only on the borders, 
but throughout the government. And I would just tell you, 20 
years after Goldwater-Nickles, there are still challenges with 
interoperability amongst the other department, of which I am no 
longer----
    Chairman Boehlert. Oh, I know.
    Admiral Cohen.--associated.
    Chairman Boehlert. Mr. Tyler--I have extended my time, but 
I would hope my colleagues would agree that this is a good way 
to open it up, and then I will shut up for a while.
    Mr. Tyler.
    Mr. Tyler. Chairman Boehlert, I think your question was 
what should we invest in S&T in the short-term for this 
problem. The SBInet solicitations said an SBInet is supposed to 
do four things: detect entries, identify what they are, 
classify the level of threat, and then respond. With 10,000 
miles of borders, that has to be automated. If it takes a lot 
of people, you haven't helped the problem. There is a lot going 
on in all of those areas.
    In automated detection, there are a lot of algorithms that 
have been developed, not just for things like radar and sonar, 
but things in the desert for a whole lot of applications, and 
that needs to be brought to bear on this problem.
    For identification, the big issue is false alarms. The 
current system out there, the ISIS sensors that are seismic and 
magnetic, they alarm every 44 seconds. They are probably 
driving the Border Patrol agents crazy. There are a lot of 
algorithms that exist right now to look at how you can reduce 
false alarm rates, both in the acoustic and magnetic sensors, 
as well as on the video, if you can get this--the video to pan.
    So I think these are really two key areas for that.
    For classifying the threat, once again, you need to look at 
how you would automate that. And for responding, there are 
decision aids. There are a lot of technologies.
    So I think if you took the four areas that SBInet is 
supposed to go after, looked at what the key technical issues 
were, it would drive what the S&T is.
    Chairman Boehlert. Admiral Cohen?
    Admiral Cohen. And that is exactly the plan that has been 
in place for over the last 18 months. That is what Merv Leavitt 
has devoted his life to. And I think when the solicitation is 
fulfilled, you will see much of that in place, but again, it 
will be a phase.
    Chairman Boehlert. Thank you very much.
    And I have gone well over my time.
    Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman.
    You did lay a good foundation for us.
    Mr. Giddens, let us give you a chance to get involved here.
    What is the state of the SBI strategic plan? Has it been 
completed? And if not, why not?
    Mr. Giddens. I--sir, the plan is in development. We have, 
at least pending. As far as on the House side, there was 
language in appropriations to deliver that this November. We 
are on track to that and are working that hard to deliver that 
strategic plan, including the resulting programs and metrics 
that would go along with it.
    Mr. Gordon. Well, do you see a problem in initiating the 
SBInet contract before completing the strategic plan?
    Mr. Giddens. No, sir. We think one of the key cornerstones 
of this issue is being able to address the capacity and the 
capability we have at the border to address the issue. We don't 
think we can address the issue only by looking at the border. 
We see it as a continuum that speaks beyond the border in terms 
of what Dr. Worch talked about and in terms of intel and 
understanding what is coming. But there is clearly a big aspect 
of this that has to be addressed at the border, and we are 
comfortable that there is going to be a fifth to that----
    Mr. Gordon. Well, won't the plan help to influence the kind 
of technologies you are going to need?
    Mr. Giddens. Sir?
    Mr. Gordon. Won't the content of the plan influence the 
technologies that will be incorporated into this SBInet?
    Mr. Giddens. No, sir. Our intent is to be somewhat 
technology-agnostic in that we don't want to get linked into a 
certain technology, and as Secretary Cohen mentioned, the 
changing world of technology, I don't know what it will be 18 
months from now or 24 months from now, but it is going to 
probably be different than it is now. But the performance and 
the objectives that we need in order to be able to detect, 
identify, classify, and respond, those are the things that we 
wanted to focus it on.
    Mr. Gordon. And Admiral Cohen, what role do you see the S&T 
Directorate playing in selecting the contractor for the Net?
    Admiral Cohen. I do not have a role in selecting the 
contractor.
    Mr. Gordon. Providing any information? Any kind of--they 
are not going to look to you for some assistance there?
    Admiral Cohen. I am--I will leave the acquisition to Mr. 
Giddens, but I am not on the source selection. And customarily, 
S&T is not on the----
    Mr. Gordon. Is that a good custom here? Is that a good 
custom here?
    Admiral Cohen. I believe it is, yes, sir.
    Mr. Gordon. To not--for you not to be providing technical 
assistance?
    Admiral Cohen. No, I do provide technical assistance. I am 
not on the source selection.
    Mr. Gordon. Well--and then what will be your role in the 
oversight, the technical oversight of the system?
    Mr. Giddens. As the Secretary Cohen indicated, his 
organization is providing technical assistance and support 
through the evaluation process.
    Mr. Gordon. And oversight, also?
    Mr. Giddens. And they will also be engaged--as we have 
looked at S&T to be our systems engineering arm. Mr. Tyler 
talked about the focus of systems engineering and the need for 
that. And early on, we partnered with S&T in order to lay that 
systems engineering foundation and also support the activities 
in terms of technology-sniffing.
    Mr. Gordon. And how--I am sorry. I should know, but how 
long have you been in your position now?
    Mr. Giddens. Since last November.
    Mr. Gordon. And so what--I mean, I guess, would you concur 
that there were a variety of mistakes made in previous systems?
    Mr. Giddens. I think we looked at it as the learning 
organization.
    Mr. Gordon. Okay. Well, that is all right. Well, that is 
what I want to get. So what have you learned from those 
previous mistakes, and how do you see doing things differently?
    Mr. Giddens. A couple things.
    Mr. Gordon. That was a good answer. I mean, that was--you 
are--I think that is the right thing to do.
    Mr. Giddens. And we are going to learn as well. I am----
    Mr. Gordon. Right.
    Mr. Giddens.--not going to sit here and say we are going to 
get everything right. And we intend to continue to be a 
learning organization.
    Mr. Gordon. Well, what are some of the mistakes that you 
have learned from, and how do you intend to do things 
differently?
    Mr. Giddens. One thing is we don't need to have a 
segregated approach to the problem set. In the past, we tried 
to look at this from a very particular aspect, a very 
technology-focused, and even maybe cameras and technology. In 
another avenue, we would go off and look at staffing. In 
another, we would look at tactical infrastructure. And that 
would give you a great answer from a technology perspective, 
but not from the system level and then trying to get a value 
solution. And I think that is one of the big lessons that we 
learned. And we have to take an integrated, comprehensive 
approach at solving this big, complicated problem.
    Mr. Gordon. Well, I think it is healthy to--for that to 
occur, but I would certainly hope that the S&T Directorate does 
have a strong role, particularly in the oversight, and we hope 
you are going to do better, and we expect you, you know, to do 
better, but I think there continues to--there needs to be a 
technical oversight there.
    Mr. Giddens. Sir, I look forward to you holding both of us 
accountable for that. I could not have asked for a better 
partner for S&T, and as Admiral Cohen, Secretary Cohen 
mentioned, he and I have known each other before. I am 
delighted to be able to work with him.
    Mr. Gordon. Thank you. And just real quickly, Dr. Worch. 
You had mentioned that the reduction in NASA expenditures in 
some of these areas was harmful. Just quickly, could you give 
us some examples?
    Dr. Worch. Well, the most important example was this 
Access-5. It is not an acronym, to my knowledge, but it is a 
program that was started by NASA along with the UAV National 
Industry Team, I think it was called, Unite. And together, they 
were working this problem of the airspace management and how 
one could integrate those. Now that Access-5 has been 
terminated because of funding, and I don't see the laboratory--
the military being able--or industry, being able to pick it up. 
It is expensive to do this research, but it is even more 
expensive to do the comprehensive testing that is necessary.
    Mr. Gordon. Thank you.
    Chairman Boehlert. Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    I, unfortunately, had to step out for a minute, so I may be 
plowing some already plowed ground. I just wanted to ask. I 
have heard you talk about sensors and detecting. I spent a 
couple days down at the border at El Paso and Juarez and just 
kind of watched the operation there. They had the cameras, 
chain link fence and all. Chain link fence, I would like to 
have the contract in the wire that they used to repair all the 
holes that people cut in it. And it seemed to me that one of 
the solutions is to come up with some type of fence that you 
can't cut holes in. and one of the technologies is the concept 
that I think the military has used to--for, like, enclosing 
compounds, which is a microwave technology, which generates a 
tremendous amount of pain if you get into the field, but it 
doesn't do you any physical harm. So you just basically create 
a shield of microwaves. Is that something you have talked 
about, and is that practical in the sense that you can't cut 
holes in it? Where is that technology?
    Dr. Worch. I am aware of that technology. It is relatively 
short-range. It is clearly effective. The question is, is this 
something that a democratic society would want to do. I mean, I 
am out of my ballpark now, out of my league, so I ask your 
forgiveness for that. But I--yes, it can----
    Mr. Akin. So you think the technology works. The question 
is the politics?
    Dr. Worch. I would say so. Now the technology is not long-
range. It is relatively short-range.
    Mr. Akin. And if you had to do a border----can you make a 
screen of these things, put a whole series of towers or 
whatever it is, in a row?
    Dr. Worch. You would need a large number of them, because 
you have the near-far problem. That is you want to inflict some 
pain on the person that is far away, but you don't want to fry 
the one that you aim it at that is nearby, right?
    Mr. Akin. Right.
    Dr. Worch. So you have to be very carefully in the use of 
that technology, and you better be sure that it is an intruder 
that is not--that is--that it is truly an intruder and not an 
American citizen that has gone astray here.
    Dr. Pottie. There is also----
    Mr. Akin. How about expense on that? Is that very expensive 
or----
    Dr. Worch. It is relatively expensive, particularly when 
you consider how close these would have to be deployed. It is 
nice if you have a point defense problem. I want to defend this 
radar site or this ammunition storage area. It is not so good 
when you want to create a fence.
    Dr. Pottie. There have also been issues with microwave at 
high levels where communication towers have caused cataracts 
before it was well regulated. So I am not--I think there would 
be a lot of people who would be unhappy about long-term 
exposure issues, particularly near populated areas.
    Dr. Prado. I would like to comment, also, that any use of 
active sensors, like microwaves or radar, that sort of thing, 
are very power-intensive, and they are usually relatively 
simple countermeasures that people can learn fairly fast to 
protect themselves. The best sensor--the best way a sensor can 
work is if the intruder does not know that the sensor is there, 
in other words, that operates in a stealthy way and it can be 
hidden from sight so that not only the current intruder but the 
next one and the next one get--trip that sensor, and it doesn't 
get destroyed by the people who are trying to come across. So, 
you know, more cost-effective is a network of, like, unattended 
ground sensors that will alert the law enforcement personnel 
that somebody went by. You want to be able to apprehend that 
person and send him back to where he came from. You don't want 
to particularly pick up a dead body on the field from some 
border protection measure that you use.
    Mr. Akin. Yeah. I guess the thing I saw was you have got a 
whole crews of people with vehicles stationed all along a long 
line, and you have to replace them every shift. There is a 
whole new group of people. And that looked to me to be a pretty 
expensive solution, too, so you have got a sensor that says 
somebody has come across. Now you have got to go find them, and 
they are hiding in somebody's field or whatever it is. It is--
does that look to be expensive, too? So that is why I was 
asking. But thank you for responding.
    Admiral Cohen. Congressman, one of the things that all the 
comments take you to and that is power and infrastructure. And 
you talked about unattended ground sensors, et cetera. For them 
to work, they require power, and people have come forward to 
me, even in the short time I have been on the job, with e-mails 
and phone calls and face-to-face, and we had one proposal of--
for being able to get electrolytic power from a cactus. Now 
these are small, low-power sensors, but because of 
microelectronics, they will do the job. Or from a tree, because 
of the chemistry within there. So in that sense, we heard 
earlier from Dr. Pottie, the numbers. He talked about 10,000 
sensors. Sandia lab has done a lot of this kind of work. Small, 
little sensors, all linked, but you have got to power them, and 
you have got to power them for the long-term. So we need to 
look not only at the microwave, which was a joint Navy-Air 
Force initiative that we have been looking at, and it does 
work, high power, we need to look at the low power, otherwise, 
it is all about batteries and electrical cables.
    Chairman Boehlert. Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman.
    Everyone who is on the Committee knows I have a background 
in engineering, a mechanical engineer. I spent a little time as 
a systems analyst. So I appreciate all of the technical 
background and the details that all of you have gotten into 
here. Unfortunately, when I go home and talk to people, they 
say, ``Secure the borders.'' In looking a little more at it, 
can we secure the borders? I mean, that is, essentially, the 
question. So all I want to do is ask, can this really be done. 
Can we really secure the borders? Because we talked about all 
of the technical aspects of it, but I am not yet convinced from 
all of this that what--or I should say, I am not really sure 
that all of you believe this can be done in terms of 
technologically, and there is also the political question, 
which got into some of those ways of possibly securing the 
border, ways that we may or may not want to do. You know, 
people say crazy things like, ``Mine the borders,'' or 
something like that. I mean, it is outrageous, obviously. But 
thousands of miles of borders. Can we secure it? And how long 
will it take to do it? and I know especially all of you--this 
is putting you--and I am not here--and I am not asking this 
question to bring you back here in a few years and grill you on 
this, your answer, so I know you all are probably going to have 
to dance around this a little bit. But I am looking for you to 
give me an honest answer. Can we do it? How long will it take? 
And we will start with Secretary Cohen.
    Admiral Cohen. Well, to the best of my ability, I always 
give an honest answer. I do that for two reasons: one, it tends 
to work, and two, at my age, I don't have to remember what I 
said.
    But the short answer is, yes, the borders can be secured. 
The land borders, the sea borders, the air borders, the under-
land borders. The question is, to what degree do you want to 
have them secured. Do you want them absolutely secure? I mean, 
we don't like speeding. We don't like drunk driving. I mean, 
there are many things that we try and control and alter, et 
cetera, and we decide what level. Even prison breaks, from our 
maximum security prisons, occur. So this is really a policy, 
political resources decision. But I think what you have heard 
and with your engineering background, you will appreciate this, 
the beauty of America is we are very optimistic. If the 
President says we are going to put someone on the Moon this 
decade, then we believe it. And do you know what? We put a man 
on the Moon. So we can do this, but at what cost and on what 
timeline and to what degree of fidelity.
    Mr. Lipinski. No one has talked anything at all--and they 
are not just talking about all of you here, but no one in the 
government has talked about it, any kind of timeline. Okay. So 
I say 95 percent--I want to stop 95 percent of the people 
coming in who are coming in now. Five percent can still--you 
know, we will allow that. What will that take? How quickly can 
we get that done?
    Mr. Giddens. As you somewhat indicated as you asked the 
question, probably at least those of on this end of the table 
are probably not going to give you a completely satisfactory 
answer to the timeline. A large--let me answer the first part 
of the question first. Can it be done? Absolutely. And I don't 
just say that because that is part of my role and that is my 
job at DHS is to put together a systems comprehensive approach 
to do that. So--but I believe that can be done. I am convinced 
it can be done. We are working hard to lay out that plan to 
deliver to the Congress later this year on how to do that. The 
speed of that is going to largely be governed by the Nation's 
will to invest treasure to make that happen. It is not going to 
be an inexpensive undertaking. I am not going to sit here and 
say you are going to get it by rubbing two nickels together to 
secure the border. This is going to take investment, and it is 
going to take a well managed investment, but it can absolutely 
be done. There is clearly going to be some point, whether 
return on the investment to get the last one or two percent is 
going to engage a lot of discussion about whether to continue 
that. Is 95 percent good enough? Is 94? Is 96? That is clearly 
going to be a national level debate, but it can absolutely be 
done.
    Mr. Lipinski. Okay. Will someone venture 95 percent--how 
many billions of dollars in how many years if we want to get it 
done? Any of the four of you venture?
    Dr. Pottie. Okay. So my answer is that, in the short-term, 
it would be enormously expensive. And you would need physical 
barriers, probably cameras everywhere, and you would need 
people behind those cameras until the detection algorithms get 
better, and you would need other measures to deal with bad 
weather when your cameras aren't working all that well. And so 
if--but over time, this is the point of doing research, you 
would hope to make that whole process cheaper. By working with 
the end users, you would develop systems that would work better 
over time and hopefully make this both less expensive and more 
effective. So it is--I--well, I can't really give you a 
timeframe, because I never designed anything in this scale.
    Mr. Tyler. Congressman, if I might offer. At the beginning 
of the Cold War, we had a real problem with Russian submarines 
right off our own coast. And Admiral Cohen is an old Cold 
Warrior, as I am. We are talking about 10,000 miles of border 
here. And in the Cold War, at the peak, we surveyed 12 million 
square nautical miles of ocean and did it exquisitely. And it 
took a decade to get SOSUS and SURTASS and other Navy systems 
up. And what it took was commitment. It took money, and the 
money was measured in the billions, but it was not exorbitant. 
But it took, basically, a spiral development. It took S&T and 
commitment over a longer period of time. Now if we want to 
solve this problem in three years, it could cost us a fortune, 
and we are likely to make a lot of mistakes. If we have got 
commitment and we are willing to see those numbers come down 
with time reasonably, then I think this is a solvable problem, 
and it is one that is going to be solvable with the kind of 
money that we might want to put towards it.
    Mr. Lipinski. Well, I certainly think it is something that 
we need to do, we must do, and I know it is a very difficult 
question to answer for all of you, but I thank you, Mr. Tyler. 
That is something that I can go home and I can tell my 
constituents. That is something I can tell them and explain to 
them that makes a little bit of sense.
    But thank you.
    Dr. Prado. Let me make a comment, also.
    Mr. Lipinski. Yes.
    Dr. Prado. With regards to making the borders really 
secure, to make it--do it by purely technological means would 
end up being extremely expensive, and these are questions that 
don't really have a purely technical solution. The desire to 
enter this country by millions of people who don't have the 
same opportunities that we do is just too great. And so you 
know, we would be spending enormous amounts of money trying to 
stop those people. I wonder if some of that money would be 
better spent in fostering economic development in the other 
countries so that once their centers of living and political 
systems are at least, you know, farther along and they have 
more hope, they--there is not so many people who have a 
desperate desire to risk their lives and come into this 
country.
    Mr. Lipinski. Well, I think you are very right about why 
people are coming--most of the people are coming into this 
country, and of course you--these other parts of it we don't 
deal with here on the Science Committee, but I----
    Dr. Prado. Exactly. I am just pointing out that this is a--
--
    Mr. Lipinski. There is no question. Yes, you are----
    Dr. Prado.--problem that has a non-technical----
    Mr. Lipinski.--correct.
    Dr. Prado. That--a part of a solution that is not 
technical.
    Chairman Boehlert. Thank you very much.
    Mr. Lipinski. There is no question about that.
    Chairman Boehlert. The gentleman's time has expired.
    Isn't it really fair to say that the technology exists? We 
know how to guarantee that we have security of our borders, but 
then you cost it out, and it is a jillion dollars. I mean the 
technology exists, so what we have got to do is invest in 
lowering the cost of doing what we know we can do right now. Is 
that a fair statement? I mean, there--some people would make 
this Fortress America, put a fence all around America. The--I 
don't know who wants to do that. I am sure there are some 
people who say, ``Why don't you just do that?'' Well, I don't 
think that is a very good idea, and I don't think probably any 
of you do, either. And--but you could cost--that we know how to 
do it, and we could cost it out, and we could get a price tag, 
but--so it is not so much a technological question. It is a 
policy question that is going to be settled in the halls of the 
Congress, not in the laboratories of America. But what we have 
to do, it seems to me, and one of the reasons why I got so 
excited about insisting that we go forward with a hearing like 
this a couple of months ago, and today is a result of that, is 
we have just got to pay attention to this subject in a very 
meaningful way. And we can't expect miracles. We can't be 
unrealistic. But we have got to be very practical
    Admiral Cohen. I think you are exactly right, Mr. Chairman. 
One size will not fit all. In an urban environment, we will 
most likely need physical barriers, because the time from 
crossing the border to being able to go into buildings or mass 
transit is very short. Whereas in the more rural, whether it is 
the northern or the southern border, we have the ability to 
have defense in depth. And an initial trip point, monitoring--
and Border Patrol does this every day. They follow, and then 
when it is convenient or it is dangerous to the individual, 
they make the intercept and proceed from there. And that is--we 
talked about not only the timeline, we have talked not only of 
the technology, we have talked not only of policy, we have 
talked not only the cost, but it is also the environment and 
how we want to go about doing that. So the comments that have 
been made on system of systems and system integration and 
giving the analogy to the Polaris program and other things of 
that nature are right on the mark. This is tough stuff. And as 
we have already heard from Dr. Pottie, it is not until you have 
it in the field and the customer-to-customer, the Border Patrol 
agents and the Coast Guardsmen are actually operating this and 
seeing how we can improve that we will get to the next stage. 
But we are in this for the long haul, and I believe that 
Congress is and the American people are, also.
    Chairman Boehlert. I see Dr. Pottie on the edge of his 
chair. Did you want to intervene at this----
    Dr. Pottie. Oh, no. I was going to agree with him.
    Chairman Boehlert. And Dr. Worch, you had----
    Dr. Worch. Well, I am less optimistic about the 95 percent, 
but I would say that if we can go for the 80 percent solution 
and deter another 15 percent of the individuals from attempting 
it, then we may be back up to the 95. That is to say there are 
a lot of portions of the border that are going to be very tough 
to put sensors in to maintain a sensor field. But I think if we 
can start, we can evolve a capability at some percentage, 
whether it is 80 percent of 90 percent, and then hope that some 
of the other--some of the individuals that are part of the 
other 20 percent or 10 percent are encouraged to proceed in a 
more legal way.
    Mr. Giddens. Mr. Chairman, if I could quickly add to the 
point about the 15 percent. The Department is into the practice 
of catch-and-release, and we have seen some great results in 
terms of deterrence as a result of that. And I think it is 
going to be incumbent upon us not to just look at where the 
solution set at the line on the border but understand what 
happens beyond the border, at the border, and in the interior 
in the way that we work with private industry and work site 
compliance and making sure that we are hiring people that are 
documented and authorized to work.
    Chairman Boehlert. Mr. Gutknecht.
    Mr. Gutknecht. Thank you, Mr. Chairman.
    That is a nice segue to what I wanted to talk about, 
because I think if you focus purely on defining the border and 
defending the border, I think you are sort of missing the 
biggest part of the equation. Let me give you an example. I am 
aware of this only because of some of the employers in my 
district where--and I will give them the benefit of the doubt. 
They are trying their best to hire legal employees. But the 
trade right now in illegal or counterfeit documentation has 
become phenomenal. In fact, the local law enforcement know how 
much it costs to buy a counterfeit driver's license. As a 
matter of fact, I learned that in one town in my district, you 
can buy a Puerto Rican birth certificate for about $600. And of 
course, if you are born in Puerto Rico, you are a U.S. citizen. 
So this business has gotten incredibly sophisticated, and it 
starts not just at the border.
    I just want to throw out this question, I guess, and 
perhaps one or more of you can comment on this. One of the 
things that many of the folks who come here illegally know is 
that it will take upwards of 11 months before Social Security 
will notify an employer that there is an employee working under 
a Social Security number, which does not exist, or a Social 
Security number under which someone is working in Worthington, 
Minnesota and Laredo, Texas at the same time. Do you believe 
that creating an electronic system that would respond a little 
faster than 11 months is technologically possible? And could it 
be done at relatively low cost? And that is a loaded question, 
because we know it is done. It is done every day. A few years 
ago, I had the unfortunate circumstance where I lost my 
billfold, and by the time I realized what had happened, I had 
already gotten a call from my credit card company that I was 
making some rather unusual purchases. And so I knew what was 
going on, and the law enforcement knew what was going on. And 
more importantly, the credit card company knew long before I 
did. It didn't take them 11 months. It took them about 11 
hours.
    And so I want to come back to this. One of the areas where 
we have got to focus more of our attention on is some kind of 
an ID system and an electronic surveillance system within the 
government itself, with the systems we already have. I mean, we 
have Social Security cards. We have Social Security numbers, 
and yet, we are just painfully out of step. Does anybody want 
to comment on that, what we can do to make sure, number one, 
that employers have confidence that the documents that they are 
getting are real, and number two, that we track these people so 
that if they are using a false Social Security number, we can 
get that information to the employer much, much faster?
    Mr. Giddens. Sir, I will start with that, and then part of 
this I may look for Secretary Cohen to elaborate on an aspect 
of it.
    But clearly, you have touched on a nerve that, while we 
focus on the border and it is a very visible aspect, it is not 
the only thing that we can focus on. We have to work with 
private industry and find a way that is fast and efficient for 
them to verify the employment eligibility for people that they 
want to employ. The Department currently has a program called 
Basic Pilot that is trying to do that where private industry 
sends in basic information and there is a check to see if there 
are any mismatches with that, and response back for that is 
pretty quick. Now that is not nationwide deployed, and it is 
currently a voluntary program, but it is something that we are 
doing to try to provide private industry some tools. We think 
it is going to be very incumbent upon us to do that. If we are 
going to look to private industry and say, ``You should only 
have people that are authorized to work,'' okay, how do they 
know? That is a big problem for us. We are working that hard, 
and we are looking to expand the use of Basic Pilot.
    You talked about document fraud. There are efforts ongoing 
within the Department that S&T is involved in as well as ICE. 
An organization within DHS is involved with that in document 
fraud. Customs and border protection is working this issue hard 
at ports of entry. It is a big problem with the printers and 
the capability now that people can just set up, you know, in 
their bedroom with their computers and printers. It is really 
going to be a hard problem to tackle. But we have got to take 
that on and be able to really address that. We work very hard 
with the Social Security Administration to try to find the 
right way to get some access to the data they have. As you 
said, I think it would be interesting to go through and have 
somebody to run a routine and find out how many people are 
posting income in ten different zip codes. That would probably 
be a fruitful area to go----
    Mr. Gutknecht. Well--and that would be relatively easy to 
do, I would think. I mean--let me just make this point, because 
my time is about expired. And I want everybody here to think 
about this. You know, what happened on 9/11 happened five years 
ago. Okay. And as far as I can tell, and one of the reasons we 
are concerned about this, obviously, it is affecting our labor 
markets. You know, I think it is artificially holding down 
labor rates. It is increasing costs for schools and hospitals 
and everything else. Illegal immigration is a big issue. And 
that is certainly one concern.
    But according to the statistics we have seen is that about 
four percent--the estimates are that four percent of the people 
who cross our borders are coming across either for illegal 
purposes, in other words they want to sell drugs or they are 
involved in crime, or they are from nations of interest. That 
should be a real chilling concern to everybody in this city and 
everybody in this room. So you know, five years into this, I 
don't think we are much further along than we were five years 
ago in terms of securing our own border, and part of it is we 
have got to come up with ID systems that slow down the influx, 
and we have got to do more to use whatever technology is 
available to protect our borders and ultimately to protect the 
American people.
    Mr. Giddens. Sir, that four percent is one of the reasons 
that we think part of the comprehensive program should include 
some type of temporary worker program to allow us to try to 
funnel those people through the legal means so that we can 
really focus on the four or so percent that are really the ones 
of interest.
    Mr. Gutknecht. Let me just say, in response to that, I 
mean, I am not totally adverse to that, but I think until this 
Administration demonstrates that they are serious about 
controlling our borders and enforcing the laws that are 
currently on the books, that is really tough sell in my 
district.
    I yield back.
    Chairman Boehlert. Thank you very much.
    Mr. Green.
    Mr. Green. Thank you, Mr. Chairman and Ranking Member.
    And I would like to indicate as well, Mr. Chairman, that 
you do a thorough job, you really do. And you will be missed. 
You will be missed greatly. I--the only consolation that I have 
is that--knowing that I may be in the majority. Thank you for 
your work.
    Chairman Boehlert. I never pay.
    Mr. Green. Well, you know, fairy tales come true. It can 
happen to you and me.
    Thank you so much, members of the panel. You were--provided 
us a wealth of information. And much of what I wanted to talk 
to you about has been discussed, but I will just simply say it 
another way, I suppose.
    In my fair city, who had a regional mobility plan, or a 
mobility plan that was proposed, and this plan, if 100 percent 
placed--put in place such that we had it 100 percent effective, 
would only impact five percent of the traffic. That was the 
plan. And I mention this to you, because if our plan here is 
100 percent effective to impact 100 percent of those who will 
try to cross the borders and it costs us about 100 percent of 
our capital, I don't know that we have really spent our money 
as wisely as we should have spent our money. The Chairman said 
a kajillion, or some large number, of dollars. And that causes 
me a lot of concern, because one of the panel members indicated 
that it is judicious, it is prudent to look at the conditions 
where most of the people are coming from and try to be my 
brother's keeper, to some extent, and see if I can help improve 
the conditions so that I don't have as many people to contend 
with. If we are securing ourselves now from people who want to 
harm us as opposed to securing ourselves from people who want 
jobs. At some point, we have to decide why are we securing 
ourselves so as to understand why it is necessary to spend a 
kajillion dollars. I think that, in the long run, to get to the 
95 percent level, based upon what I am hearing you say, it is 
going to be exceedingly expensive. Exceedingly expensive. I 
never like to use the term ``too expensive'' when it comes to 
securing our country, so I will not say that it would be too 
expensive, but I would hope that we will include in our 
security efforts--someone has talked about ID, identification 
methodologies, but also looking at what is happening to cause 
people to find themselves coming in in the middle of the night, 
living in the shadows of life, leaving to go back home to see 
people that they care for dearly and then try to come back into 
the country under the cover of darkness again. There is a lot 
going on here that securing the borders will not, as we are 
talking about it, the technology just won't offset. I don't see 
how it will offset it, given the needs of some of our brethren 
in some of our border countries, or at least one.
    And finally, we--this conversation seems to be so focused 
on Mexico. Perhaps I am wrong, but it just seems that way to 
me. It just seems like it is. And we have had some folks to try 
to come in through the northern border who didn't mean us a lot 
of good, and it seems like we ought to talk a little bit about 
the northern border. And it seems to me like before we had a 
lot of these concerns about the southern border, we were having 
people to come in across the Gulf of Mexico. And we have got 
policies, wet foot, dry foot, whatever. We--some of those 
things create an inducement for people to come, knowing that I 
can get one foot on dry land. ``If I get one foot on dry land, 
I can go on and work my way into the country and become--
possibly become a citizen.'' And I don't begrudge anybody, but 
I think inconsistent policies create a lot of the problems that 
we have when you don't have consistent policies and people can 
see the inconsistencies. But also, I think these inconsistent 
policies create a lot of disrespect for policies, and people 
can clearly see that some are being treated better than others, 
and they can't rationalize it.
    I thank you for your kindness, and I appreciate very much 
your indulging me.
    And Mr. Chairman, I yield back the balance of my time.
    Chairman Boehlert. Thank you very much, Mr. Green.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much.
    And first and foremost, I would like to recognize Admiral 
Cohen for the great job that he did at the Office of Naval 
Research and suggest that he is a fine selection for someone 
who should oversee the technology and the technology 
development that we need for our national security in terms of 
homeland security. And I have worked with him in the past, and 
I look forward to working with you in the future on this.
    With that said, I just--frankly, Mr. Gutknecht said it 
well. And I think we do have the technological capability, for 
example, to have the identification cards and the 
identification systems, not only for people who are seeking 
employment or people who are seeking government benefits, but 
also for people who are trying to enter our country through our 
legal portals, in terms of visas, et cetera. We have that 
capability, and we have not perfected it. I think that is a 
black mark on this Administration, and we should have perfected 
it already. I mean, frankly, five years into 9/11 we don't have 
that system perfected. It is ridiculous.
    Second of all, in terms of the border, I would like to just 
tell you, gentlemen, it is not a matter of funding. And I am 
sorry. And I say that to the Chairman, as well. He--we probably 
disagree in this. This is a matter of will. Every--you know, 
every time we--people come here to Washington you hear it, 
``Well, just spend more money. Spend more money. It is a matter 
of how much you invest.'' I am sorry. That is not it. The fact 
is that we have two Border Patrol agents right now who are on--
who are being prosecuted for attempted murder for shooting at 
an illegal immigrant who was trying to smuggle 743 pounds of 
marijuana into the country, and as he ran away, they shot at 
him, and now, they are arrested. Now what do you think that 
does to the Border Patrol? Think. How much technology can make 
up for that type of demoralization that you are going to have 
when you have got two veteran officers, who are targeted by our 
U.S. Attorney's Office, and bringing the drug smuggler back 
from Mexico to testify against them? You know, this is--we can 
do things in this country. We have the ability to do things in 
this country, especially on our border, if we had the will to 
do it. this Administration has not wanted to do it, and right 
now, even with the technology that we have, and again, what I 
would suggest is--Admiral, your job should be basically how do 
we get the technology that you know already exists into play 
rather than how do we develop new technologies for the future. 
How do we get it in play so we can capture more illegals at the 
border and secure those borders? And we have got that 
capability now. We have got plenty of sensors. We have got 
plenty of drones. Now if there are some regulatory issues that 
I heard about earlier about using some of this technology, that 
is when we can work together. That is what we can do. You don't 
have to spend more money on the budget for that. That is just a 
matter of willpower and committing ourselves to do the work. 
Now that border could be secure, and it could have been secure 
all of this time, but there has not been a will on the part of 
this Administration or the past Administration to do it. So for 
example, we are talking about--look, we have got the Civil Air 
Patrol. We have got the Boy Scouts. You could have veterans 
organizations. You could have volunteers for the border that 
could help be the eyes and ears of people to make sure that our 
country is safe and secure. And I will tell you, after 9/11, we 
would be flooded with volunteers if someone tried to organize 
something like that. Low cost. Limited--you know, technology 
that is already there.
    So I just, you know, leave you this thought. I am looking 
forward to working with you, Admiral, but on the putting the 
technology we have got to work rather than research programs. 
Now in the past, let me note that the Admiral has been really 
great and a visionary about the potential of--if someone comes 
to him with a plan, what that potential would be. Now we have 
got to look at it in a different way. Let us put what we have 
got to work, and we don't--and instead of just looking at this 
as more investing money, let us just commit ourselves to 
getting the job done. And to me, that is the only thing that is 
stopping us from controlling our borders. It is not a lack of 
technology information, not a lack of research, but a lack of 
the willpower.
    So I am sorry I am--if--you are welcome to shoot that down 
or agree with it, but I thought I needed to make that 
statement.
    Thank you very much.
    Chairman Boehlert. Thank you much, Mr. Rohrabacher.
    Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    This is a very timely hearing for somebody who is from 
Texas. I guess what I would like to know is how close are you 
to securing the border. And where are we receiving the most 
people coming in without permission?
    Mr. Giddens. Ma'am, we have a long way to go. I am not--we 
do. It has been something that, for whatever reason, we have 
not focused on. We are making progress, but we have got a long 
way to go. We would be happy to take, for the record, to 
provide you some information about the traffic and where that 
comes in on the--from my memory, the bulk of that is in the 
Arizona, Tucson corridor, that we would be happy to take it for 
the record and get you a breakdown of those numbers.
    Ms. Johnson. Thank you.
    This is one of the major concerns of my constituents, and 
it seems to me, the entire area where I am from, Dallas. And I 
really don't know what to do, because once people get here, 
most of the ones that I see are just looking for a job. And 
if--you know, if it is some of the others, I don't have--I have 
not yet had the opportunity to see them. And it seems to me 
that we ought to have in place something now that could at 
least separate that whether they have illegal drugs or--you 
know, that most people--I don't want to say most people, a lot 
of the people that write me think that most of them have 
illegal drugs. The people that I see most often do not. They 
are just looking for a job.
    Mr. Giddens. That is not--I think you are correct on that. 
Most of the people that are coming here, I don't think, are 
intending us harm and they are not bringing contraband with 
them, but if you have got 150 people lined up at the border and 
they are coming across, it is hard to sort those out at the 
border. As we apprehend people and our Customs and Border 
Protection are fingerprinting those people so that we are 
establishing the database so that we can track that and 
understanding and those that we prosecute, we can work with 
Justice, if there is criminal activity above the illegal entry. 
But I think that, by and large, the people that are coming in 
are seeking to better their lives and the lives of their 
families, but they are still entering the country illegally.
    Ms. Johnson. Yes. Thank you, and good luck.
    Mr. Giddens. Thank you, ma'am.
    Chairman Boehlert. Ms. Johnson, just let me point out that 
the magnitude of the problem--and last year, DHS apprehended 
over one million, one million people attempting to cross the 
border illegally. That is how many were apprehended.
    Ms. Johnson. Yes, but Mr. Chairman, two million of them 
stopped in the Dallas/Fort Worth area.
    Chairman Boehlert. Do you have any more, Ms. Johnson?
    Ms. Biggert.
    Ms. Biggert. Thank you, Mr. Chairman.
    I chair the Subcommittee that has jurisdiction over the 
National Labs, and how closely have these labs worked with DHS 
on that--on the border security technology, and how can they be 
more helpful?
    Admiral Cohen. I am going to let Merv Leavitt answer how 
closely they have worked, and then I would like to come back 
and explain how very much involved I am with the National Labs 
and how much I treasure them.
    So Merv.
    Mr. Leavitt. Yes, ma'am. We have--Sandia is one of our 
centers that we use extensively for sensor work, radar, fiber 
optic sensors, new advanced sensors. We have used the Homeland 
Security Institute. There is also a BAA out to universities 
that may partner with some of the labs for a border security 
Center of Excellence that, you know, we will use in the future.
    Admiral Cohen. If I may follow up. At the start of my 
testimony, I indicated the courage and the wisdom I thought of 
the enabling legislation, especially in S&T, for the Department 
of Homeland Security. And as I read those 19 pages over and 
over as part of the confirmation process and getting my feet on 
the ground here and putting an organization in place, as we 
have discussed, it became pretty clear to me, and I have 
discussed this with staff, and both sides of the aisle have 
confirmed this to me in both bodies, that the intent, and I 
think it is a very wise intent, of the Congress and the 
Administration, was that DHS S&T should not attempt to recreate 
the National Institutes of Health, should not attempt to 
recreate the National Science Foundation. Those are full, 
robust organizations. But in your wisdom, you went ahead and 
you assigned the DOE labs, which are wonderful in the basic 
sciences. Incredible intellectual capability there. I have many 
dealings, of course, with Argonne National Laboratory as the 
others from my past service in Naval Research, and not only 
that, but in the legislation, it is just one little line in 
there that I read as you telling me that I can, without any 
incremental increase in the cost, leverage all departments of 
government: Department of Transportation, Department of 
Defense, et cetera, where annually we invest tens and tens of 
billions of dollars in basic, applied, and advanced technology 
research. That is something that has not been exercised by my 
Directorate. I plan on exercising that so I use my precious 
dollars with the universities and the National Laboratories 
throughout my range of investment to add onto those underlying 
technologies that the government and the taxpayer have already 
paid for but focus them then on Homeland Security missions.
    Ms. Biggert. Well, that is the way I read the law, that we 
really included the provision giving DHS the access to the 
expertise, the facilities, and the technologies at DOE's 
National Labs, and I hope that you will take full advantage of 
that, because I think they do have the expertise in the sensors 
and modeling and systems materials, and many other areas that 
could help improve our border security.
    So I thank you.
    Admiral Cohen. I might say, my first day in the job was the 
10th of August, and that was the--you know, the liquid 
explosives threat to our airliners. The very next day, I 
established the Rapid Response Team, led by a program manager 
in my office who understood energetics, Dr. George Zarur, who 
is a long-time scientist very familiar with the National Labs, 
and Susan Hallowell, who is my director of my Transportation 
Security Lab. And that team, on the 11th of August, we had our 
first video teleconference with all of the lab directors from 
all of the DOE labs and our university Centers of Excellence, 
and together, we went ahead and put together a request for 
information, which went out within the week, SAFETY Act 
protection went out with the RFI, and we have gotten over 40 
respondents in the month, and we are getting ready to test at 
both Sacorro, New Mexico and Tyndall Air Force Base against 
500-milliliter Gatorade bottles of the actual formula, which I 
won't share here publicly, based on the technologies that came 
back from that RFI and those that we have been working on. But 
some of the stuff that has come out of the national labs, even 
in this last month, is eye-watering, and I think will be of 
great value to Kip Hawley in TSA and his screeners.
    Ms. Biggert. Thank you.
    Thank you. I yield back, Mr. Chairman.
    Chairman Boehlert. Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you, Mr. Chairman, to you and the 
Ranking Member.
    As we speak, Admiral Cohen, there is another Homeland 
Security Committee going on, so I thank you for your 
indulgence. I am going to ask, because there are enormous 
experts, I was just in a hearing where we were missing the 
permanent Assistant Secretary for Cyber Security, so obviously 
personnel is a matter that goes, more or less, hand-in-hand 
with technology. And the reason I say that is because there has 
to be a vision of the leader to be able to help the Department 
focus on the right kinds of tools.
    I have been down to the border. I have walked along the 
border in the light and in the dark. And certainly, it is, I 
think, a reality that our border at the southern border is a 
porous border. And it is that reason for many reasons. We have 
interacted with South and Central America for a very long time 
of our history. The northern border, similarly situated. But 
that doesn't give comfort to the American people that although 
we have had longstanding friendships with our northern and 
southern neighbors, that we live now in a different climate. 
And frankly, I think technology is certainly the key. And I am 
sure that questions have been asked and answered.
    But I would raise the question of matching human resource 
to technology. You are talking about Border Patrol agents, and 
there are two facets of this. There is the Border Patrol agents 
that are literally on the dividing lines. There are those who 
are called Customs and Border Protection that are the ports of 
entry that have the difficult challenge of being alert for 
4,000 cars coming through, whether it is the northern or 
southern border, and then having the responsibility of what we 
call secondary search. What are the--there are many individuals 
here, but where are we with matching human resource training so 
that we are into--Members of Congress, I have put forward 
legislation that talks about night goggles and laptops and a 
number of others. But where are we with infrared? Where are we 
with the training of the personnel that will then understand 
the technology? Now I guess I want you to speak a lot about the 
technology, because this is the Science Committee, so I know 
that you are not here to talk about personnel. But what more 
can we get in the hands of individuals who are on the front 
lines that we already have not asked for? And I would 
appreciate it if each of the gentlemen would answer the 
question. Some level of sophisticated technology that we may 
not be aware of. The night goggles are sophisticated for us, 
but there are obviously other coordinating factors from what is 
at the home base and what you can tell to the person on the 
front line that they should be either seeing or looking for, 
quick intelligence getting to them.
    So I will yield to the first panelist, and I thank you very 
much for your indulgence.
    Mr. Leavitt. Ms. Jackson Lee, we have a pilot going on in 
the Douglas station that provides the--Arizona that provides a 
station. The agents are on the border with PDA capability 
that----
    Ms. Jackson Lee. Now what kind of capability?
    Mr. Leavitt. A personal digital assistant, handheld 
capability that lets them query databases to determine if a 
certain individual has a criminal background. It gives them 
situational awareness on where they are in relation to their 
other Border Patrol agents and also sensors. That same 
capability is provided in their vehicles. So primarily focusing 
on providing information and situational awareness----
    Ms. Jackson Lee. In real time? And this equipment is in 
hand right now?
    Mr. Leavitt. Yes.
    Ms. Jackson Lee. Do you need more of it? Do you need more?
    Mr. Leavitt. I--we need to prove that it works and 
understand what the final configuration needs to be. It is a 
pilot right now.
    Ms. Jackson Lee. Okay. Let me just move down to the 
different panelists. Thank you.
    Admiral Cohen. I will give you an uncharacteristically 
short answer. As you know, I am focusing on human factors as 
one of my six departments. This is critically important. And 
the area of hostile intent, what are the characteristics of 
someone who is coming in with drugs, someone who is a 
terrorist, a suicide bomber, et cetera. I am not going to go 
into what those characteristics are or details in the public 
fora, but I can tell you that we are investing money in that. 
This needs to be done remotely. It needs to be done 
holistically. It is part of the system of systems. It goes to 
the kind of pilot that you are seeing. And as we demonstrate 
the efficacy of these within the confines of our laws and our 
traditions, we then will move into the acquisition world, which 
is Greg Giddens, and I will have de-risked it and he will buy 
it and deploy it. And the training of our agents is going on 
right now, not just TSA screeners, but Border Patrol and across 
the enterprise.
    Chairman Boehlert. Thank you very much.
    The gentlelady's time has expired.
    Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman.
    As you may know, I am the Ranking Democrat on the 
Subcommittee of IR that deals with proliferation. And some have 
argued that it doesn't--we shouldn't go into absolute 
conniptions if the wrong people get nuclear weapons, because we 
will be able to prevent those weapons from reaching our cities. 
Now one issue is delivery by missile and the whole missile 
defense and whether that would work and whether you could hit a 
bullet with a bullet, and that is outside the scope of these 
hearings. The other possibility is to remark that you may not 
need to be a rocket scientist to smuggle a nuclear weapon into 
the United States. And you could do so by air or water or over 
the border, in the sense of not coming into a legitimate port 
but rather to areas of our coast, land the plane legally or 
illegally, or just walk across the border where it is illegal 
to do so. And--or you could focus on coming through our 
airports, come--bringing it in a truck over a designated border 
crossing area or into an airport. And the real question that my 
constituents would want to know is, is it any harder to bring a 
nuclear weapon into this country--or much harder to bring a 
nuclear weapon into this country than, say, a really big bale 
of marijuana, because a nuclear bomb is about the size, 
physically, of a really big bale of marijuana, and my 
constituents are aware that it has happened, that marijuana has 
come across our border. And you know, there is the size and 
weight, but obviously drugs and other contraband of that size--
the size and weight of a nuclear device has come across, so the 
question is, really, does the nuclear properties of the bomb or 
device itself make it highly--much easier to catch than an 
equal size or weight of illegal drugs? Is there a device 
available, Admiral, to your department that could detect, say, 
a nuclear material, whether that be highly-enriched uranium or 
whether it be plutonium, from, say, half a mile away so that if 
somebody was bringing in an SUV full of marijuana you might not 
catch them but you catch the nuclear because, from a mile away, 
half a mile away, you could sense that there was nuclear 
material?
    Admiral Cohen. Well, Congressman, the short answer is yes, 
there are technologies. There are multitudes of technologies, 
many of which are well proven for many years.
    Mr. Sherman. From a mile away?
    Admiral Cohen. There are numerous technologies that have 
varying ranges and sensitivities. I am not going to discuss in 
open fora those capabilities. I will----
    Mr. Sherman. The experts I have talked to have said, 
``Forget about it.'' I mean, you can make--look, now and then, 
even the experienced marijuana smuggler screws up and gets 
caught. And even the foreign intelligence agency smuggling a 
nuclear weapon in this country has a one in ten chance of 
getting caught, the same way the experienced drug dealers--drug 
smugglers occasionally get caught. But I am told that if it is 
shielded in water, shielded with lead, that you are not going 
to be able to detect this from even 100 feet away.
    Admiral Cohen. I really don't want to cross any line here, 
but when you are looking for nefarious objects, you may look 
for other telltale signs. You may look for the shielding 
instead of the radioactivity. I think in this particular area, 
Congressman, I would feel much more comfortable asking----
    Mr. Sherman. Let--if you could come by, and we will arrange 
to have a briefing----
    Admiral Cohen. Yes, sir.
    Mr. Sherman.--on this----
    Admiral Cohen. Yes, sir.
    Mr. Sherman.--because I--you know, I have told my 
constituents it is a little harder than bringing in an 
equivalent weight of marijuana, but not much harder, and in any 
case, you didn't need to be a rocket scientist to----
    Admiral Cohen. I will ask our defense--excuse me, Domestic 
Nuclear Defense Office, the DNDO, which has cradle-to-grave 
responsibility for this in Homeland Security, similar to the 
naval reactors in the Department of Defense for nuclear 
propulsion. We will arrange with your staff to have them come 
by and so someone who is knowledgeable can----
    Mr. Sherman. I look forward to that, both for gamma 
detection and neutron detection, both shielded with water, 
shielded with lead, and not shielded, and both with regard to 
trying to come in here legally--or not legally, but through a 
legal crossing----
    Admiral Cohen. Yes, sir.
    Mr. Sherman.--point into our country----
    Admiral Cohen. Yes, sir.
    Mr. Sherman.--or the Canadian or Mexican border at a place 
at which you are not supposed to cross. I have got a lot of 
friends who just go skiing across the Canadian border, and 
nobody has ever questioned them in or out.
    And with that----
    Admiral Cohen. Yes, sir.
    Mr. Sherman.--I will yield back.
    Chairman Boehlert. Thank you very much.
    Two quick questions I have, and one--and I think I know 
what the answer is going to be, but I would like to get a 
response from Admiral Cohen. Dr. Worch, I will ask you this: as 
a member of the Air Force Science Advisory Board and fellow 
Vice Commander of Rome Lab, how can we better leverage the 
expertise of Defense laboratories, like Rome, to help secure 
our homeland? And should DHS fund more research at 
laboratories, like Rome, and it doesn't have to be Rome 
specifically, other laboratories, but our world leaders in 
things like C4ISR technologies, which are critical for our 
border security system?
    Dr. Worch. Well, I think it is a matter of setting up a 
memorandum of agreement with those particular laboratories. Now 
with--probably with the Air Force between the Air Force and the 
Department of Homeland Security. The funding, I think--now, 
again, I can't speak for the Air Force, but there is joint 
funding. There are technologies that are there in the 
laboratories that they can make themselves, DHS, aware of 
directly, and I am sure they are trying to do this, but----
    Chairman Boehlert. Admiral, are you aware of the Rome 
Laboratory?
    Admiral Cohen. I am aware of the Rome Laboratory, but that 
is from my prior life.
    Chairman Boehlert. Yeah.
    Admiral Cohen. I am a big believer in competition. I 
believe in the best offer being rewarded. And as I indicated, 
this very wonderful authority that you gave had not been 
previously exercised. I plan on making myself a nuisance to the 
other departments so that the monies they have invested, we can 
harvest those technologies and then, either with those 
laboratories or other providers, go ahead and mature it and 
focus it for the unique requirements of Homeland Security.
    Chairman Boehlert. That is another observation that Dr. 
Worch made. You were somewhat critical the way the SBInet 
contract is being handled, you know, as one great big contract. 
How do you guys respond to that one?
    Mr. Giddens, you are the acquisition man.
    Mr. Giddens. So it seems, sir.
    That was clearly one of the issues that, as we were putting 
together the strategy, back earlier this year, that we wanted 
to address, and we believe we have addressed and mitigated that 
risk and the solicitation and the requests or proposal that we 
put out, we have had very strong language in that the offers 
had to provide their subcontracting plan. We have very strong 
language in there about oversight on their make-or-buy process. 
So when they decide, as he mentioned, company A is going to 
bring company A's goods to the table, they have to convince us. 
They have to present that make-or-buy decision to show us that 
that is where the value is. And we are ultimately in control. I 
don't want to make any mistake about who is working for who. 
The integrator is working for the United States Government and 
not the other way around, and we will make those calls. And 
they have to bring that to the table. And we put very clear and 
explicit language in the solicitation for them to identify how 
they would work that, how they would address conflicts of 
interest. I am not going to tell you it is not--we believe we 
put in the correct contractual language to allow us to mitigate 
and manage that risk but not avoid it.
    Chairman Boehlert. Dr. Worch, do you have any response to 
that?
    Dr. Worch. Well, I certainly hope you have the freedom to 
have on board technical experts on the government side.
    Chairman Boehlert. Well, that can help with this. It can't 
just be program managers. It has got to be people who have an 
intimate knowledge of those technologies that can be critical 
and make a decision. I am sure you are doing that. I--you know, 
you are nodding your head ``yes.''
    Admiral Cohen. Yes, sir. We have to be intelligent----
    Chairman Boehlert. Nodding your head ``yes'' means ``yes.''
    Admiral Cohen. I think Dr. Worch has it exactly right, and 
my people will be at the table and showing alternate or better 
or different solutions to what the prime integrator may be 
proposing, and then it will be up to the customer, the 
acquisition official, to decide what level of risk, cost, or 
schedule upset that they are willing to take to get the best 
solution at that time, but that will continue year-in and year-
out. And in fact, in the Navy we did this on, basically, a 
three-year cycle, and that is not an unreasonable cycle for 
technology insertia.
    Chairman Boehlert. Thank you. Our goal was to wrap this up 
at 4:30, but Ms. Jackson Lee wanted another minute, because she 
wanted some other comment, I think, maybe on her question. And 
then I will----
    Ms. Jackson Lee. Mr. Giddens--thank you, Mr. Chairman.
    Mr. Giddens, you had a comment on my earlier--I hope you 
remember the question that I asked earlier about human resource 
and technology. Would you want to just expand?
    Mr. Giddens. Yes, ma'am. I was, actually, also thinking 
back to the hearing we had in the spring on the Subcommittee on 
Management Integration Oversight.
    Ms. Jackson Lee. Yes.
    Mr. Giddens. And as we said then and the Subcommittee was 
interested in the lessons we had learned from ISIS and other 
activities and were we indeed going to pull this off in the 
SBInet by the end of September, we are still on track to do 
that. But as we have been in that source selection mode, I have 
been hesitant to get involved in the technology side, because 
we need to keep the purity of the source selection process. S&T 
has been doing that for us, and they have been very gracious at 
sort of segmenting people that were technical advisors to us 
and then segmenting people that could still stay in touch with 
the technology. As we are looking to award SBInet, we will 
have, then, a better ability to come, and we will be happy to 
come and brief you or your staff on some of the technology that 
is involved in that. But I am really not in a position to 
detail those out today.
    But your point about training, we have already engaged with 
the head of training at CBP and involved them early and started 
thinking about how can we prepare the men and women who are at 
the pointy end of doing the king's business on how to use these 
tools and not just throw those tools at them and expect them to 
figure it out. And you have made a very key point, and we need 
to train early and often.
    Ms. Jackson Lee. Do you have a sense of urgency?
    Mr. Giddens. Yes, ma'am.
    Ms. Jackson Lee. Thank you.
    I yield back. Thank you very much.
    Chairman Boehlert. Thank you very much.
    And as is the custom here, we will have some additional 
questions that we, perhaps, will submit to you individually in 
writing, and we would appreciate a timely response.
    For the closing word, now let the record note that we give 
the closing word to Mr. Gordon.
    Mr. Gordon.
    Mr. Gordon. Unless the Chairman doesn't like the word.
    First, let me thank all of you for spending two and a half 
hours with us. These hearings aren't intended to percolate up 
elegant answers to or, you know, complete answers to these 
problems, but rather to start our job of oversight, to put some 
fresh eyes on what goes on here. We have been able to witness a 
lot of successes, but we have also--we have discussed seeing a 
lot of the taxpayer money wasted and a lot of important 
programs bungled. And our great hope is not to say, you know, 
``We told you so,'' later, but to, again, put a little extra 
oversight so you have to work a little harder and know that you 
can't be, you know, cavalier.
    The second point I want to make is that, again, this is, 
obviously, an important problem, and the solution isn't--is 
going to be more than just on the border. It is going to take 
systems existing now and maybe created that will integrate with 
that, and I am sure you are going to be dealing with that.
    And finally, I suspect it will take ten times or more than 
that or 100 times the dollar figure to go from an 80 or 90 
percent penetration to a 100 percent. And it may--you know, and 
it--you know, the East Germans did a pretty good job, but they 
didn't stop folks from getting through. And I don't think that 
our country is going to be harmed too much if, you know, a half 
a dozen brick--you know, future bricklayers get through. But we 
are going to be harmed if--as Brad Sherman was talking about, 
if there are those folks that are coming through with bad 
intentions. Now I hope that, as you go through this process, 
that--I am more interested in 100 percent bad guys than I am 
100 percent everybody kind of solution. And we really need to 
put our attention on that. You talked about some of those 
characteristics. I think, you know, they may take multiple 
folks and they may take materials and a variety of things, and 
this is north border as well as south border. So as we go 
through and we have to make compromises, and as we have to pay 
the bills, that is my highest priority, and hopefully it would 
be yours, too.
    Chairman Boehlert. Thank you very much.
    And thank all of you. We really appreciate it.
    The hearing is adjourned.
    [Whereupon, at 4:34 p.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              

                   Answers to Post-Hearing Questions

Responses by Admiral Jay M. Cohen, Under Secretary for Science and 
        Technology, U.S. Department of Homeland Security; Accompanied 
        by Mr. Gregory L. Giddens, Director, Secure Border Initiative 
        Program Executive Office, U.S. Department of Homeland Security

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  Dr. Worch testified that there continue to be issues with the safe 
operation of unmanned aerial vehicles (UAVs) in commercial airspace. 
Specifically, he emphasized the need to develop reliable anti-collision 
technologies and the fact that the National Aeronautics and Space 
Administration has ended much of its work in this area.

Q1a.  Do you agree that this is an issue? If not, why not? If so, what 
UAV-related air safety research does DHS Science and Technology 
Directorate intend to sponsor or perform?

A1a. The S&T Directorate agrees that one of the most pressing needs for 
allowing unmanned aircraft to operate safely in commercial airspace is 
the development of reliable anti-collision technologies. To that end, 
the S&T Directorate is working cooperatively with the Federal Aviation 
Administration (FAA) and with the Department of Defense's (DOD's) 
Unmanned Aircraft Systems Airspace Integration Joint Integrated Product 
Team (JIPT) to define requirements for automated collision avoidance 
systems that would be suitable for use in unmanned aircraft. In FY 
2007, the S&T Directorate is taking a significant step by funding the 
Massachusetts Institute of Technology's Lincoln Laboratory to begin 
developing a simulation capable of modeling the broad spectrum of air 
traffic that Unmanned Aerial Vehicles (UAV's) will encounter and must 
avoid. This will be a first-of-its-kind simulation, more complex and 
capable than those used over a decade ago for the development of the 
Traffic Alert/Collision Avoidance System (TCAS). When completed in FY 
2008, the simulation will be used to validate requirements, test 
various automated sensing and avoidance schemes, and help the FAA 
certify the most effective one(s) for adoption and use in UAVs. The S&T 
Directorate is also actively participating in two committees that are 
engaged in developing standards for collision avoidance systems. These 
standards will form the foundation for FAA policy and regulatory 
action. Finally, as a full member of the JIPT and its Collision 
Avoidance Sub IPT, the S&T Directorate is systematically evaluating 
ongoing DOD collision avoidance efforts as potential solutions to the 
U.S. Customs and Border Protection's and Coast Guard's UAV needs in 
this area.

Q1b.  Since the SBInet announcement was made and it appears that UAVs 
are not integral to Boeing's short-term plans, will this change your 
plans for supporting UAV-related research?

A1b. Boeing has reviewed Customs and Border Protection (CBP) Air and 
Marine's Strategic Plan and CBP's plans for UAV's and, in particular, 
for use of Predator-B UAV's. The CBP A&M plans are integral in the 
Boeing solution and will: (a) provide coverage in ground-based sensor 
gaps; (b) provide immediate response to classify and identify 
problematic targets; and (c) extend tactical tracking capability to 
improve apprehension. In addition, Boeing also proposed a small, 
portable launch UAV (Skylark) with limited range (and low altitude) to 
provide agent-based reconnaissance and point-to-point search for 
response and apprehension teams in the field.

Q2.  How do you plan to improve the interagency coordination of 
research, development, testing, and evaluation relevant to homeland 
security?

A2. As part of the alignment of the S&T Directorate, an Agency and 
International Liaison Office was established. In accordance with the 
Homeland Security Act of 2002, this division will help the S&T 
Directorate fulfill its responsibility for ``coordinating with other 
appropriate executive agencies in developing and carrying out the 
science and technology agenda of the Department to reduce duplication 
and identify unmet needs.'' The Agency and International Liaison Office 
will have responsibility for building relationships and improving 
coordination with executive agencies and our international partners to 
leverage homeland security research, development, testing and 
evaluation (RDT&E) efforts across the government. A small cadre of 
talented professionals will serve as the ``ambassadors'' to executive 
agencies--expanding the S&T Directorate's breadth and depth of work 
with other federal agencies' laboratories and the laboratories of our 
international partners.

Q3.  At the hearing, the non-governmental witnesses described the key 
priorities for border security research and development as work on 
information integration, common operational languages, algorithm 
development, and airspace safety. They also stressed the importance of 
improving the communication of needs and testing and evaluation 
feedback to the private sector and training the next generation of 
scientist and engineers in critical areas by supporting long-term 
research.

     Please describe the DHS S&T priorities for research on border 
security technology and how they align with the areas recommended by 
the other witnesses. How were your priorities determined?

A3. The S&T Directorate's priorities for research on border security 
technology align well with the priorities described by the other 
witnesses. They include developing:

        <bullet>  Improved technology for detection, classification and 
        interdiction of illegal activity, identification of individuals 
        with hostile intentions, and enhancing the ability to make 
        rapid strategic and tactical response decisions;

        <bullet>  Technologies that enhance the Common Operating 
        Picture (COP) of the border environment for tactical and 
        operational planning with other federal, State and local law 
        enforcement partners;

        <bullet>  Tools to provide homeland security personnel 
        simultaneous and uniform access to information--both at and 
        between ports of entry--to ensure that an agent's geographic 
        location does not limit his or her access to actionable 
        intelligence;

        <bullet>  Rapid response capabilities to effectively respond to 
        cross-border violations. These include pursuit-termination 
        technology and command, control, and communications 
        technologies that improve situational awareness and provide 
        decision aids for commanders;

        <bullet>  Technologies that aid in the deterrence and 
        channeling of illegal cross-border activity;

        <bullet>  Technologies that improve voice and data connectivity 
        in remote field areas; and

        <bullet>  Airborne detection and surveillance technologies.

    These S&T Directorate border technology priorities are based upon 
the requirements of our DHS component customers. Priorities are 
established through an Integrated Product Team (IPT) approach among the 
S&T Directorate's border security customers that include U.S. Customs 
and Border Protection (CBP), U.S. Immigration and Customs Enforcement 
(ICE), U.S. Citizenship and Immigration Services (USCIS), United States 
Coast Guard (USCG), and others.

Q4.  What role will DHS S&T Directorate play in determining what 
technologies are to be deployed along the borders as part of SBInet? 
What role will it play in evaluating whether those technologies are 
effective?

A4. The S&T Directorate identifies (through a requirements-based 
process), develops, tests and facilitates the transition of advanced 
homeland security technical capabilities to SBI and SBInet. 
Specifically, the S&T Directorate supports SBInet through: (a) 
technical risk reduction by exploration of alternative technologies, 
(b) technology insertion into acquisition programs significantly 
enhance performance or reduce costs, and (c) pursue specific high risk 
/ high payoff innovations. The S&T Directorate will mature technologies 
through a proof-of-concept testing, and then, if proved, SBInet will 
incorporate them into the SBInet integrated technical solution. Because 
we expect our nation's adversaries to adapt to SBInet systems, the S&T 
Directorate's continuous infusion of new technology is absolutely 
essential to providing a sustainable long-term capability.

Questions submitted by Representative Jo Bonner

Q1.  In looking at the successful use of UAVs in the Middle East and 
the Global War on Terrorism how effectively would UAVs serve the United 
States along our southern border in what some may consider an non-
combat zone?

A1. The CBP Air & Marine UAV plans are integral to the SBInet solution 
to: (a) provide coverage in ground based sensor gaps, (b) provide 
immediate response to classify and identify problematic targets, and 
(c) extend tactical tracking capability to improve apprehension. In 
addition, SBInet is proposing a small, portable launch UAV (Skylark) 
with limited range (and low altitude) to provide agent-based 
reconnaissance and point to point search for response and apprehension 
teams in the field.

Q2.  Under Secretary Cohen, in your opinion, what are some of the most 
affordable, effective and available technologies that we should 
consider for border/coastal security?

A2. The S&T Directorate is developing border security technologies and 
will transition to its customers both affordable and effective 
capabilities that improve the security of our nation's borders. Its 
goal is to develop and integrate information management, officer safety 
and sensor technologies necessary to prevent the entry of terrorists, 
weapons of mass destruction (WMD), criminals, and illegal aliens 
through our nation's borders. We will address a range of technologies 
such as advanced surveillance systems (including automated scene 
understanding, advanced ground and maritime radars, and advanced ground 
sensors), pursuit termination technology, and remote determination of 
intent capability for checkpoints. These technologies will be 
integrated into the Secure Border Initiative (SBI) program as 
capabilities mature.

Questions submitted by Representative Judy Biggert

Q1.  Who in the world do you feel we can learn from in terms of their 
border security? Which countries use their technology most effectively? 
How is our technology similar? What can we learn from countries like 
Israel and even Mexico and Canada on their border security?

A1. There are a handful of countries that use a variety of 
technological solutions, such as innovative electro-optical systems for 
surveillance and tracking, optical fiber technology for security, video 
communication and control systems alongside image-processing and smart 
systems for electronic fences, etc. The technological components 
proposed by Boeing for the SBInet first Task Order, which is a twenty-
eight mile section of the Tucson sector, is primarily the same 
technology that is deployed along the Israeli border.

Q2.  A recent Governmental Accountability Office report on the Visa 
Waiver Program highlights several recommendations for increased 
security at ports of entry against individuals using lost and stolen 
passports. Among the weaknesses highlight in the report are the 
following: (1) DHS has not established adequate operating procedures 
for countries to report stolen or lost travel documents and (2) DHS has 
not given U.S. border inspectors automatic access to the International 
Criminal Police Organization (Interpol) lost and stolen travel document 
databases at primary inspection points.

     What technology is needed at ports of entry to correct this 
deficiency? What is the cost of this technology? How has DHS addressed 
these weaknesses? Is there a timeline for updating the technology 
available to border inspectors at primary inspection points?

A2. The Secretary of Homeland Security has made screening of the 
Interpol Stolen and Lost Travel Documents Database a goal for inbound 
air passengers. The inclusion of Interpol Data on Lost and Stolen 
Passports, (the Stolen and Lost Travel Documents Database or SLTD) is 
less reliant upon a technological solution than an agreement between 
Interpol and DHS to implement within agreed-upon parameters. Customs 
and Border Protection completed a pilot in July 2006 to assess the 
technical and operational issues. The expense for connectivity has been 
estimated at two million dollars for implementation and $500,000 as a 
yearly recurring cost. Access at airport primary inspection points is 
expected to be introduced in 2007 with eventual implementation to all 
primary inspection points.

Q3.  How sophisticated is the technology of those smuggling people, 
weapons, and drugs into our country?

A3. Smugglers, regardless of the item they are attempting to move, are 
creative and resourceful. They are adept at creating concealed 
compartments inside of otherwise normal appearing vehicles, shipping 
containers, and cargo items. They use computers and commonly available 
software to create or alter travel documents. They take advantage of 
difficult terrain and remote areas of our borders to surreptitiously 
enter the United States. They understand trade procedures and attempt 
to mask illicit activity under the guise of legitimate import of goods. 
CBP and ICE rely on a layered approach to border security that 
emphasizes effective personnel, infrastructure, technology, and 
resources to counter smuggling threats and ensure that regardless of 
the tactics used the adversary is successfully detected and responded 
to as appropriate.

Questions submitted by Representative Michael T. McCaul

Q1.  I would like to discuss the U.S. Visitor and Immigrant Status 
Indicator Technology (US-VISIT) program for a moment. Despite what many 
folks believe, the US-VISIT program has not been fully implemented. The 
Exit portion of US-VISIT is only operation as a pilot program in nine 
airports and two sea-ports. As you know the exit procedures of the 
program are critical component to the overall effectiveness of US-
VISIT. As visitors leave the country, US-VISIT Exit scans their travel 
documents and captures their biometrics, matching the visitors' 
identity, verifies departure, and confirms compliance with U.S. 
immigration policy.

     The U.S. allows in approximately 200 million temporary visitors a 
year, with virtually no way to keep visitors from staying beyond their 
authorized visit. DHS estimates that at least 30 percent of the 
approximately 10 million illegal immigrants living in the U.S. are 
probably visa absconders or over-stayers. The Government Accountability 
Office says that figure is more likely 40 percent.

     With such a national problem facing our country I am unable to 
understand why DHS has not fully rolled-out an exiting Departmental 
program, especially one involving bio-metrics that can help track visa 
overstays. Can you explain this?

A1. Response US-VISIT is reviewing how to improve biometric exit at air 
and sea ports of entry and how to improve compliance. US-VISIT will 
continue to use the Advanced Passenger Information System (APIS) to 
track departures.

Q2.  I understand that fiscal year 2006 (FY06) expenditure plan for US-
VISIT was never submitted to Congress--contained in that spending plans 
was additional FY06 monies to roll-out the Exit side of US-VISIT. The 
Senate, in their version of the FY07 DHS Appropriations Bill is also 
concerned regarding the current state of the Exit portion of US-VISIT. 
In fact, they directed DHS to submit a strategic plan for US-VISIT 30 
days after enactment of the bill.

     Given the importance of this program, does the Department of 
Homeland Security plan to submit to Congress a FY06 expenditure plan 
that includes a further roll-out of the Exit portion of US-VISIT?

A2. The US-VISIT FY2006 expenditure plan was delivered to Congress on 
August 14 and US-VISIT is now awaiting a response. The plan includes 
continuing current exit pilots.

Q3.  What is DHS's vision for SBInet? Mr. Giddens, what is your and 
DHS's strategic plan for SBInet? What did you communicate to private 
industry with regard to DHS's needs for this program?

A3. The challenges that this nation faces in having both open and 
secure borders is multi-faceted and complex. It encompasses not only 
the facilitation of legitimate trade and travel, but more importantly, 
the protection of our homeland from cross-border and transnational 
threats to our security, public safety and economy. With the mandates 
to have both open and secure borders also comes the recognition that 
attention must be paid to the processes that begin away from our 
borders, occur at the border, and continue to all regions of the United 
States. The Department's Secure Border Initiative (SBI) will create a 
new border security culture within the Department, integrating and 
unifying border security systems, and developing and coordinating 
programs and policies to secure the border and efficiently enforce U.S. 
immigration and customs laws.
    SBInet is a critical component of the Department's strategic 
strategy in securing the Nation's borders. SBInet, when fully 
implemented, will enable DHS to detect, identify, classify, respond and 
bring to a law enforcement resolution cross-border threats. SBInet will 
meet the varied requirements of the U.S. border environment--southern, 
northern and maritime. It will integrate capabilities by utilizing a 
systems- and risk-based approach. SBInet will also develop and deploy a 
Common Operating Picture providing commonality to DHS components as 
well as inter-operability with external stakeholders. What has been 
communicated to private industry from the onset by the highest levels 
of the Department is that the proposed solution must be a dynamic, 
creative systems approach that will ensure the optimum mix of 
personnel.

Q4.  Mr. Giddens, your testimony seemed to be very short on specifics. 
Could you describe the different, specific needs of the border and how 
specifically technology will address these requirements?

A4. The U.S. border can be best viewed as three basic tactical 
environments--urban, rural and remote. Different environments require 
different deployment tactics and this ultimately affects what specific 
technology will be used.
    In an urban environment, the criminal has the tactical advantage 
because an illegal entrant can be across the border and into the 
community infrastructure in a matter of minutes, sometimes seconds. If 
accessible to entry, urban areas require an inordinate number of 
enforcement personnel to effectively confront the illegal activity. The 
goal of technology used for border security in an urban environment is 
to create a perception of such impenetrability that potential illegal 
entrants and smugglers are deterred from attempting an entry, thereby 
reducing an excessive investment in personnel resources.
    In a rural area, the time it takes for an illegal entrant to mix 
into the community infrastructure is greater, thereby giving 
enforcement personnel the tactical advantage of time to respond, and 
the enforcement response may be measured. The technology used in the 
rural area will be able to detect the entry in time to respond, 
resolve, and bring the situation to an appropriate law enforcement 
resolution.
    In remote environments, the time from entry to infrastructure is 
greater still and may occur in hours or even days. In many remote 
areas, it may take two to three days to reach the nearest road. In such 
situations, CBP makes every effort to apprehend illegal entrants at a 
location as close to the point of entry as practical. Messaging 
targeted toward deterrence is an essential component to attaining 
border safety in a remote environment.
    The technology that will be used in all of the environments along 
the border will vary depending on the location, terrain, climate, 
topography, etc. CBP will utilize assorted tested and proven 
technologies that may include ground surveillance radars combined with 
unattended ground sensors and sensor assets attached to aerial 
vehicles. These technologies will complement other components and 
infrastructures to ensure the proper mix of systems are deployed along 
the border.

Question submitted by Representative Lincoln Davis

Q1.  Since its inception, DHS has benefited from a strong working 
relationship with the Department of Energy national labs, which have 
helped DHS identify, develop, and examine cutting edge homeland and 
border security technologies. How will the proposed reorganization of 
DHS S&T Directorate affect the way DHS works with the labs?

A1. The S&T Directorate recognizes the value of the national 
laboratories and will continue to utilize the expertise of the national 
laboratories. The S&T Directorate plans to leverage prior investments 
in the R&D capability of the national laboratories by the Department of 
Energy, the Department of Defense and many other agencies and to 
continue this farsighted tradition through focused investments for the 
future. The recent alignment of the S&T Directorate includes 
establishing a Director of Research position reporting to the Under 
Secretary, who will oversee the Office of National Laboratories, which 
has responsibility for coordination and utilization of the national 
laboratories to support the homeland security mission. This includes 
both harvesting current national laboratory science and technology and 
supporting investments that are needed to develop and maintain critical 
homeland security capabilities for the future. Both of these missions 
are essential.

                   Answers to Post-Hearing Questions

Responses by Peter R. Worch, Independent Consultant, Member of the U.S. 
        Air Force Science Advisory Board

Question submitted by Representative Jo Bonner

Q1.  I wish we could match good ideas with funding--but we have to 
search out great ideas, establish the cost of the projects, and have 
them implemented. As we go through this process, a lot has been said 
about Unmanned Aerial Vehicles (UAVs) along the border. Some reports 
suggest the use of UAVs in one of the most costly means of monitoring 
border security--please explain some of the uphill battles of this 
costly project.

A1. The purchase and operation of unmanned aerial vehicles for border 
surveillance (or any other application) is costly. I don't know the 
exact numbers because the cost analyses I have seen have tended to use 
flawed assumptions.
    In the border security tasks, the initial ``trip-wire'' detections 
would best be accomplished by buried (or covert) unattended ground 
sensors. A somewhat larger area may be covered by the pole mounted 
sensors (terrain, foliage, and urban structures permitting). Clearly, 
ground or pole-mounted sensors are low in cost. But both are 
inflexible--they can only cover that designated area around their 
location. In forested areas, for example, these sensors would have to 
be very closely spaced (100's of feet). Moreover, for the pole-mounted 
sensors, a determined intruder would certainly figure out a way to 
avoid detection by the pole-mounted sensors because he/she can easily 
see the areas such a sensor could see or not see. Various cover, 
concealment, and camouflage means (as well as careful timing) could 
avoid detection.
    The value of the UAV is that it can

        --  rapidly deploy to a newly-identified area of suspected or 
        real penetrations

        --  provide persistent surveillance at that site, and

        --  provide relentless tracking of the intruder, no matter 
        where he/she chose to travel. (The use of Predator in Iraq has 
        time and again demonstrated this strength.)

    In my mind, the UAVs would not patrol the entire border, but would 
be selectively used in situations in which fixed (including aerostat-
carried) sensors simply could not provide the service. Thus, a limited 
number would be procured and strategically based to do tasks that other 
sensor concepts could not do, and to augment other elements of border 
security.
    Thus, I see it as a matter of cost-effectiveness, not just cost.
    As for the ``uphill battles,'' I see three issues to be addressed 
in establishing an effective UAV surveillance force:

        <bullet>  Human-System Integration (HSI)--situational 
        awareness, controls and displays, health management, and 
        emergency procedures all require improved HSI to be safe and 
        effective in intercepting intruders

        <bullet>  Detect, See and Avoid techniques that are highly 
        automated, vision-based systems are needed for UAV operations 
        (and would benefit civil and military aircraft) in civil 
        airspace

        <bullet>  Careful, but limited, basing and an appropriate 
        concept of operations to provide for reasonable flyout times, 
        supportability, and system cost effectiveness.

    These issues are not insurmountable, nor are the solutions in 
themselves costly. Joint efforts with the military to address the first 
two issues would be appropriate.


</pre></body></html>
